<html>
<title> - PREVENTING WASTE, FRAUD, ABUSE, AND MISMANAGEMENT IN HOMELAND SECURITY--A GAO HIGH-RISK LIST REVIEW</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



                  PREVENTING WASTE, FRAUD, ABUSE, AND 
    MISMANAGEMENT IN HOMELAND SECURITY--A GAO HIGH-RISK LIST REVIEW

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 7, 2014

                               __________

                           Serial No. 113-67

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

89-762 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Paul C. Broun, Georgia               Yvette D. Clarke, New York
Candice S. Miller, Michigan, Vice    Brian Higgins, New York
    Chair                            Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Jeff Duncan, South Carolina          Ron Barber, Arizona
Tom Marino, Pennsylvania             Dondald M. Payne, Jr., New Jersey
Jason Chaffetz, Utah                 Beto O'Rourke, Texas
Steven M. Palazzo, Mississippi       Filemon Vela, Texas
Lou Barletta, Pennsylvania           Eric Swalwell, California
Richard Hudson, North Carolina       Vacancy
Steve Daines, Montana                Vacancy
Susan W. Brooks, Indiana
Scott Perry, Pennsylvania
Mark Sanford, South Carolina
Vacancy
                   Brendan P. Shields, Staff Director
          Michael Geffroy, Deputy Staff Director/Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     4

                               Witnesses

Mr. Alejandro N. Mayorkas, Deputy Secretary, U.S. Department of 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     6
Mr. Gene L. Dodaro, Comptroller General of the United States, 
  Government Accountability Office:
  Oral Statement.................................................    13
  Prepared Statement.............................................    14
Mr. John Roth, Inspector General, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    28
  Prepared Statement.............................................    29

                                Appendix

Questions From Chairman Michael T. McCaul for Alejandro N. 
  Mayorkas.......................................................    55
Question From Honorable Patrick Meehan for Alejandro N. Mayorkas.    58
Questions From Honorable Tom Marino for Alejandro N. Mayorkas....    59
Question From Chairman Michael T. McCaul and Ranking Member 
  Bennie G. Thompson for Gene L. Dodaro..........................    61
Question From Honorable Yvette D. Clarke for Gene L. Dodaro......    62
Question From Chairman Michael T. McCaul for Gene L. Dodaro......    62
Question From Honorable Jeff Duncan for Gene L. Dodaro...........    63
Question From Honorable Tom Marino for Gene L. Dodaro............    65
Questions From Chairman Michael T. McCaul for John Roth..........    65
Question From Honorable Jeff Duncan for John Roth................    67

 
     PREVENTING WASTE, FRAUD, ABUSE, AND MISMANAGEMENT IN HOMELAND 
                 SECURITY--A GAO HIGH-RISK LIST REVIEW

                              ----------                              


                         Wednesday, May 7, 2014

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:09 a.m., in Room 
311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the committee] presiding.
    Present: Representatives McCaul, Broun, Duncan, Hudson, 
Sanford, Thompson, Clarke, Richmond, Payne, and O'Rourke.
    Chairman McCaul. Committee on Homeland Security will come 
to order. Committee is meeting today to examine testimony 
regarding the prevention of waste, fraud, abuse, and 
mismanagement at the Department of Homeland Security. I 
recognize myself for an opening statement.
    While the Department of Homeland Security's mission is 
critical, it is also critical that it keeps its finances in 
check because in order to protect the homeland we must maximize 
every dollar spent. Almost as soon as the Department's 
creation, the Government Accountability Office placed some of 
DHS's programs on its high-risk list, and today many remain.
    This list is developed every 2 years by watchdogs at GAO to 
identify areas in the Federal Government that are high-risk to 
fraud, waste, abuse, and mismanagement, or are in the most need 
of broad reform. It is intended to draw attention to these 
areas to force agency leaders to improve.
    Unfortunately some of the programs identified include some 
of the Department's core functions such as acquisitions, 
management, financial management, information technology, human 
capital and management integration, as well as multi-agency 
challenges such as information sharing and cybersecurity.
    While the Department has devoted time to addressing GAO's 
high-risk areas, these reports continue to show examples of 
programs ignoring best practices and putting taxpayer dollars 
at risk.
    Recent GAO findings have identified challenges with the 
Arizona Border Surveillance Technology Plan, TSA body scanners, 
modernization of key border enforcement system known as TECS, 
and the Department's acquisition funding plans.
    All levels of DHS must be fully committed to make the 
Department more efficient and effective. To this end, this 
committee has taken action to address specific issues 
highlighted in GAO's high-risk report.
    H.R. 3696, the National Cybersecurity and Critical 
Infrastructure Protection Act, and H.R. 4228, the DHS 
Acquisition Accountability and Efficiency Act both passed out 
of this committee unanimously and are important pieces of 
legislation to increase our Nation's cybersecurity and improve 
the Department's management of its acquisition programs.
    Additionally, our recent bipartisan report on the Boston 
bombings highlighted the need for improved information sharing, 
which addresses another high-risk item.
    Finally, while I am encouraged by the steps taken by DHS in 
recent years to address these issues, including achieving a 
clean audit opinion in 2013, there is clearly much more work to 
be done. In the short time since they have assumed their new 
positions, Secretary Johnson and Deputy Secretary Mayorkas have 
both already endeavored to fix the management problems at DHS. 
Today I look forward to hearing from them on their plans to 
improve the Department.
    However, assurances from the top and putting plans in place 
only go so far. It will take time and follow-up and continued 
oversight to ensure improved outcomes are sustained over 
multiple years. To that end I look forward to Comptroller 
General Dodaro and recently-confirmed DHS Inspector General 
Roth's testimony today. Their recommendations to make DHS a 
more effective and efficient organization are essential to 
making Americans safer.
    Ultimately every dollar wasted on mismanagement is one less 
that can go to the men and women protecting our borders, 
targeting terrorists, securing our airports, and patrolling our 
shores. That is why this hearing and DHS's commitment to 
getting its house in order is so important.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                              May 7, 2014
    While the Department of Homeland Security's mission is critical, it 
is also critical that it keeps its finances in check, because in order 
to protect the homeland we must maximize every dollar spent.
    Almost as soon as the Department's creation, the Government 
Accountability Office (GAO) placed some of DHS's programs on its 
``High-Risk List,'' and today, many remain. This list is developed 
every 2 years by the watchdogs at GAO to identify areas in the Federal 
Government that are at high risk to fraud, waste, abuse, and 
mismanagement or are in most need of broad reform, and it is intended 
to draw attention to these areas to force agency leaders to improve.
    Unfortunately, some of the programs identified include some of the 
Department's core functions such as acquisition management, financial 
management, information technology, human capital, and management 
integration, as well as, multi-agency challenges such as information 
sharing and cybersecurity.
    While the Department has devoted time to addressing GAO's High-Risk 
areas, these reports continue to show examples of programs ignoring 
best practices and putting taxpayer dollars at risk. Recent GAO 
findings have identified challenges with the Arizona Border 
Surveillance Technology Plan, TSA body scanners, modernization of a key 
border enforcement system known as TECS, and the Department's 
acquisition funding plans. All levels of DHS must be fully committed to 
making the Department more efficient and effective.
    To this end, this committee has taken action to address specific 
issues highlighted in GAO's High-Risk report. H.R. 3696, the National 
Cybersecurity and Critical Infrastructure Protection Act, and H.R. 
4228, the DHS Acquisition Accountability and Efficiency Act--both 
passed out of this committee unanimously--are important pieces of 
legislation to increase our Nation's cybersecurity and improve the 
Department's management of its acquisition programs. Additionally, our 
recent bipartisan report on the Boston bombings highlighted the need 
for improved information sharing, which addresses another High-Risk 
item.
    Finally, while I am encouraged by the steps DHS has taken in recent 
years to address these issues including achieving a clean audit opinion 
in 2013, there is clearly much more work to be done. In the short time 
since they've assumed their new positions, Secretary Johnson and Deputy 
Secretary Mayorkas have both already endeavored to fix the management 
problems at DHS, and today I look forward to hearing more from them on 
his plan for improving the Department. However, assurances from the top 
and putting plans in place only go so far. It will take time and 
follow-up and continued oversight to ensure improved outcomes are 
sustained over multiple years.
    To that end, I look forward to Comptroller General Dodaro and 
recently confirmed DHS Inspector General Roth's testimony today. Their 
recommendations to make DHS a more effective and efficient organization 
are essential to making Americans safer. Ultimately, every dollar 
wasted on mismanagement is one less that can go to the men and women 
protecting our borders, targeting terrorists, securing our airports, 
and patrolling our shores. That's why this hearing, and DHS' commitment 
to getting its house in order, is so important.

    Chairman McCaul. With that the Chairman now recognizes the 
Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman. I thank you for 
holding today's hearing. I also want to thank the comptroller 
general, deputy secretary, and inspector general for their 
testimonies today.
    Today's hearing is to examine the Department of Homeland 
Security's management functions deemed high-risk by the 
Government Accountability Office, and the steps that the 
Department is taking to improve in these areas. At the 
beginning of each Congress the GAO releases its high-risk 
update, which focuses on agencies and programs that are 
vulnerable to waste, fraud, and abuse.
    Understandably when the Department was formed in 2003 it 
was placed on the high-risk list because of the challenges 
associated on transforming 22 legacy agencies into one new 
Federal department. It was also put on the high-risk list 
because its failures to effectively do so could present 
National security risks.
    Unfortunately, more than a decade after its inception the 
Department remains on the high-risk list. One reason is that 
the Department has struggled to integrate its management 
functions across all components. These integration challenges 
present diverse operational and management problems at the 
Department at all levels.
    There has been general acceptance of the One DHS concept 
advanced by the last Secretary of Homeland Security. But what 
is needed at this pivotal moment is a leader who will animate 
that slogan and put structures and procedures in place to fully 
integrate the Department.
    Secretary Johnson may well be that leader, but any reforms 
will be at the mercy of an entrenched and unhappy workforce and 
the clock. I look forward to working with Secretary Johnson to 
bring about needed reforms.
    For the first time since its inception, however, the 
Department received its first clean audit of all its financial 
statements for fiscal year 2013. As commendable as this may be, 
we must not overlook that the independent auditor did find 
continued weaknesses in the Department's financial controls.
    Another challenging area for the Department is its IT 
acquisitions and management. Over the years the Department has 
had varying success acquiring and implementing information 
technology systems. Some systems have performed as promised, 
while others have failed to deliver capabilities and mission 
benefit.
    There is a need for the Department to strengthen its 
internal IT governance. GAO has noted that the Department has 
more work to do to fully address its IT management challenges 
such as finalizing policies and procedures associated with its 
new governance structure.
    Finally, the Department spends approximately a quarter of 
its annual budget procuring goods and services in support of 
its homeland security missions. Yet since its inception, 
managing acquisitions has been a significant challenge for the 
Department.
    The management framework put in place by the prior DHS 
leadership has the potential for improving DHS acquisition 
management in significant ways. That is why I am pleased that 
this committee was able to come together in a bipartisan 
fashion last week and pass H.R. 4228, the DHS Acquisition 
Accountability and Efficiency Act, which seeks to codify what 
has been deemed by the comptroller general and other watchdogs 
as successful, and seeks to close other gaps that exist.
    Mr. Chairman, I look forward to more ways that this 
committee can work to help advance the Department and help it 
achieve the goals of being fully integrated with clean 
financial audits and internal management and oversight controls 
in its information technology and acquisition departments.
    Given the pivotal role the Department has in protecting and 
preparing America, management challenges become a distraction 
and have grave consequences for our National security. Hence, 
it is my hope that the Department can continue to progress, and 
we can see a date when it is not a part of the GAO high-risk 
list.
    With that, Mr. Chairman, I yield back. Thank you.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                              May 7, 2014
    Today's hearing is to examine the Department of Homeland Security's 
management functions deemed high-risk by the Government Accountability 
Office and the steps that the Department is taking to improve in these 
areas.
    At the beginning of each Congress, the GAO releases its ``High-Risk 
Update'' which focuses on agencies and programs that are vulnerable to 
waste, fraud, and abuse. Understandably, when the Department was formed 
in 2003, it was placed on the ``high-risk list'' because of the 
challenges associated with transforming 22 legacy agencies into one new 
Federal Department. It was also put on the ``high-risk list'' because 
its failure to effectively do so could present National security risks.
    Unfortunately, more than a decade after its inception, the 
Department remains on the ``high-risk list.'' One reason is that the 
Department has struggled to integrate its management functions across 
all the components. These integration challenges present diverse 
operational and management problems at the Department at all levels.
    There has been general acceptance of the ``One DHS'' concept 
advanced by the last Secretary of Homeland Security but what is needed 
at this pivotal moment is a leader who will animate that slogan and put 
structures and procedures in place to fully integrate the Department. 
Secretary Johnson may well be that leader but any reforms will be at 
the mercy of an entrenched and unhappy workforce and the clock. I look 
forward to working with Deputy Secretary Mayorkas and Secretary Johnson 
to bring about needed reforms.
    For the first time since its inception, the Department received its 
first clean audit on all its financial statements for fiscal year 2013. 
As commendable as this may be, we must not overlook that the 
independent auditor did find continued weakness in the Department's 
financial controls.
    Another challenging area for the Department is IT acquisitions and 
management. Over the years, the Department has had varying success 
acquiring and implementing information technology systems; some systems 
have performed as promised while others have failed to deliver 
capabilities and mission benefits. There is a need for the Department 
to strengthen its internal IT governance. GAO has noted that the 
Department has more work to do to fully address its IT management 
challenges such as finalizing policies and procedures associated with 
its new governance structure.
    Finally, the Department spends approximately a quarter of its 
annual budget procuring goods and services in support of its homeland 
security missions. Yet, since its inception, managing acquisitions has 
been a significant challenge for the Department.
    The management framework put in place by the Obama administration 
has the potential for improving DHS acquisitions management in 
significant ways. That is why I am pleased that this committee was able 
to come together in a bipartisan fashion last week and passed H.R. 
4228, the ``DHS Acquisition Accountability and Efficiency Act,'' which 
seeks to codify what has been deemed by the Comptroller General and 
other watchdogs as successful and seeks to close other gaps that exist.
    I look forward to more ways that this committee can work to help 
advance the Department and help it achieve the goals of being fully 
integrated, with clean financial audits, and internal management and 
oversight controls in its information technology and acquisitions 
departments.
    Given the pivotal role the Department has in protecting and 
preparing America, management challenges become a distraction and have 
grave consequences for our National security. Hence, it is my hope that 
the Department can continue to progress and we can see a day when it is 
not a part of the GAO High-Risk list.

    Chairman McCaul. I thank the Ranking Member. Other Members 
I remind they may submit an opening statement for the record.
    We are pleased to have here today a distinguished panel of 
witnesses; first, the Honorable Alejandro Mayorkas, who was 
sworn in as deputy secretary of the Department of Homeland 
Security in December 2013.
    Prior to his appointment he served as director of the 
Department's United States Citizenship and Immigration 
Services. He led a workforce of 18,000 employees throughout 
more than 250 offices world-wide rector of the Department's 
United States Citizenship and Immigration Services.
    Before joining DHS Mr. Mayorkas was a partner at a law 
firm. In 1998 he was appointed as the United States Attorney 
for the Central District of California.
    Thanks for being here today.
    Next we have the Honorable Gene Dodaro, who became the 
eighth comptroller general of the United States, and head of 
the United States Government Accountability Office.
    In December 2010, after serving in the capacity of 
``acting'' since March 2008 as comptroller general he has 
helped oversee the development and issuance of hundreds of 
reports and testimonies each year to various committees and 
individual Members of Congress. These and other GAO products 
have led to hearings and legislation, billions of dollars in 
taxpayer savings, and improvements to a wide range of 
Government programs and services.
    Then last but not least, the Honorable John Roth. Let me 
mention it is Mr. Dodaro's birthday today, and we wish you a 
happy birthday, as well.
    Then last, Mr. John Roth, who assumed the post of inspector 
general for the Department of Homeland Security in March 2014. 
Previously he served as director of the Office of Criminal 
Investigations at the Food and Drug Administration. Prior to 
that, he had a long and distinguished record and career with 
the Department of Justice beginning in 1987 as Assistant U.S. 
Attorney for the Eastern District of Michigan.
    It is great to see so many brethren DOJ on this panel. 
Their full written statements will appear on the record. The 
Chairman now recognizes Deputy Secretary Mayorkas for 5 
minutes.

  STATEMENT OF ALEJANDRO N. MAYORKAS, DEPUTY SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Mayorkas. Thank you very much, Mr. Chairman. Mr. 
Chairman and distinguished Members of this committee. I very 
much appreciate the opportunity to testify before you today. I 
feel privileged to appear before you as the deputy secretary of 
Homeland Security.
    I pledged to this committee an open, transparent, and fully 
cooperative Department. We deeply appreciate the work of this 
committee and have profound respect for it. Strong oversight 
drives good Government, and we recognize and appreciate that.
    I also want to thank my fellow witnesses before you today, 
Mr. Dodaro and Mr. Roth, for the work that they perform and 
that their teams perform. We share a common goal of making the 
Department everything that it should be.
    Mr. Chairman, Ranking Member Thompson, and distinguished 
Members, I submitted to this committee written testimony, and I 
will not repeat it now.
    I do want to underscore one overriding fact, and that is my 
immense pride in working alongside the men and women of the 
Department of Homeland Security. Those incredibly dedicated 
individuals deserve a Department and deserve management 
functions and processes and institutions that bring out the 
best in them and enable them to do their jobs at the highest 
levels of excellence to which they aspire.
    With that I look forward to the opportunity to answer 
whatever questions you might have. Thank you.
    [The prepared statement of Mr. Mayorkas follows:]
              Prepared Statement of Alejandro N. Mayorkas
                              May 7, 2014
    Chairman McCaul, Ranking Member Thompson, and distinguished Members 
of the committee, thank you for the opportunity to appear before you as 
the deputy secretary of Homeland Security to testify on the subject of 
management at this important hearing entitled ``Preventing Waste, 
Fraud, Abuse and Mismanagement in Homeland Security--a GAO High-Risk 
List Review.'' I, along with Secretary Johnson, appreciate and welcome 
the committee's continued focus on this subject and for the oversight 
you exercise. It is my firmly-held belief that good oversight not only 
delivers accountability critical to good government, but that it also 
drives innovation. Thank you, and thank you to the members of your 
staff.
    I also wish to express my gratitude to the U.S. Government 
Accountability Office (GAO). Under Comptroller General Gene Dodaro's 
leadership, GAO has spent considerable time and energy providing our 
Department with its valued, independent assessment of our work in areas 
critical to the effective management of our resources and execution of 
our responsibilities. GAO has issued recommendations to our Department 
that, collectively, help provide a blueprint for success. It is in 
response to GAO's independent reviews and recommendations that in 
January 2011 our Department issued the first Integrated Strategy for 
High Risk Management, an operational framework to address GAO's 
recommendations. Since we issued the Integrated Strategy, we have 
updated it twice yearly to document the progress our Department has 
made in addressing GAO's recommendations. It pleases me to note that we 
have come far in the last 5 years; today the Department eagerly engages 
with GAO about outstanding recommendations. We seek out GAO.
    Like the responsibility of the GAO to provide its independent 
assessment of the Department's execution of responsibilities, it is the 
duty of the Office of the Inspector General to deliver its own 
independent and high-quality review of Departmental functions. I am 
grateful to testify before you today alongside the Department's new 
inspector general, John Roth. I look forward to supporting the work of 
Inspector General Roth and to ensuring the Department's transparency 
and full cooperation as he and I work to improve and strengthen the 
Department in our respective roles.
    When I became the deputy secretary of DHS in late December 2013, 
the first action I took was to schedule a meeting with Comptroller 
General Dodaro. In our meeting I had the opportunity to also meet 
George Scott, the managing director of GAO's Homeland Security and 
Justice team. Mr. Scott and I have met on several occasions since then, 
and he and his team are outstanding in their commitment to improving 
our Department. With Mr. Scott's and his team's independent efforts, 
with the oversight of GAO and that of this committee, DHS will mature 
and improve.
    The number of open GAO recommendations to DHS has decreased 
steadily and, significantly, in GAO's latest High-Risk List update it 
narrowed the subject from ``Implementing and Transforming DHS'' to 
``Strengthening DHS Management Functions.'' Additionally noteworthy is 
the fact that GAO stated in that update that our Department's 
Integrated Strategy, ``if implemented and sustained, provides a path 
for DHS to be removed from GAO's High-Risk List.'' DHS has made 
significant progress.
    At the same time, DHS has additional work to do. Since I became the 
deputy secretary I have invested considerable time in working with GAO 
and with my very talented and dedicated DHS colleagues to ensure that 
this additional work is done as effectively and swiftly as possible. 
Earlier this year, we developed specific action plans to address the 30 
key outcomes GAO identified in the areas of management integration, 
human capital, information technology, financial management, and 
acquisitions. Our action plans now provide month-to-month goals that 
provide a better road map to success. Our development of these action 
plans provided us with the opportunity to freshly review our previous 
efforts and, in certain critical areas, to accelerate our time tables 
materially.
   strengthening department of homeland security management functions
    Before discussing the work that DHS has undertaken to make progress 
on key GAO High-Risk List areas, I wish to highlight the actions we 
have recently taken that speak to our Departmental commitment to sound 
management practices. On April 22, 2014, the Secretary sent a 
memorandum to Department leadership entitled, ``Strengthening 
Departmental Unity of Effort.'' The purpose of this effort is to 
capitalize on the many strengths of the Department, starting with the 
professionalism, skill, and dedication of its people and the rich 
history and tradition of its components, while identifying ways to 
enhance the cohesion of the Department as a whole. The Secretary's 
guidance is targeted at improvements to four main lines of effort: 
Inclusive senior leader discussion and decision-making forums that 
provide an environment of trust and transparency; strengthened 
fundamental and critical management processes for investment (including 
requirements, budget, and acquisition processes) that look at cross-
cutting issues across the Department; focused, collaborative 
Departmental strategy, planning, and analytic capability that support 
more effective DHS-wide decision-making and operations; and, enhanced 
coordinated operations to harness the significant resources of the 
Department more effectively. Many of the elements of this effort are 
described below, as they cut across the several management areas 
discussed in GAO's High-Risk List.
    GAO's High-Risk List focus on ``Strengthening DHS Management 
Functions'' identified the need to achieve progress in key management 
areas, including human capital management, financial management, 
acquisitions, information technology, and management integration. The 
Department's Integrated Strategy for High-Risk Management provides the 
framework for our efforts to address GAO's recommendations and 
integrate and strengthen our management infrastructure across the 
Department; our monthly action plans help ensure that we have goals and 
time lines to help us deliver success in timely fashion. I would like 
to share with you our efforts in each key area of focus.
Human Capital Management
    The Department of Homeland Security's greatest asset is its 
dedicated and talented workforce. GAO has identified areas in which the 
Department must mature its human capital systems to ensure that its 
workforce is properly equipped and supported to achieve the 
Department's challenging missions. The Department, in turn, has 
accelerated time lines in its monthly action plans to achieve success 
in this critical area.
    The low employee morale in several parts of the Department is an 
area of particular focus. Under the direction of Secretary Johnson, I 
am taking a series of steps to address the root causes of the low 
morale and to deliver for the workforce the Department it deserves. I 
have formed a steering committee comprised of personnel from each of 
the Department's component agencies and from Department headquarters to 
focus on, among other things, the following areas that the workforce 
has identified in the Federal Employee Viewpoint Survey and in other 
feedback vehicles as ones in which the Department can improve:
  <bullet> The hiring and promotion process. DHS employees have 
        expressed concerns that the hiring and promotion process is 
        sometimes opaque. The Department can build greater employee 
        confidence in the process through greater transparency and 
        communication and by setting clear hiring and promotion 
        standards.
  <bullet> Training and professional development. DHS employees have 
        expressed a desire for enhanced training opportunities to 
        ensure they are equipped to perform their jobs at the highest 
        levels of excellence. They also have sought professional 
        development opportunities that will enable them to achieve the 
        promotions or new opportunities to which they aspire.
  <bullet> Rewards and recognition. DHS employees perform extraordinary 
        acts of patriotism and courage each and every day throughout 
        the Nation and the world. They deserve to be recognized, 
        rewarded, and championed for their achievements. The Department 
        is reintroducing the Secretary's annual awards to recognize 
        outstanding individual and team achievements from across the 
        Department. In addition, the Department will institutionalize 
        the practice of regularly championing its workforce and 
        rewarding them when appropriate.
  <bullet> Performance management. Performance management is a critical 
        tool in promoting priorities and values and driving 
        accountability. The steering committee will focus on ensuring 
        that each component and office in the Department has a 
        performance management system that reflects the appropriate 
        measures of success and drives each employee to achieve that 
        success.
Financial Management
    In fiscal year 2013, DHS achieved an historic unqualified clean 
audit opinion of all five financial statements, a confirmation of DHS's 
on-going commitment to sound financial management practices. This 
benchmark represented a huge accomplishment for the many DHS employees 
who work every day to increase transparency and accountability for the 
taxpayer resources entrusted to the Department. Americans have the 
right to expect that we will be responsible stewards of every homeland 
security dollar with which we are entrusted.
    The Department expects to sustain this progress and receive its 
second clean audit opinion for fiscal year 2014. In the past 4 years, 
DHS has also eliminated 10 audit qualifications, reduced Department-
wide material weaknesses in internal controls over financial reporting 
from 10 to 4, and significantly reduced the number of component 
conditions contributing to material weaknesses from 25 to 2. The 
Department is executing a multi-year plan to achieve an unqualified 
clean opinion for internal control of financial reporting by fiscal 
year 2016.
    Financial system modernization is a priority area for the 
Department. DHS is executing specific modernization efforts in order to 
meet the Department's mission while minimizing and eliminating spending 
in duplicative systems. The current strategy conforms to guidance from 
the Office of Management and Budget to use shared services where 
possible and to split modernization projects into smaller, simpler 
segments with clear deliverables. One of our challenges in the shared 
services domain is that no one Federal agency has sufficient capacity 
to house all of the Department's financial management data. As a 
result, we are evaluating the capabilities of the Federal agencies who 
offer shared services arrangements. The DHS Chief Financial Officer has 
established enterprise-wide standards for each component to follow and 
has prioritized a deployment strategy based on those components with 
the highest business needs.
Acquisitions Management
    The strategic decisions of the Department's senior leadership are 
only as good as the processes that support and give effect to those 
decisions in investments and in the conduct of operations. 
Historically, DHS has generally developed and executed component-
centric requirements, which has resulted in inefficient use of limited 
resources. Much work has been done to date in the areas of joint 
requirements analysis, program and budget review, and acquisition 
oversight, including an effort over the past 4 years by the DHS 
Management Directorate to improve the Department's overall acquisitions 
process and reform even the earliest phase of the investment life cycle 
where requirements are first conceived and developed. The Secretary's 
April 22, 2014 memorandum on ``Strengthening Departmental Unity of 
Effort'' focuses and reinforces existing structures and creates new 
capability, where needed, as identified in the recent Integrated 
Investment Life Cycle Management (IILCM) pilot study and other process 
analyses that examined the linkages between these inter-related 
planning processes and operations. These analyses underscored the need 
to further strengthen all elements of the process, particularly the up-
front development of strategy, planning, and joint requirements, and to 
ensure through collaborative, inclusive senior leadership dialogue and 
decision that they function in a way that considers DHS-wide missions 
and functions, rather than focusing on those of an individual 
component.
    As an example, I am leading the Deputies Management Action Group in 
an expedited review to provide strategic alternatives for enhancing the 
current DHS joint requirements process. This review will include 
options for developing and facilitating a DHS component-driven, joint 
requirements process, including a program for oversight of a 
development test and evaluation capability, to identify priority gaps 
and overlaps in Departmental capability needs, provide feasible 
technical alternatives to meet capability needs, and recommend to me 
the creation of joint programs and joint acquisitions to meet 
Department-wide mission needs. This enhanced process will be used in 
expanding the mission portfolios studied in the IILCM pilot, which 
included Cybersecurity, Biodefense, and Screening and Vetting, to 
include Border Security and Air Domain.
    DHS recently announced two important decisions that speak to our 
commitment to responsible and cost-effective acquisitions. First, DHS 
cancelled the BioWatch acquisition of autonomous detection technology 
(also known as Gen-3). Currently deployed in more than 30 metropolitan 
areas across the country, BioWatch provides public health officials 
with a warning of a biological agent release before potentially exposed 
individuals develop symptoms of illness. While autonomous detection is 
an important capability, the Gen-3 acquisition did not reflect the best 
use of resources in our current fiscal environment. DHS remains 
committed to the BioWatch program and will ensure that current BioWatch 
operations continue as part of our layered approach to biodefense. 
Second, DHS is putting on hold a FEMA Logistics Supply Chain Management 
System contract until further review. FEMA's Logistics Supply Chain 
Management System was developed to provide full disaster supply chain 
management capability and visibility to FEMA and its partners. The 
Department has determined that the program has not met all of its 
operational requirements and that it needs to be reviewed in the 
context of broader logistical operations. That review is underway, 
which will include a third-party evaluation of the most cost-effective 
manner. These decisions are in line with the Department's focus on 
efficiency, ensuring that we continue to pursue cost-effective 
acquisition without compromising our security. The Secretary and I will 
continue to hold our acquisition programs accountable to ensure they 
are responsible and cost-effective.
    Additionally, the DHS Chief Financial Officer has strengthened and 
enhanced the Department's programming and budgeting process by 
incorporating the results of strategic analysis and joint requirements 
planning into portfolios for review by issue teams. Using this 
approach, substantive, large-scale alternative choices will be 
presented to the Deputies Management Action Group as part of the annual 
budget development. This review process will also include the 
Department's existing programmatic and budgetary structure, not just 
new investments. It will include the ability for DHS to project the 
impact of current decisions on resource issues such as staffing, 
capital acquisitions, operations and maintenance, and similar issues 
that impact the Department's future ability to fulfill its mission 
responsibilities. As its first task, the Deputies Management Action 
Group will focus this enhanced programming and budgeting process on the 
development of options for the fiscal year 2016 budget request.
    In the oversight phase, we will continue to leverage the Component 
Acquisition Executive structure and enhanced business intelligence to 
proactively identify performance problems with existing programs 
throughout their life cycle. While there is work to be done to sustain 
our progress, we are encouraged by an Office of the Inspector General 
report that stated that DHS has significantly strengthened our 
acquisition management oversight.
    We have also made significant progress in strengthening the 
document review process. In 2013, the under secretary for management 
issued a decision memorandum stating that no new program can proceed 
without the approved acquisition documentation, including life-cycle 
cost estimates, mission needs statements, test and evaluation plans, 
and operational requirements documents.
    To ensure we have an adequately staffed and trained acquisition 
workforce, the Department has engaged on multiple fronts to enhance 
acquisition staffing and training. The DHS Acquisition Professional 
Career Program (APCP) is sponsored by the chief procurement officer and 
provides a steady pipeline of entry-level contracting and procurement 
talent to the components. APCP interns are hired into career ladder 
positions and engage in a 3-year program where they receive quality 
training and rotate between components to gain valuable on-the-job 
training. In fiscal year 2013 alone, 63 interns graduated and have been 
placed in components. Thus far in fiscal year 2014, an additional 60 
interns have been placed.
    The Department's Homeland Security Acquisition Institute continues 
to serve as the principal training academy for the DHS acquisition 
workforce. In fiscal year 2013, over 9,400 DHS acquisition 
professionals completed classroom or on-line training courses 
contributing to the issuance of over 3,200 acquisition certifications. 
Thus far in fiscal year 2014, an additional 1,300 acquisition 
certifications have been issued. To date, DHS has issued 10,732 
certifications across nine acquisition disciplines, including 
Contracting, Program Management, Systems Engineering, Test and 
Evaluation, Cost Estimating, Life Cycle Logistics Management, Program 
Financial Management, Ordering Official, and Contracting Officer's 
Representative.
    DHS continues to support small businesses around the country. In 
recognition of its performance, the Department has received an ``A'' 
rating for 5 consecutive years from the Small Business Administration 
in the areas of prime contracting, small business subcontracting, and a 
written progress plan.
Information Technology Management
    In the Information Technology (IT) area, DHS has made substantial 
progress to drive efficiencies through consolidation of data centers. 
To date, 18 primary data centers have been consolidated, with an 
additional two consolidations scheduled for completion in fiscal year 
2014. Migrations from commercial data centers resulted in annual cost 
savings of 43%, and migrations from Federal data centers resulted in an 
average annual cost savings of 12% for similar capabilities.
    Recognizing that information technology is constantly improving and 
changing and that our own IT organization has matured, we are working 
to increase the integration of previously fragmented Departmental 
oversight reviews into a defined, efficient governance process that is 
tailored to the size and criticality of each program. This will result 
in improved project tracking and oversight and will also help DHS meet 
our IT-related mission needs.
    Security of internal IT systems and networks also remains a 
priority. DHS continues to enhance the IT security of the Department's 
internal systems and networks through periodic upgrades to software. In 
addition, IT staff performs independent validation and verification of 
implemented corrective actions to address material weaknesses related 
to financial systems security. All components are implementing a 
desktop image based on the United States Government Configuration 
Baseline (USGCB) settings.
Management Integration
    Management Integration refers to the development and implementation 
of consistent and consolidated processes within and across the 
management functional areas discussed above. From individual 
performance evaluations to the Department's most costly investment 
decisions, we have the obligation to operate efficiently and in a 
manner that best enables us to meet our mission.
    The Management Integration area has made substantial progress in 
the past 3 years, reflected by the fact that both DHS and GAO agree 
that the majority of the outcomes in the Management Integration area 
are fully addressed. DHS has made considerable progress towards 
integrating management across the enterprise. As an example, we have 
strengthened the delegations of authority to clarify the roles of and 
enhance oversight between Headquarters and components, and we have 
implemented the pilot phase of the IILCM to ensure we base investment 
decisions on closing capability gaps and meeting mission goals and 
outcomes. Based on the lessons learned from the pilot, the Secretary 
has determined, through the Unity of Effort initiative, to focus 
immediate attention on further maturing the Strategy and Capabilities & 
Requirements phases.
    Secretary Johnson and I are committed to integrating all phases of 
our investment life cycle as we prepare for the fiscal year 2016 budget 
submission. Advancing the IILCM framework, which is a principal tenet 
of the Department's overall integration strategy, continues to be a 
major initiative that builds on the progress we have made. In the near 
future, as I referenced above, I will oversee a re-constituted Joint 
Requirements Council as we evaluate fiscal year 2016 resource 
allocation plans and attempt to harmonize and unify requirements across 
the DHS enterprise.
    The Secretary and I are capitalizing on these previous efforts and 
broadening them in our ``Strengthening Departmental Unity of Effort'' 
initiative. This effort focuses on improving our planning, programming, 
budgeting, and execution processes through strengthened Departmental 
structures and increased capability. In making these changes, we will 
have better traceability between strategic objectives, budgeting, 
acquisition decisions, operational planning, and mission execution to 
improve Departmental cohesiveness and operational effectiveness.
    We are in the final stages of evolving our business intelligence 
capability by consolidating management data systems onto a common 
platform. This effort allows for more current and integrated data 
across all lines of business, both at headquarters and into DHS's many 
components.
                     other dhs high-risk list areas
    We recognize the critical role that strengthened management 
functions have in the Department's ability to achieve success. GAO has 
identified other areas of Department responsibilities that also play an 
integral role in our mission delivery and, while these non-management 
areas are not the focus of this hearing, I hope it will be beneficial 
to this committee for me to provide a brief overview of our work in a 
few of these areas.
Establishing Effective Mechanisms for Sharing and Managing Terrorism-
        Related Information to Protect the Homeland
    DHS is a key participant in the Federal Information Sharing 
Environment and continues to develop policies and technical solutions 
across Sensitive but Unclassified, Secret, and Top Secret/Sensitive 
Compartmented Information networks that enhance safeguarding and 
sharing of information with a wide variety of Federal, State, local, 
and private-sector stakeholders. In January 2013 and immediately 
following the release of the National Strategy for Information Sharing 
and Safeguarding, the Department issued the DHS Information Sharing and 
Safeguarding Strategy focused on goals to share, safeguard, manage, and 
govern risk, and measure performance. Through a detailed Implementation 
Plan, the Department has identified key priority objectives with 
synchronized milestones to effectively execute the Strategy, and has 
prepared an Implementation Guide that defines the processes to identify 
gaps, root causes, performance measures, risks, and resourcing for its 
top information-sharing and safeguarding initiatives.
National Flood Insurance Program
    The National Flood Insurance Program (NFIP) serves as the 
foundation for National efforts to reduce the loss of life and property 
from flood disasters. NFIP remains on the High-Risk List largely 
because it does not generate sufficient revenues to repay the billions 
of dollars borrowed from the U.S. Department of the Treasury to cover 
claims from the 2005 and 2012 hurricanes or from future catastrophic 
losses. The lack of sufficient revenues has highlighted structural 
weaknesses in how the program is funded, including statutorily-mandated 
subsidies.
    DHS and FEMA have been working with GAO to address the challenges 
identified in GAO's recommendations to improve management and 
operations. FEMA changed the process for Write Your Own (WYO) company 
performance under the WYO Financial Control plan, implemented 
procedures to select statistically representative samples of all claims 
for conducting claims re-inspections, and requested an independent 
audit of the NFIP's financial statements. FEMA's focus on implementing 
GAO recommendations in areas including Strategic Planning, Management 
and Oversight of the NFIP, and modernizing the NFIP IT system, have 
resulted in the closure of many of GAO's recommendations. We are 
actively engaged on those GAO recommendations that remain open.
    With the passage of the Biggert-Waters Flood Insurance Act of 2012 
and the Homeowners Flood Insurance Affordability Act of 2014, the NFIP 
now has authority to phase in actuarial rates for some policies and 
charge policyholders a surcharge, which will improve the financial and 
operational position of the program over time; however, as a result, 
policyholders will not pay actuarial rates. Specifically, these two 
laws raise the statutory limit on annual rate increases, mandate 
premium increases for certain subsidized policies, establish a reserve 
fund that will allow the NFIP to build surplus capital to pay losses in 
a greater-than-average loss year, and mandate a $25 annual surcharge 
for most policyholders and a $250 annual surcharge for non-residential 
properties and residential properties that are not a primary residence, 
until actuarial rates are reached.
Protecting the Federal Government's Information Systems and the 
        Nation's Cyber Critical Infrastructures
    I appreciate GAO's continued engagement on Federal agency 
cybersecurity and the cybersecurity of critical infrastructure. Since 
2009, the Department has managed this area actively, and each 
subsequent update to the GAO High-Risk List has recognized DHS efforts. 
The Department works closely with the White House and interagency 
partners to ensure a whole-of-Government approach to cybersecurity. At 
the same time, DHS is committed to working with Congress as it explores 
legislative proposals.
    DHS directly supports Federal civilian departments and agencies in 
developing capabilities that will improve their own cybersecurity 
posture through the Continuous Diagnostics and Mitigation (CDM) 
program. One hundred eight departments and agencies are currently 
covered by Memoranda of Agreement with the CDM program, encompassing 
over 97 percent of all Federal civilian personnel. In fiscal year 2014, 
DHS issued the first delivery order for CDM sensors and awarded a 
contract for the CDM dashboard.
    The National Cybersecurity Protection System (NCPS), a key 
component of which is referred to as EINSTEIN, is an integrated 
intrusion detection, analytics, information sharing, and intrusion-
prevention system designed to support DHS responsibilities for 
protecting Federal civilian agency networks. These current 
capabilities, and future capabilities such as CDM, are used by the 
Department's National Cybersecurity and Communications Integration 
Center, in concert with its analysis, warning, and incident response 
capabilities, to protect Federal civilian agencies and assist them when 
incidents occur. In July 2013, NCPS's EINSTEIN 3 Accelerated (E3A) 
became operational and provided services to the first Federal agency. 
With the adoption of E3A, DHS will assume an active role in defending 
.gov network traffic and significantly reduce the threat vectors 
available to malicious actors seeking to harm Federal networks. NCPS 
continues to expand intrusion prevention, information sharing, and 
cyber analytic capabilities at Federal agencies, marking a critical 
shift from a passive to an active role in cyber defense and the 
delivery of enterprise cybersecurity services to decision makers across 
cybersecurity communities.
    With respect to critical infrastructure, the Department continues 
to grow the critical infrastructure Cyber Information Sharing and 
Collaboration Program, which is a unique voluntary environment for 
public-private information sharing and collaboration. In addition, we 
recently launched the Critical Infrastructure Cyber Community or C3 
(``C Cubed'') Voluntary Program to assist critical infrastructure 
owners and operators as they build cybersecurity into their risk 
management approaches. Much work remains to be completed and we are 
committed to actively managing this High-Risk area.
    When I met with Comptroller General Dodaro, we agreed to develop a 
set of detailed criteria that GAO and the Department can use to 
strengthen the Nation's cybersecurity and critical infrastructure 
resilience. As part of that process, I will receive monthly status 
updates from DHS components that we will share with GAO.
                               conclusion
    It is our fundamental responsibility to manage the Department of 
Homeland Security effectively and efficiently. Sound management is 
critical to our ability to execute our mission successfully, and it is 
incumbent upon us as guardians of the public trust to be careful and 
scrupulous in our expenditure of public funds. You have my commitment 
that I will continue to focus intensely on strengthening the 
Department's management functions, and that I will work closely with 
this committee and with GAO to achieve that goal.
    Thank you for the opportunity and the privilege to appear before 
you.

    Chairman McCaul. Thank you, Deputy Secretary. The Chairman 
now recognizes Mr. Dodaro for an opening statement.

STATEMENT OF GENE L. DODARO, COMPTROLLER GENERAL OF THE UNITED 
            STATES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Dodaro. Thank you very much, Mr. Chairman. Good morning 
to you, Ranking Member Thompson, distinguished Members of the 
committee. I appreciate the opportunity to be here today to 
discuss GAO's designations and high-risk areas regarding the 
Department of Homeland Security.
    With regard to the management functions that we initially 
placed on the list in 2003, I am pleased to report that the 
Department is well on its way to satisfying two of the five 
criteria for coming off the list.
    One is leadership commitment, and I am very satisfied with 
the deputy secretary and the Secretary's engagement on this 
issue. I believe that we have an open, constructive dialogue, 
which is the first step toward resolving some of these 
problems.
    They also have a pretty good integrated plan for coming off 
the high-risk list. However, they still need to demonstrate the 
capacity to make the changes, to have a monitoring effort to 
make sure that the changes are implemented properly. Most 
importantly and lastly is they need to demonstrate progress in 
making sure that they have actually fixed some of the 
underlying problems that have plagued them in the past.
    With regard to the acquisition area, for example, they have 
designated acquisition components at the component level and 
organized some centers to bring together some core expertise to 
help in the acquisitions area. But they need to have governance 
mechanisms in place to look at the entire acquisition portfolio 
and set priorities across the Department. Then to make sure 
that individual acquisitions operate effectively and are more 
consistently meeting the Department's policies.
    For example, 46 percent of the major acquisitions do not 
have approved baseline cost. About 77 percent do not have yet 
approved life-cycle cost estimates. So I believe the H.R. 4228 
that this committee passed is a very important contribution 
step forward to putting disciplined acquisition policies in 
place and having more transparency and accountability for the 
Department.
    With regard to financial management, they have received the 
clean opinion that both the Chairman and Ranking Member 
recognized this morning for fiscal year 2013 financial 
statements. However, to meet our list to get off the list they 
need to sustain the clean opinion.
    They need to get a clean opinion on internal controls, 
which they are not able to do at this point because of a number 
of material weaknesses in their systems. They also need to 
effectively put in modern financial management systems in the 
components, particularly the Coast Guard, FEMA, ICE, and 
Customs and Border Patrol.
    With regard to human capital management they have put 
together a plan to guide them in this area. But they must 
address the root causes that are at the heart of the employee 
morale issues that have plagued the Department for a number of 
years. Also to focus on processes to identify skill gaps and to 
remedy those skill gaps across the Department.
    In the IT area we are pleased they have had an enterprise 
architecture in place, which is a good first step. But they 
need to finalize their policy governance structure for IT 
investments, and to expand that policy to cover all 13 
portfolios. Right now they have it only covering five of 13. 
They need to fix their information security weaknesses, which 
are a major control problem for the Department.
    Now with regard to other areas we have on the high-risk 
list--cybersecurity and critical infrastructure protection that 
DHS is part of, National Flood Insurance Program, and 
information sharing in the terrorist information sharing--I 
would be happy to answer any questions on those areas at the 
appropriate time.
    I would just say with regard to cybersecurity there has 
been a lot of attention to this area, but more needs to be 
done. I am very supportive of the H.R. 3696 legislation that 
you have initiated.
    I think the Department has been given responsibility for 
cybersecurity across the Federal Government without the 
authority. That authority should be codified and put into law. 
Also giving them additional guidance in the critical 
infrastructure protection area and additional codification is a 
really good step forward.
    So I commend this committee both for the acquisition 
legislation and the cybersecurity and critical infrastructure 
legislation. So, I would be happy to answer questions at the 
appropriate point in time. I again very much appreciate the 
opportunity to be here today to discuss our efforts to help the 
Department reach its full potential.
    [The prepared statement of Mr. Dodaro follows:]
                  Prepared Statement of Gene L. Dodaro
                              May 7, 2014
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee: I am pleased to be here today to discuss our work on the 
Department of Homeland Security's (DHS) on-going efforts to improve the 
efficiency of its operations and unity of the Department, with a 
particular focus on DHS's progress and remaining challenges addressing 
GAO's high-risk designations. In the 11 years since the Department's 
creation, DHS has implemented key homeland security operations, 
achieved important goals and milestones, and grown to more than 240,000 
employees and approximately $60 billion in budget authority. During 
that time, our work has identified several areas where DHS needs to 
address gaps and weaknesses in its current operational and 
implementation efforts, as well as strengthen the efficiency and 
effectiveness of those efforts. Since 2003, we have made approximately 
2,100 recommendations to DHS to strengthen program management, 
performance measurement efforts, and management processes, among other 
things. DHS has implemented more than 65 percent of these 
recommendations and has actions under way to address others.
    We also report regularly to the Congress on Government operations 
that we identified as high-risk because of their greater vulnerability 
to fraud, waste, abuse, and mismanagement, or the need for 
transformation to address economy, efficiency, or effectiveness 
challenges. DHS has sole or critical responsibility for four GAO high-
risk areas--(1) Strengthening DHS Management Functions, (2) National 
Flood Insurance Program (NFIP), (3) Protecting the Federal Government's 
Information Systems and the Nation's Cyber Critical Infrastructures, 
and (4) Establishing Effective Mechanisms for Sharing and Managing 
Terrorism-Related Information to Protect the Homeland. DHS has made 
progress addressing areas we have identified as high-risk, but needs to 
continue to strengthen its efforts in order to more efficiently and 
effectively achieve its homeland security missions. In particular:
  <bullet> In 2003, we designated implementing and transforming DHS as 
        high-risk because DHS had to transform 22 agencies--several 
        with major management challenges--into one department, and 
        failure to address associated risks could have serious 
        consequences for U.S. National and economic security.\1\ While 
        challenges remain across its missions, DHS has made 
        considerable progress in transforming its original component 
        agencies into a single department. As a result, in our 2013 
        high-risk update, we narrowed the scope of the high-risk area 
        to focus on strengthening DHS management functions (human 
        capital, acquisition, financial management, and information 
        technology [IT]).\2\
---------------------------------------------------------------------------
    \1\ GAO, High-Risk Series: An Update, GAO-03-119 (Washington, DC: 
January 2003).
    \2\ GAO, High-Risk Series: An Update, GAO-13-283 (Washington, DC: 
February 2013). For additional information, see our high-risk list key 
issues page at http://www.gao.gov/highrisk/overview.
---------------------------------------------------------------------------
  <bullet> In 2006, we added the NFIP--a key component of the Federal 
        Government's efforts to limit the damage and financial impact 
        of floods--to the GAO high-risk list because the program faced 
        significant on-going financial and management challenges.\3\ In 
        particular, the NFIP, which is managed by DHS's Federal 
        Emergency Management Agency (FEMA), is unlikely to generate 
        sufficient revenue to cover future catastrophic losses or repay 
        billions of dollars borrowed from the Department of the 
        Treasury to cover insurance claims from previous disasters.
---------------------------------------------------------------------------
    \3\ GAO, GAO's High-Risk Program, GAO-06-497T (Washington, DC: Mar. 
15, 2006).
---------------------------------------------------------------------------
  <bullet> In 1997, we designated Federal information security as a 
        Government-wide high-risk area, and we expanded the area in 
        2003 to include systems supporting critical infrastructure such 
        as power distribution, communications, banking and finance, 
        water supply, National defense, and emergency services.\4\ The 
        effective security of these systems and the data they contain 
        is essential to National security, economic well-being, and 
        public health and safety. DHS is responsible for securing its 
        own information systems and data and also plays a pivotal role 
        in Government-wide cybersecurity efforts.
---------------------------------------------------------------------------
    \4\ GAO-03-119.
---------------------------------------------------------------------------
  <bullet> In 2005, we designated the sharing of terrorism-related 
        information as high-risk because of the significant challenges 
        the Federal Government faces in sharing this information in a 
        timely, accurate, and useful manner.\5\ The sharing of 
        terrorism-related information is a Government-wide effort that 
        involves numerous Federal departments and agencies. DHS plays a 
        critical role in this sharing given its homeland security 
        missions and responsibilities.
---------------------------------------------------------------------------
    \5\ GAO, High-Risk Series: An Update, GAO-05-207 (Washington, DC: 
Jan. 1, 2005).
---------------------------------------------------------------------------
    In November 2000, we published our criteria for removing areas from 
the high-risk list.\6\ Specifically, agencies must have (1) a 
demonstrated strong commitment and top leadership support to address 
the risks; (2) a corrective action plan that identifies the root 
causes, identifies effective solutions, and provides for substantially 
completing corrective measures in the near term, including but not 
limited to steps necessary to implement solutions we recommended; (3) 
the capacity (that is, the people and other resources) to resolve the 
risks; (4) a program instituted to monitor and independently validate 
the effectiveness and sustainability of corrective measures; and (5) 
the ability to demonstrate progress in implementing corrective 
measures. When legislative, administration, and agency actions, 
including those in response to our recommendations, result in 
significant progress toward resolving a high-risk problem, we remove 
the high-risk area.
---------------------------------------------------------------------------
    \6\ GAO, Determining Performance and Accountability Challenges and 
High Risks, GAO-01-159SP (Washington, DC: Nov. 1, 2000).
---------------------------------------------------------------------------
    My testimony today discusses our observations on DHS's progress and 
work remaining in addressing: (1) High-risk areas for which DHS has 
sole responsibility, and (2) high-risk areas for which DHS has 
critical, but shared, responsibility.
    This statement is based on GAO's 2013 high-risk update as well as 
reports and testimonies we issued from March 2013 through April 
2014.\7\ For the past products, among other things, we analyzed DHS 
strategies and other documents related to the Department's efforts to 
address its high-risk areas; reviewed our past reports issued since DHS 
began its operations in March 2003; and interviewed DHS officials. More 
detailed information on the scope and methodology of our prior work can 
be found within each specific report. This statement is also based on 
analyses from our on-going assessment of DHS's efforts to address its 
high-risk areas since February 2013. We expect to report final results 
from this work in our 2015 high-risk update. For our analyses, among 
other things, we analyzed DHS documentation, such as Departmental 
guidance, and met with DHS officials, including the deputy secretary 
and under secretary for management, to discuss DHS's efforts to address 
its high-risk areas. With respect to the Strengthening DHS Management 
Functions high-risk area, on May 1, 2014, DHS provided us with an 
updated version of its Integrated Strategy for High-Risk Management. We 
plan to analyze this update as part of our on-going assessment of DHS's 
progress in addressing this high-risk area.
---------------------------------------------------------------------------
    \7\ GAO-13-283.
---------------------------------------------------------------------------
    We conducted the work on which this statement is based in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
         high-risk areas for which dhs has sole responsibility
    DHS has made progress in addressing high-risk areas for which it 
has sole responsibility, but significant work remains.
Strengthening DHS Management Functions
    DHS has made important progress in implementing, transforming, 
strengthening, and integrating its management functions in human 
capital, acquisition, financial management, and IT. This has included 
taking numerous actions specifically designed to address our criteria 
for removing areas from the high-risk list. However, as we reported in 
our February 2013 high-risk update, this area remains high-risk because 
the Department has significant work ahead.\8\ As shown in Table 1, DHS 
has met two of our criteria for removal from the high-risk list 
(leadership commitment and a corrective action plan), and has partially 
met the remaining three criteria (a framework to monitor progress; 
capacity; and demonstrated, sustained progress).
---------------------------------------------------------------------------
    \8\ GAO-13-283.

 TABLE 1.--ASSESSMENT OF DEPARTMENT OF HOMELAND SECURITY (DHS) PROGRESS
IN ADDRESSING THE STRENGTHENING DHS MANAGEMENT FUNCTIONS HIGH-RISK AREA,
                             AS OF MAY 2014
------------------------------------------------------------------------
 Criterion for Removal From the                Partially Met    Not Met
         High-Risk List             Met \1\         \2\           \3\
------------------------------------------------------------------------
Leadership commitment...........  X            .............  ..........
Corrective action plan..........  X            .............  ..........
Capacity........................  ...........  X              ..........
Framework to monitor progress...  ...........  X              ..........
Demonstrated, sustained progress  ...........  X              ..........
                                 ---------------------------------------
      Total.....................  2            3              0
------------------------------------------------------------------------
Source: GAO analysis of DHS documents, interviews, and prior GAO
  reports.
\1\ ``Met'': There are no significant actions that need to be taken to
  further address this criterion.
\2\ ``Partially met'': Some but not all actions necessary to generally
  meet the criterion have been taken.
\3\ ``Not met'': Few, if any, actions toward meeting the criterion have
  been taken.

    Leadership commitment (met).--The Secretary and deputy secretary of 
Homeland Security, the under secretary for management at DHS, and other 
senior officials have continued to demonstrate commitment and top 
leadership support for addressing the Department's management 
challenges. They have also taken actions to institutionalize this 
commitment to help ensure the long-term success of the Department's 
efforts. For example, in May 2012, the Secretary of Homeland Security 
modified the delegations of authority between the Management 
Directorate and its counterparts at the component level to clarify and 
strengthen the authorities of the under secretary for management across 
the Department.
    In addition, in April 2014, the Secretary of Homeland Security 
issued a memorandum committing to improving DHS's planning, 
programming, budgeting, and execution processes through strengthened 
Departmental structures and increased capability. This memorandum 
identified several initial areas of focus intended to build 
organizational capacity.\9\ Senior DHS officials have also routinely 
met with us over the past 5 years to discuss the Department's plans and 
progress in addressing this high-risk area, during which we provided 
specific feedback on the Department's efforts. According to these 
officials, and as demonstrated through their progress, the Department 
is committed to demonstrating measurable, sustained progress in 
addressing this high-risk area. It will be important for DHS to 
maintain its current level of top leadership support and sustained 
commitment to ensure continued progress in successfully executing its 
corrective actions through completion.
---------------------------------------------------------------------------
    \9\ DHS, Secretary of Homeland Security, Strengthening Departmental 
Unity of Effort, Memorandum for DHS Leadership (Washington, DC: April 
22, 2014).
---------------------------------------------------------------------------
    Corrective action plan (met).--DHS established a plan for 
addressing this high-risk area. In a September 2010 letter to DHS, we 
identified and DHS agreed to achieve 31 actions and outcomes that are 
critical to addressing the challenges within the Department's 
management areas and in integrating those functions across the 
Department. In January 2011, DHS issued its initial Integrated Strategy 
for High-Risk Management, which included key management initiatives and 
related corrective action plans for addressing its management 
challenges and the outcomes we identified. DHS provided updates of its 
progress in implementing these initiatives and corrective actions in 
its later versions of the strategy. In March 2014, we made updates to 
the actions and outcomes in collaboration with DHS to reduce overlap 
and ensure their continued relevance and appropriateness. These updates 
resulted in a reduction from 31 to 30 total actions and outcomes.
    DHS's strategy and approach to continuously refining actionable 
steps to implementing the outcomes, if implemented effectively and 
sustained, provide a path for DHS to be removed from GAO's high-risk 
list.
    Capacity (partially met).--In May 2014, DHS identified that it had 
resources needed to implement 7 of the 11 initiatives the Department 
had under way to address the actions and outcomes, but did not identify 
sufficient resource needs for the 4 remaining initiatives. In our 
analysis of DHS's June 2013 update, which similarly did not identify 
sufficient resource needs for all initiatives, we found that this 
absence of complete resource information made it difficult to fully 
assess the extent to which DHS has the capacity to implement its 
initiatives.
    In addition, our prior work has identified specific capacity gaps 
that could undermine achievement of management outcomes. For example, 
in September 2012, we reported that 51 of 62 acquisition programs faced 
workforce shortfalls in program management, cost estimating, 
engineering, and other areas, increasing the likelihood that the 
programs will perform poorly in the future.\10\ Since that time, DHS 
has appointed component acquisition executives at the components and 
made progress in filling staff positions. In April 2014, however, we 
reported that DHS needed to increase its cost-estimating capacity, and 
that the Department had not approved baselines for 21 of 46 major 
acquisition programs.\11\ These baselines--which establish cost, 
schedule, and capability parameters--are necessary to accurately assess 
program performance.
---------------------------------------------------------------------------
    \10\ GAO, Homeland Security: DHS Requires More Disciplined 
Investment Management to Help Meet Mission Needs, GAO-12-833 
(Washington, DC: Sept. 18, 2012).
    \11\ GAO, Homeland Security Acquisitions: DHS Could Better Manage 
Its Portfolio to Address Funding Gaps and Improve Communications with 
Congress, GAO-14-332 (Washington, DC: Apr. 17, 2014).
---------------------------------------------------------------------------
    DHS needs to continue to identify resources for the remaining 
initiatives; determine that sufficient resources and staff are 
committed to initiatives; work to mitigate shortfalls and prioritize 
initiatives, as needed; and communicate to senior leadership critical 
resource gaps.
    Framework to monitor progress (partially met).--DHS established a 
framework for monitoring its progress in implementing the corrective 
actions it identified for addressing the 30 actions and outcomes. In 
the June 2012 update to the Integrated Strategy for High-Risk 
Management, DHS included, for the first time, performance measures to 
track its progress in implementing all of its key management 
initiatives. DHS continued to include performance measures in its May 
2014 update.
    Additionally, in March 2014, the deputy secretary began meeting 
monthly with the DHS management team to discuss DHS's progress in 
strengthening its management functions. According to senior DHS 
officials, as part of these meetings, attendees discuss a report that 
senior DHS officials update each month, which identifies corrective 
actions for each outcome, as well as projected and actual completion 
dates.
    However, there are opportunities for DHS to strengthen this 
framework. For example, as we reported in September 2013, DHS 
components need to develop performance and functionality targets for 
assessing their proposed financial systems.\12\ This would include 
having an independent validation and verification program in place to 
ensure the modernized financial systems meet expected targets. Moving 
forward, DHS will need to closely track and independently validate the 
effectiveness and sustainability of its corrective actions and make 
mid-course adjustments, as needed.
---------------------------------------------------------------------------
    \12\ GAO, DHS Financial Management: Additional Efforts Needed to 
Resolve Deficiencies in Internal Controls and Financial Management 
Systems, GAO-13-561 (Washington, DC: Sept. 30, 2013).
---------------------------------------------------------------------------
    Demonstrated, sustained progress (partially met).--Key to 
addressing the Department's management challenges is DHS demonstrating 
the ability to achieve sustained progress across the 30 actions and 
outcomes we identified and DHS agreed were needed to address the high-
risk area. These actions and outcomes include, among others, validating 
required acquisition documents in accordance with a Department-
approved, knowledge-based acquisition process, and sustaining clean 
audit opinions for at least 2 consecutive years on Department-wide 
financial statements and internal controls. As illustrated by the 
examples below, DHS has made important progress in implementing 
corrective actions across its management functions, but it has not 
demonstrated sustainable, measurable progress in addressing key 
challenges that remain within these functions and in the integration of 
those functions.\13\
---------------------------------------------------------------------------
    \13\ For our assessments of DHS's progress in addressing the 30 
outcomes, ``fully addressed'' means the outcome is fully addressed; 
``mostly addressed'' means progress is significant and a small amount 
of work remains; ``partially addressed'' means progress is measurable, 
but significant work remains; and ``initiated'' means activities have 
been initiated to address outcomes, but it is too early to report 
progress.
---------------------------------------------------------------------------
    Human capital management.--DHS has mostly addressed 1 of the 7 
human capital management outcomes and partially addressed the remaining 
6. For example, as we reported in December 2012, DHS has developed and 
demonstrated progress in implementing a strategic human capital 
plan.\14\ This plan, among other things, is integrated with broader 
organizational strategic planning, and mostly addresses this outcome. 
However, DHS needs to improve other aspects of its human capital 
management.
---------------------------------------------------------------------------
    \14\ GAO, DHS Strategic Workforce Planning: Oversight of 
Department-wide Efforts Should Be Strengthened, GAO-13-65 (Washington, 
DC: Dec. 3, 2012). For example:
---------------------------------------------------------------------------
  <bullet> As we reported in December 2013, the Office of Personnel 
        Management's 2013 Federal Employee Viewpoint Survey data showed 
        that DHS employee satisfaction was 36th of 37 Federal agencies 
        and had decreased 7 percentage points since 2011, which is more 
        than the Government-wide decrease of 4 percentage points over 
        the same time period.\15\ As a result, the gap between average 
        DHS employee satisfaction and the Government-wide average 
        widened to 7 percentage points.\16\ Accordingly, DHS has 
        considerable work ahead to improve its employee morale.
---------------------------------------------------------------------------
    \15\ The Federal Employee Viewpoint Survey measures employees' 
perceptions of whether and to what extent conditions characterizing 
successful organizations are present in their agencies.
    \16\ GAO, Department of Homeland Security: DHS's Efforts to Improve 
Employee Morale and Fill Senior Leadership Vacancies, GAO-14-228T 
(Washington, DC: Dec. 12, 2013).
---------------------------------------------------------------------------
  <bullet> Further, according to senior DHS officials, the Department 
        has efforts under way intended to link workforce planning 
        efforts to strategic and program-specific planning efforts to 
        identify current and future human capital needs, including the 
        knowledge, skills, and abilities needed for the Department to 
        meet its goals and objectives. According to these officials, 
        the Department is in the process of finalizing competency gap 
        assessments to identify potential skills gaps within its 
        components that collectively encompass almost half of the 
        Department's workforce. These assessments focus on occupations 
        DHS identifies as critical to its mission, including emergency 
        management specialists and cyber-focused IT management 
        personnel. DHS plans to analyze the results of these 
        assessments and develop plans to address any gaps the 
        assessments identify by the end of fiscal year 2014. This is a 
        positive step, as identifying skills gaps could help the 
        Department to better identify current and future human capital 
        needs and ensure the Department possesses the knowledge, 
        skills, and abilities needed to meet its goals and objectives. 
        Given that DHS is finalizing these assessments, it is too early 
        to assess their effectiveness.
    Acquisition management.--DHS has mostly addressed one of the five 
acquisition management outcomes, partially addressed one, and initiated 
activities to address the remaining three. DHS has made the most 
progress in increasing component-level acquisition capability by, for 
example, establishing a component acquisition executive in each DHS 
component to provide oversight and support programs within its 
portfolio. DHS has also taken steps to enhance its acquisition 
workforce by establishing centers of excellence for cost estimating, 
systems engineering, and other disciplines to promote best practices 
and provide technical guidance. However, DHS needs to improve its 
acquisition management. For example:
  <bullet> DHS initiated a governance body in 2013 to review and 
        validate acquisition programs' requirements and identify and 
        eliminate any unintended redundancies, but it considered trade-
        offs only across acquisition programs within the Department's 
        cybersecurity portfolio. DHS acknowledged that the Department 
        has no formal structure in place to consider trade-offs DHS-
        wide, but DHS anticipates chartering such a body by the end of 
        May 2014.
  <bullet> DHS also has initiated efforts to validate required 
        acquisition documents in accordance with a knowledge-based 
        acquisition process, but this remains a major challenge for the 
        Department. A knowledge-based approach provides developers with 
        information needed to make sound investment decisions, and it 
        would help DHS address significant challenges we have 
        identified across its acquisition programs.\17\ DHS's 
        acquisition policy largely reflects key acquisition management 
        practices, but the Department has not implemented it 
        consistently. In March 2014, we reported that the 
        Transportation Security Administration does not collect or 
        analyze available information that could be used to enhance the 
        effectiveness of its advanced imaging technology.\18\ In March 
        2014, we also found that U.S. Customs and Border Protection 
        (CBP) did not fully follow DHS policy regarding testing for the 
        integrated fixed towers being deployed on the Arizona 
        border.\19\ As a result, DHS does not have complete information 
        on how the towers will operate once they are fully deployed.
---------------------------------------------------------------------------
    \17\ In our past work examining weapon acquisition issues and best 
practices for product development, we have found that leading 
commercial firms pursue an acquisition approach that is anchored in 
knowledge, whereby high levels of product knowledge are demonstrated by 
critical points in the acquisition process.
    \18\ GAO, Advanced Imaging Technology: TSA Needs Additional 
Information Before Procuring Next-Generation Systems, GAO-14-357 
(Washington, DC: March 31, 2014).
    \19\ GAO, Arizona Border Surveillance Technology Plan: Additional 
Actions Needed to Strengthen Management and Assess Effectiveness, GAO-
14-368 (Washington, DC: Mar. 3, 2014).
---------------------------------------------------------------------------
  <bullet> Finally, DHS does not have the acquisition management tools 
        in place to consistently demonstrate whether its major 
        acquisition programs are on track to achieve their cost, 
        schedule, and capability goals. About half of major programs 
        lack an approved baseline, and 77 percent lack approved life-
        cycle cost estimates. DHS stated in its 2014 update that it 
        will take time to demonstrate substantive progress in this 
        area. We have recently initiated two reviews to examine DHS's 
        progress in these high-risk areas. In addition, the House 
        Homeland Security committee recently introduced a DHS 
        acquisition reform bill that reinforces the importance of key 
        acquisition management practices, such as establishing cost, 
        schedule, and capability parameters, and includes requirements 
        to better identify and address poor-performing acquisition 
        programs, which could aid the Department in addressing its 
        acquisition management challenges.
    Financial management.--DHS has made progress toward improving its 
financial management and has fully addressed 1 of 8 high-risk financial 
management outcomes--ensuring its financial statements are accurate and 
reliable.\20\ However, a significant amount of work remains to be 
completed on the other 7 outcomes related to DHS's financial 
statements, internal control over financial reporting, and modernizing 
financial management systems.
---------------------------------------------------------------------------
    \20\ The financial management outcomes have twice been revised 
since September 2010 when they were initially established. The most 
recent revision occurred in March 2014 when GAO and DHS agreed to 
revise the outcomes to clarify certain requirements and eliminate 
overlap among the outcomes and between the outcomes and GAO's high-risk 
removal criteria.
---------------------------------------------------------------------------
  <bullet> DHS produced accurate and reliable financial statements for 
        the first time in fiscal year 2013, in part through 
        management's commitment to improving its financial management 
        process. As of May 2014, DHS is working toward sustaining this 
        key achievement.
  <bullet> DHS has also made some progress toward implementing 
        effective internal control over financial reporting, in part by 
        implementing a corrective action planning process aimed at 
        addressing internal control weaknesses. For example, the 
        Department took corrective actions to reduce the material 
        weakness in environmental and other liabilities to a 
        significant deficiency.\21\ However, DHS needs to eliminate all 
        material weaknesses at the Department level before its 
        financial auditor can assert that the controls are effective. 
        For example, one of the material weaknesses involves 
        deficiencies in property, plant, and equipment. DHS plans to 
        achieve this outcome for fiscal year 2016. To meet another 
        outcome, DHS needs to sustain these efforts for 2 years.
---------------------------------------------------------------------------
    \21\ Environmental liabilities consist of environmental 
remediation, clean-up, and decommissioning. A significant deficiency is 
a deficiency, or combination of deficiencies, in internal control 
important enough to merit attention by those charged with governance. A 
material weakness is a significant deficiency, or a combination of 
significant deficiencies, in internal control such that there is a 
reasonable possibility that a material misstatement of the entity's 
financial statements will not be prevented, or detected and corrected, 
on a timely basis.
---------------------------------------------------------------------------
  <bullet> DHS also needs to effectively manage the modernization of 
        financial management systems at the U.S. Coast Guard (USCG), 
        U.S. Immigration and Customs Enforcement (ICE), and the Federal 
        Emergency Management Agency (FEMA). Both USCG and ICE have made 
        some progress toward modernizing their systems and foresee 
        moving to a Federal shared service provider and completing 
        their efforts in the latter part of 2016 and 2017.\22\ Because 
        of critical stability issues with its legacy financial system 
        that were resolved in May 2013, FEMA postponed its 
        modernization efforts and has not restarted them.
---------------------------------------------------------------------------
    \22\ A shared service provider is a third-party entity that manages 
and distributes software-based services and solutions to customers 
across a wide area network from a central data center.
---------------------------------------------------------------------------
    IT Management.--DHS has fully addressed 1 of the 6 IT management 
outcomes and partially addressed the remaining 5. In particular, the 
Department has strengthened its enterprise architecture program (or 
blueprint) to guide IT acquisitions by, among other things, largely 
addressing our prior recommendations aimed at adding needed 
architectural depth and breadth, thus fully addressing this outcome. 
However, the Department needs to continue to demonstrate progress in 
strengthening other core IT management areas. For example,
  <bullet> While the Department is taking the necessary steps to 
        enhance its IT security program, such as finalizing its annual 
        Information Security Performance Plan, further work will be 
        needed for DHS to eliminate the Department's current material 
        weakness in its information security. It will be important for 
        the Department to fully implement its plan, since DHS's 
        financial statement auditor reported in December 2013 that 
        flaws in the security controls such as access controls, 
        contingency planning, and segregation of duties were a material 
        weakness for financial reporting purposes.
  <bullet> While important steps have been taken to define IT 
        investment management processes generally consistent with best 
        practices, work is needed to demonstrate progress in 
        implementing these processes across DHS's 13 IT investment 
        portfolios.\23\ In July 2012, we recommended that DHS finalize 
        the policies and procedures associated with its new tiered IT 
        governance structure and continue to implement key processes 
        supporting this structure.\24\ DHS agreed with these 
        recommendations; however, as of April 2014, the Department had 
        not finalized the key IT governance directive, and the draft 
        structure has been implemented across only 5 of the 13 
        investment portfolios. \25\
---------------------------------------------------------------------------
    \23\ The 13 portfolios are intelligence, domain awareness, 
securing, screening, law enforcement, information sharing and 
safeguarding, continuity-of-operations planning, benefits 
administration, incident management, enterprise business services, 
enterprise financial management, enterprise IT services, and enterprise 
human capital.
    \24\ GAO, Information Technology: DHS Needs to Further Define and 
Implement Its New Governance Process,GAO-12-818 (Washington, DC: July 
25, 2012).
    \25\ The draft structure has been implemented across the following 
five portfolios: Intelligence, screening, information sharing and 
safeguarding, enterprise IT services, and enterprise human capital.
---------------------------------------------------------------------------
    Fully addressing these actions would also help DHS to address key 
        IT operations efficiency initiatives, as well as to more 
        systematically identify other opportunities for savings. For 
        example, as part of the Office of Management and Budget's data 
        center consolidation initiative, we reported that DHS planned 
        to consolidate from 101 data centers to 37 data centers by 
        December 2015.\26\ Further, DHS officials told us that the 
        Department had achieved actual cost savings totaling about $140 
        million in fiscal years 2011 through 2013, and that it 
        estimates total consolidation cost savings of approximately 
        $650 million through fiscal year 2019.
---------------------------------------------------------------------------
    \26\ GAO, Data Center Consolidation: Agencies Making Progress on 
Efforts, but Inventories and Plans Need to Be Completed, GAO-12-742 
(Washington, DC: July 19, 2012).
---------------------------------------------------------------------------
  <bullet> DHS has also made progress in establishing and implementing 
        sound IT system acquisition processes, but continued efforts 
        are needed to ensure that the Department's major IT acquisition 
        programs are applying these processes and obtaining more 
        predictable outcomes. In 2013, DHS's Office of the Chief 
        Information Officer led an assessment of its major IT programs 
        (against industry best practices in key IT system acquisition 
        process areas) to determine its capability strengths and 
        weaknesses, and has work under way to track programs' progress 
        in addressing identified capability gaps, such as requirements 
        management and risk analysis. While this gap analysis and 
        approach for tracking implementation of corrective actions are 
        important steps, DHS will need to show that these actions are 
        resulting in better, more predictable outcomes for its major IT 
        system acquisitions. Demonstrated progress in closing these 
        gaps is especially important in light of our recent reports on 
        major DHS IT programs experiencing significant challenges 
        largely because of system acquisition process shortfalls, 
        including DHS's major border security system modernization, 
        known as TECS-Mod.\27\
---------------------------------------------------------------------------
    \27\ GAO, Border Security: DHS's Efforts to Modernize Key 
Enforcement Systems Could be Strengthened, GAO-14-62 (Washington, DC: 
Dec. 5, 2013).
---------------------------------------------------------------------------
    Management integration.--DHS has made substantial progress 
integrating its management functions, fully addressing 3 of the 4 
outcomes we identified as key to the Department's management 
integration efforts. For example, DHS issued a comprehensive plan to 
guide its management integration efforts--the Integrated Strategy for 
High-Risk Management--in January 2011, and has generally improved upon 
this plan with each update. In addition, in April 2014, the Secretary 
of Homeland Security issued a memorandum committing to improving DHS's 
planning, programming, budgeting, and execution processes through 
strengthened Departmental structures and increased capability.\28\ To 
achieve the last and most significant outcome--implement actions and 
outcomes in each management area to develop consistent or consolidated 
processes and systems within and across its management functional 
areas--DHS needs to continue to demonstrate sustainable progress 
integrating its management functions within and across the Department 
and its components and take additional actions to further and more 
effectively integrate the Department.
---------------------------------------------------------------------------
    \28\ DHS, Secretary of Homeland Security, Strengthening 
Departmental Unity of Effort, Memorandum for DHS Leadership 
(Washington, DC: April 22, 2014).
---------------------------------------------------------------------------
    For example, recognizing the need to better integrate its lines of 
business, in February 2013, the Secretary of Homeland Security signed a 
policy directive establishing the principles of the Integrated 
Investment Life-Cycle Management to guide planning, executing, and 
managing critical investments Department-wide. DHS's June 2013 
Integrated Strategy for High-Risk Management identified that Integrated 
Investment Life-Cycle Management will require significant changes to 
DHS planning, executing, and managing critical investments. At that 
time, DHS was piloting elements of the framework to inform a portion of 
the fiscal year 2015 budget. DHS's May 2014 strategy update states that 
the Department plans to receive an independent analysis of the pilots 
in May 2014. Given that these efforts are under way, it is too early to 
assess their impact.
    As we reported in March 2013, to more fully address the 
Strengthening DHS Management Functions high-risk area, DHS needs to 
continue implementing its Integrated Strategy for High-Risk Management 
and show measurable, sustainable progress in implementing its key 
management initiatives and corrective actions and achieving 
outcomes.\29\ In doing so, it will be important for DHS to:
---------------------------------------------------------------------------
    \29\ GAO, High-Risk Series, Government-wide 2013 Update and 
Progress Made by the Department of Homeland Security, GAO-13-444T 
(Washington, DC: March 21, 2013).
---------------------------------------------------------------------------
  <bullet> maintain its current level of top leadership support and 
        sustained commitment to ensure continued progress in executing 
        its corrective actions through completion;
  <bullet> continue to implement its plan for addressing this high-risk 
        area and periodically report its progress to Congress and GAO;
  <bullet> monitor the effectiveness of its efforts to establish 
        reliable resource estimates at the Department and component 
        levels, address and work to mitigate any resource gaps, and 
        prioritize initiatives as needed to ensure it has the capacity 
        to implement and sustain its corrective actions;
  <bullet> closely track and independently validate the effectiveness 
        and sustainability of its corrective actions and make midcourse 
        adjustments, as needed; and
  <bullet> make continued progress in addressing the 30 actions and 
        outcomes--for the majority of which significant work remains--
        and demonstrate that systems, personnel, and policies are in 
        place to ensure that progress can be sustained over time.\30\
---------------------------------------------------------------------------
    \30\ GAO-13-444T.
---------------------------------------------------------------------------
    We will continue to monitor DHS's efforts in this high-risk area to 
determine if the actions and outcomes are achieved and sustained.
National Flood Insurance Program
    FEMA has made progress in all of the areas required for removal of 
the NFIP from the high-risk list, but needs to initiate or complete 
additional actions; also, recent legislation has created challenges for 
FEMA in addressing the financial exposure created by the program. FEMA 
leadership has displayed a commitment to addressing these challenges 
and has made progress in a number of areas, such as financial reporting 
and continuity planning. While FEMA has plans for addressing and 
tracking progress on our specific recommendations, it has yet to 
address many of them. For example, FEMA has not completed actions in 
certain areas, such as modernizing its claims and policy management 
system and overseeing compensation of insurers that sell NFIP policies. 
Completing such actions will likely help improve the financial 
stability and operations of the program. Table 2 summarizes DHS's 
progress in addressing the NFIP high-risk area.

   TABLE 2.--ASSESSMENT OF DEPARTMENT OF HOMELAND SECURITY PROGRESS IN
  ADDRESSING THE NATIONAL FLOOD INSURANCE PROGRAM HIGH-RISK AREA, AS OF
                                MAY 2014
------------------------------------------------------------------------
 Criterion for Removal From the                Partially Met    Not Met
         High-Risk List             Met \1\         \2\           \3\
------------------------------------------------------------------------
Leadership commitment...........  ...........  X              ..........
Corrective action plan..........  ...........  X              ..........
Capacity........................  ...........  X              ..........
Framework to monitor progress...  ...........  X              ..........
Demonstrated, sustained progress  ...........  X              ..........
                                 ---------------------------------------
      Total.....................  0            5              0
------------------------------------------------------------------------
Source: GAO analysis of Federal Emergency Management Agency documents,
  interviews, and prior GAO reports.
\1\ ``Met'': There are no significant actions that need to be taken to
  further address this criterion.
\2\ ``Partially met'': Some but not all actions necessary to generally
  meet the criterion have been taken.
\3\ ``Not met'': Few, if any, actions toward meeting the criterion have
  been taken.

    Leadership commitment (partially met). FEMA officials responsible 
for the NFIP have shown a commitment to taking a number of actions to 
implement our recommendations, which are designed to improve both the 
financial stability and operations of the program. For example, they 
have indicated a commitment to implementing our recommendations and 
have been proactive in clarifying and taking the actions needed to do 
so. In addition, FEMA officials have met with us to discuss outstanding 
recommendations, the actions they have taken to address them, and 
additional actions they could take. Further, a DHS official said that 
FEMA holds regular meetings to discuss the status of open 
recommendations.
    Recent legislative changes, however, have presented challenges for 
FEMA in addressing the financial exposure created by the NFIP. For 
example, in July 2012, the Biggert-Waters Flood Insurance Reform Act of 
2012 (Biggert-Waters Act) was enacted, containing provisions to help 
strengthen the future financial solvency and administrative efficiency 
of NFIP, including phasing out almost all discounted insurance premiums 
(commonly referred to as subsidized premiums).\31\ In July 2013, we 
reported that FEMA was starting to implement some of the required 
changes.\32\ However, on March 21, 2014, the Homeowner Flood Insurance 
Affordability Act of 2014 (2014 Act) was enacted, reinstating certain 
premium subsidies and restoring grandfathered rates removed by the 
Biggert-Waters Act.\33\ The 2014 Act addresses affordability concerns 
for certain property owners, but may also increase NFIP's long-term 
financial burden on taxpayers.\34\
---------------------------------------------------------------------------
    \31\ Pub. L. No. 112-141, Div. F, Title II, Subtit. A, 126 Stat. 
405, 916 (July 6, 2012).
    \32\ GAO, Flood Insurance: More Information Needed on Subsidized 
Properties, GAO-13-607 (Washington, DC: July 3, 2013).
    \33\ Pub. L. No. 113-89, 128 Stat. 1020 (Mar. 21, 2014).
    \34\ GAO, Flood Insurance: Strategies for Increasing Private Sector 
Involvement, GAO-14-127 (Washington, DC: Jan. 22, 2014).
---------------------------------------------------------------------------
    Corrective action plan (partially met).--While FEMA developed 
corrective action plans for implementing the recommendations in 
individual GAO reports, it has not developed a comprehensive plan to 
address the issues that have placed the NFIP on GAO's high-risk list. 
While addressing our recommendations is part of such a plan, a 
comprehensive plan also defines the root causes, identifies effective 
solutions, and provides for substantially completing corrective 
measures near term. According to a DHS official, the individual action 
plans collectively represent their plan for addressing these issues, as 
the recommendations cover steps needed to improve the program's 
financial stability as well as its administration. The official added 
that DHS has developed more comprehensive plans for other high-risk 
areas, which have been helpful, and could consider doing so for the 
NFIP, but such plans require a lot of work. Such a plan could help FEMA 
ensure that all important issues, and all aspects of those issues, are 
addressed. For example, while our recommendations regarding the NFIP's 
financial stability have focused on the extent of subsidized rates and 
the rate-setting process, financial stability could include other 
important areas, such as debt management. As of December 2013, FEMA 
owed the Treasury $24 billion--primarily to pay claims associated with 
Superstorm Sandy (2012) and Hurricane Katrina (2005)--and had not made 
a principal payment since 2010.
    Capacity (partially met).--FEMA faces several challenges in 
improving the program's financial stability and operations. First, 
recent legislative changes permit certain premium subsidies and restore 
grandfathered rates removed by the Biggert-Waters Act. These 
provisions, along with others, may weaken the potential for improved 
financial soundness of the NFIP program. Second, while FEMA is 
establishing a reserve fund as required by the Biggert-Waters Act, it 
is unlikely to initially meet the act's annual targets for building up 
the reserve, partly because of statutory limitations on annual premium 
increases. Third, while FEMA has begun taking some actions to improve 
its administration of the NFIP, it is unclear how the resources 
required to implement both the Biggert-Waters Act and the 2014 Act will 
affect its ability to continue and complete these efforts. For example, 
the Acts require FEMA to complete multiple studies and take a number of 
actions within the next several years, which will require resources 
FEMA would normally have committed to other efforts.
    Monitoring Progress (partially met).--FEMA has a process in place 
to monitor progress in taking actions to implement our recommendations 
related to the NFIP. For example, the status of efforts to address the 
recommendations is regularly discussed both within the Flood Insurance 
and Mitigation Administration, which administers the NFIP, and at the 
DHS level, according to a DHS official. However, it does not have a 
specific process for independently validating the effectiveness or 
sustainability of those actions. Instead, according to a DHS official, 
once a recommendation related to the NFIP is implemented, the effects 
of the actions taken to do so are not tracked separately, but are 
evaluated as part of regular reviews of the effectiveness of the entire 
program. Broader monitoring of the effectiveness and sustainability of 
its actions would help ensure that appropriate corrective actions are 
being taken.
    Demonstrated, sustained progress (partially met).--FEMA has begun 
to take actions to improve the program's financial stability, such as 
initiating actions to improve the accuracy of full-risk rates.\35\ 
However, these efforts are not complete, and FEMA does not have some 
information, such as the number and location of existing grandfathered 
properties and information necessary to appropriately revise premium 
rates for previously subsidized properties.\36\ Similarly, FEMA has 
taken a number of actions to improve areas of the program's operations, 
such as financial reporting and continuity planning.\37\ However, some 
important actions, such as modernizing its policy and claims management 
system and ensuring the reasonableness of compensation to insurance 
companies that sell and service most NFIP policies, remain to be 
completed.\38\ Sustained progress will be needed for FEMA to address 
the financial and operational issues facing NFIP.
---------------------------------------------------------------------------
    \35\ GAO, Flood Insurance: FEMA's Rate-Setting Process Warrants 
Attention, GAO-09-12 (Washington, DC: Oct. 31, 2008).
    \36\ GAO-13-607.
    \37\ GAO, FEMA: Action Needed to Improve Administration of the 
National Flood Insurance Program, GAO-11-297 (Washington, DC: June 9, 
2011).
    \38\ GAO, Flood Insurance: Opportunities Exist to Improve Oversight 
of the WYO Program, GAO-09-455 (Washington, DC: Aug. 21, 2009) and GAO-
11-297.
---------------------------------------------------------------------------
   government-wide high-risk areas in which dhs plays a critical role
    Progress has been made in the Government-wide high-risk areas in 
which DHS plays a critical role, but significant work remains.
Information Security and Cyber Critical Infrastructure Protection
    As we reported in our February 2013 high-risk update, the White 
House and Federal agencies, including DHS, have taken a variety of 
actions that were intended to enhance Federal and critical 
infrastructure cybersecurity. For example, the Government issued 
numerous strategy-related documents over the past decade and 
established agency performance goals and a mechanism to monitor 
performance in three cross-agency priority areas of strong 
authentication, Trusted Internet Connections, and continuous 
monitoring.\39\
---------------------------------------------------------------------------
    \39\ Strong authentication involves increasing the use of Federal 
smartcard credentials such as Personal Identity Verification and Common 
Access Cards that provide multi-factor authentication and digital 
signature and encryption capabilities, authorizing users to access 
Federal information systems with a higher level of assurance. Trusted 
Internet Connections is an initiative to consolidate external 
telecommunication connections and ensure a set of baseline security 
capabilities for situational awareness and enhanced monitoring. 
Continuous monitoring of Federal information systems includes 
transforming the otherwise static security control assessment and 
authorization process into a dynamic risk mitigation program that 
provides essential, near-real-time security status and remediation, 
increasing visibility into system operations and helping security 
personnel make risk management decisions based on increased situational 
awareness.
---------------------------------------------------------------------------
    In addition, since the February 2013 high-risk update, the 
administration has continued its cyber-related efforts. In February 
2013, the President issued Presidential Policy Directive 21 on critical 
infrastructure security and resilience \40\ and Executive Order 13636 
on improving critical infrastructure cybersecurity.\41\ These documents 
assign specific actions to particular individuals and agencies with 
specific time frames for completion.
---------------------------------------------------------------------------
    \40\ The White House, Presidential Policy Directive/PPD-21, 
Critical Infrastructure Security and Resilience (Feb. 12, 2013).
    \41\ Exec. Order No. 13,636, 78 Fed. Reg. 11,739 (Feb. 19, 2013).
---------------------------------------------------------------------------
    However, more efforts are needed by Federal organizations, 
including the White House, DHS, and other agencies, to address a number 
of areas. To illustrate the scope and persistence of this challenge, in 
fiscal year 2013, inspectors general at 21 of the 24 agencies cited 
information security as a major management challenge for their 
agencies,\42\ and 18 agencies reported that information security 
control deficiencies were either a material weakness or a significant 
deficiency in internal controls over financial reporting in fiscal year 
2013.\43\
---------------------------------------------------------------------------
    \42\ The 24 major departments and agencies are the Departments of 
Agriculture, Commerce, Defense, Education, Energy, Health and Human 
Services, Homeland Security, Housing and Urban Development, the 
Interior, Justice, Labor, State, Transportation, the Treasury, and 
Veterans Affairs; the Environmental Protection Agency, General Services 
Administration, National Aeronautics and Space Administration, National 
Science Foundation, Nuclear Regulatory Commission, Office of Personnel 
Management, Small Business Administration, Social Security 
Administration, and U.S. Agency for International Development.
    \43\ A control deficiency exists when the design or operation of a 
control does not allow management or employees, in the normal course of 
performing their assigned functions, to prevent or detect and correct 
misstatements on a timely basis.
---------------------------------------------------------------------------
            DHS's Role in Federal Information Security and Cyber 
                    Critical Infrastructure Protection
    In addition to having responsibilities for securing its own 
information systems and data, DHS plays a pivotal role in Government-
wide cybersecurity efforts. In particular, in July 2010, the Director 
of the Office of Management and Budget (OMB) and the White House 
Cybersecurity Coordinator issued a joint memorandum that transferred 
several key OMB responsibilities under the Federal Information Security 
Management Act of 2002 (FISMA) to DHS.\44\ Specifically, DHS is to 
exercise primary responsibility within the Executive branch for 
overseeing and assisting with the operational aspects of cybersecurity 
for Federal systems that fall within the scope of FISMA.
---------------------------------------------------------------------------
    \44\ See Pub. L. No. 107-347, Dec. 17, 2002; 44 U.S.C. 3541, et 
seq.
---------------------------------------------------------------------------
    We agree that DHS should play a role in the operational aspects of 
Federal cybersecurity. We suggested in February 2013 that Congress 
consider legislation that would clarify roles and responsibilities for 
implementing and overseeing Federal information security programs and 
for protecting the Nation's critical cyber assets.\45\
---------------------------------------------------------------------------
    \45\ GAO, Cybersecurity: National Strategy, Roles, and 
Responsibilities Need to Be Better Defined and More Effectively 
Implemented, GAO-13-187 (Washington, DC: Feb. 14, 2013).
---------------------------------------------------------------------------
    Regarding cyber critical infrastructure protection, a fundamental 
component of DHS's efforts is its partnership approach, whereby it 
engages in partnerships among Government and industry stakeholders. 
Such an approach is essential because the majority of critical 
infrastructure in the United States is owned and operated by the 
private sector. In 2006, DHS issued the National Infrastructure 
Protection Plan. The plan, subsequently updated several times, provides 
the overarching approach for integrating the Nation's critical 
infrastructure protection and resilience activities into a single 
National effort.\46\ Congress is considering several bills that would 
address cyber information sharing and the cybersecurity posture of the 
Federal Government and the Nation. For example, H.R. 3696, the National 
Cybersecurity and Critical Infrastructure Protection Act of 2014, would 
address DHS's role and responsibilities in protecting Federal civilian 
information systems and critical infrastructure from cyber threats.\47\
---------------------------------------------------------------------------
    \46\ See, most recently, Department of Homeland Security, NIPP 
2013: Partnering for Critical Infrastructure Security and Resilience.
    \47\ H.R. 3696, 113th Cong. (2013).
---------------------------------------------------------------------------
    Specific laws, Executive Orders, and directives have further guided 
DHS's role in cyber critical infrastructure protection. For example, 
Executive Order 13636 directs DHS to, among other things, establish a 
voluntary program to support the adoption of a cybersecurity framework 
by private-sector partners;\48\ coordinate the establishment of a set 
of incentives designed to promote participation in the voluntary 
program; and incorporate privacy and civil liberties protections into 
every initiative called for by the Executive Order.
---------------------------------------------------------------------------
    \48\ As required by Executive Order 13636, the National Institute 
of Standards and Technology (NIST) issued the first version of the 
cybersecurity framework in February 2014. See NIST, Framework for 
Improving Critical Infrastructure Cybersecurity, Version 1.0 (Feb. 12, 
2014).
---------------------------------------------------------------------------
            Securing Federal Systems
    In carrying out its role in overseeing and assisting Federal 
agencies in implementing information security requirements, DHS has 
begun performing several activities. These include:
  <bullet> conducting ``CyberStat'' reviews, which are intended to hold 
        agencies accountable and offer assistance in improving their 
        information security posture;
  <bullet> holding interviews with agency chief information officers 
        and chief information security officers on security status and 
        issues;
  <bullet> establishing a program to enable Federal agencies to expand 
        their continuous diagnostics and mitigation capabilities; and,
  <bullet> refining performance metrics that agencies use for FISMA 
        reporting purposes.
    In February 2014, as part of our continued dialogue with DHS 
regarding progress and what remains to be accomplished in this high-
risk area, we identified and communicated to DHS actions critical to 
addressing its efforts to oversee and assist agencies in improving 
information security practices.\49\ This included the following:
---------------------------------------------------------------------------
    \49\ We provided DHS detail on the actions that need to be taken 
and outcomes that need to be achieved to address the Federal 
information security and cyber critical infrastructure protection high-
risk area. The information we provided DHS was based on our full body 
of work in this area.
---------------------------------------------------------------------------
  <bullet> Expand CyberStat reviews to all major Federal agencies.--DHS 
        has conducted CyberStat sessions with several of the 24 major 
        Federal agencies. According to DHS officials, the current 
        approach focuses on providing CyberStat reviews for the lowest-
        performing agencies. However, expanding the reviews to include 
        all 24 agencies could lead to an improved security posture.
  <bullet> Enhance FISMA reporting metrics.--In September 2013, we 
        reported that the metrics issued by DHS for gauging the 
        implementation of priority security goals and other important 
        controls did not address key security activities and did not 
        always include performance targets.\50\ We recommended that OMB 
        and DHS collaborate to develop improved metrics, and the 
        agencies stated that they plan to implement the recommendation 
        by September 2014.
---------------------------------------------------------------------------
    \50\ GAO, Federal Information Security: Mixed Progress in 
Implementing Program Components; Improved Metrics Needed to Measure 
Effectiveness, GAO-13-776 (Washington, DC: Sept. 26, 2013).
---------------------------------------------------------------------------
  <bullet> Develop a strategic implementation plan.--DHS's Office of 
        Inspector General reported in June 2013 that the Department had 
        not developed a strategic implementation plan describing its 
        cybersecurity responsibilities and a clear plan of action for 
        fulfilling them. According to DHS officials, it has developed 
        this plan and is awaiting closure of the inspector general 
        recommendation. We will review the status of this plan as part 
        of our on-going review of this high-risk area.
  <bullet> Continue to develop continuous diagnostics and mitigation 
        capabilities and assist agencies in developing and acquiring 
        them.--This effort is intended to protect networks and enhance 
        an agency's ability to see and counteract day-to-day cyber 
        threats.
    The successful implementation of these actions should result in 
outcomes such as enhanced DHS oversight and assistance through 
CyberStat, improved metrics and other outcomes, improved situational 
awareness, and enhanced capabilities for assisting agencies in 
responding to cyber incidents. In conjunction with needed actions by 
Federal agencies, this could contribute to improved information 
security Government-wide.
            Protecting Cyber Critical Infrastructure
    DHS, in conjunction with other Executive branch entities, has taken 
steps to enhance the protection of cyber critical infrastructure. For 
example, according to DHS, it has:
  <bullet> expanded the capacity of its National Cybersecurity and 
        Communications Integration Center to facilitate coordination 
        and information sharing among Federal and private-sector 
        stakeholders;
  <bullet> established the Information Sharing Working Group and a 
        mechanism for creating cyber threat reports that can be shared 
        with private-sector partners; and,
  <bullet> set up a voluntary program to encourage critical 
        infrastructure owners and operators to use the cybersecurity 
        framework developed by the National Institute of Standards and 
        Technology, as required by Executive Order 13636.
    In February 2014, we identified and communicated to DHS actions 
critical to addressing cyber critical infrastructure protection, 
including the following:
  <bullet> expand the Enhanced Cybersecurity Services program, which is 
        intended to provide Classified cyber threat and technical 
        information to eligible critical infrastructure entities, to 
        all critical infrastructure sectors as required by Executive 
        Order 13636;
  <bullet> enhance coordination efforts with private-sector entities to 
        facilitate improvements to the cybersecurity of critical 
        infrastructure; and,
  <bullet> identify a set of incentives designed to promote 
        implementation of the NIST cybersecurity framework.
    Completing these efforts could assist in achieving a flow of timely 
and actionable cybersecurity threat and incident information among 
Federal stakeholders and critical infrastructure entities, adoption of 
the cybersecurity framework by infrastructure owners and operators, and 
effective implementation of security controls over a significant 
portion of critical cyber assets. As we reported in March 2014, more 
needs to be done to accelerate the progress made in bolstering the 
cybersecurity posture of the Nation and Federal Government. The 
administration and Executive branch agencies need to implement the 
hundreds of recommendations made by GAO and agency inspectors general 
to address cyber challenges, resolve known deficiencies, and fully 
implement effective information security programs. Until then, a broad 
array of Federal assets and operations will remain at risk of fraud, 
misuse, and disruption, and the Nation's most critical Federal and 
private-sector infrastructure systems will remain at increased risk of 
attack from our adversaries.\51\
---------------------------------------------------------------------------
    \51\ GAO, Government Efficiency and Effectiveness: Views on the 
Progress and Plans for Addressing Government-wide Management 
Challenges, GAO-14-436T (Washington, DC: March 12, 2014).
---------------------------------------------------------------------------
Enhancing the Sharing of Terrorism-Related Information
    DHS has made significant progress in enhancing the sharing of 
information on terrorist threats and in supporting Government-wide 
efforts to improve such sharing.\52\ Our work on assessing the high-
risk area on sharing terrorism-related information has primarily 
focused on Federal efforts to implement the Information Sharing 
Environment, as called for in the Intelligence Reform and Terrorism 
Prevention Act of 2004.\53\ The Information Sharing Environment is a 
Government-wide effort to improve the sharing of terrorism-related 
information across Federal agencies and with State, local, territorial, 
Tribal, private-sector, and foreign partners. When assessing progress, 
we review the activities of both the program manager for the 
Information Sharing Environment--a position established under the 2004 
Act with responsibility for information sharing across the Government--
as well as efforts of DHS and other key entities, including the 
Departments of Justice, State, and Defense, and the Office of the 
Director of National Intelligence.\54\ Accordingly, DHS itself is not 
on the high-risk list nor can DHS's efforts fully resolve the high-risk 
issue. Nevertheless, DHS plays a critical role in Government-wide 
sharing given its homeland security missions and responsibilities.
---------------------------------------------------------------------------
    \52\ Terrorism-related information includes homeland security, 
terrorism, and weapons of mass destruction information. See 6 U.S.C.  
482(f)(1), 485(a)(1), (5)-(6).
    \53\ See Pub. L. No. 108-458,  1016, 118 Stat. 3638, 3664-70 
(2004) (codified as amended at 6 U.S.C.  485).
    \54\ The Office of the Director of National Intelligence was 
established in 2004 to manage the efforts of the intelligence 
community. See 50 U.S.C.  3023. Its mission is to lead intelligence 
integration and forge an intelligence community that delivers the most 
insightful intelligence possible.
---------------------------------------------------------------------------
    Overall, the Federal Government has made progress in addressing the 
terrorism-related information-sharing high-risk area. As we reported in 
our February 2013 update, the Federal Government is committed to 
establishing effective mechanisms for managing and sharing terrorism-
related information, and has developed a National strategy, 
implementation plans, and methods to assess progress and results. While 
progress has been made, the Government needs to take additional action 
to mitigate the potential risks from gaps in sharing information, such 
as ensuring that it is leveraging individual agency initiatives to 
benefit all partners and continuing work to develop metrics that 
measure the homeland security results achieved from improved sharing. 
We are currently conducting work with the program manager and key 
entities to determine their progress in meeting the criteria since the 
2013 high-risk report.
DHS's Role in the Sharing of Terrorism-Related Information
    Separately, in response to requests from this committee and other 
Congressional committees, we have assessed or are currently assessing 
DHS's specific efforts to enhance the sharing of terrorism-related 
information. As discussed below, this work includes DHS efforts to: (1) 
Support State and major urban area fusion centers,\55\ (2) coordinate 
with other Federal agencies that support task forces and other centers 
in the field that share information on threats as part of their 
activities, (3) achieve its own information-sharing mission, and (4) 
share information related to the Department's intelligence analysis 
efforts.
---------------------------------------------------------------------------
    \55\ In general, fusion centers are collaborative efforts of two or 
more agencies that provide resources, expertise, and information to the 
center with the goal of maximizing their ability to detect, prevent, 
investigate, and respond to criminal and terrorist activity. See 6 
U.S.C. 
 124h(j)(1). There are 78 fusion centers in the United States.
---------------------------------------------------------------------------
    Fusion centers.--A major focus of the high-risk area and 
Information Sharing Environment has been to improve the sharing of 
terrorism-related information among the Federal Government and State 
and local security partners, which is done in part through State and 
major urban area fusion centers. DHS is the Federal lead for supporting 
these centers and has made significant strides. For example, DHS has 
deployed personnel to centers to serve as liaisons to the Department 
and help centers develop capabilities (such as the ability to analyze 
and disseminate information), provided grant funding to support center 
activities, provided access to networks disseminating Classified and 
Unclassified information, and helped centers identify and share reports 
on terrorism-related suspicious activities. DHS has been very 
responsive to a recommendation in our 2010 report that calls for 
establishing metrics to determine what return the Federal Government is 
getting for its investments in centers.\56\ We have an on-going review 
of DHS's efforts to assess center capabilities, manage Federal grant 
funding, and determine the contributions centers make to enhance 
homeland security, and expect to issue a report later this year.
---------------------------------------------------------------------------
    \56\ GAO, Information Sharing: Federal Agencies Are Helping Fusion 
Centers Build and Sustain Capabilities and Protect Privacy, but Could 
Better Measure Results, GAO-10-972 (Washington, DC: Sept. 29, 2010).
---------------------------------------------------------------------------
    Field-based entities that share information.--DHS is also taking 
steps to measure the extent to which fusion centers are coordinating 
and sharing information with other field-based task forces and 
centers--such as Federal Bureau of Investigation Joint Terrorism Task 
Forces--and assess opportunities to improve coordination.\57\ In April 
2013, we reported that fusion centers and other field-based entities 
had overlapping activities, but the agencies that support them had not 
held the entities accountable for coordinating and collaborating or 
assessed opportunities to enhance coordination, and recommended that 
the agencies develop mechanisms to do so.\58\ In response, DHS began 
tracking collaboration mechanisms, such as which fusion centers have 
representatives from the other entities on their executive boards, are 
colocated with other entities, and issue products jointly developed 
with other entities.
---------------------------------------------------------------------------
    \57\ The five types of entities we reviewed are State and major 
urban area fusion centers, Joint Terrorism Task Forces, Field 
Intelligence Groups, Regional Information Sharing Systems Centers, and 
High-Intensity Drug Trafficking Area Investigative Support Centers. 
DHS, the Department of Justice, and the Office of National Drug Control 
Policy oversee or otherwise support these entities.
    \58\ GAO, Information Sharing: Agencies Could Better Coordinate to 
Reduce Overlap in Field-Based Activities, GAO-13-471 (Washington, DC: 
Apr. 12, 2013).
---------------------------------------------------------------------------
    DHS's efforts can help avoid unnecessary overlap in activities, 
which in turn can help entities leverage scarce resources. To fully 
address our recommendation, however, the other Federal agencies must 
take steps to better hold their respective field entities accountable 
for such collaboration. In addition, these agencies must work with DHS 
to collectively assess Nation-wide any opportunities for field entities 
to further implement collaboration mechanisms.
    DHS information-sharing mission.--In September 2012, we reported 
that DHS had made progress in achieving its own information-sharing 
mission, but could take additional steps to improve its efforts.\59\ 
Specifically, DHS had demonstrated leadership commitment by 
establishing a governance board to serve as the decision-making body 
for DHS information-sharing issues. The board has enhanced 
collaboration among DHS components and identified a list of key 
information-sharing initiatives to pursue, among other things. We 
found, however, that 5 of DHS's top 8 priority initiatives faced 
funding shortfalls. We also reported that DHS had taken steps to track 
its information-sharing efforts, but had not fully assessed how such 
efforts had improved sharing. We recommended that DHS: (1) Revise its 
policies and guidance to include processes for identifying information-
sharing gaps; analyzing root causes of those gaps, and identifying, 
assessing, and mitigating risks of removing incomplete initiatives from 
its list, and (2) better track and assess the progress of key 
initiatives and the Department's overall progress in achieving its 
information-sharing vision. DHS has since taken actions--such as 
issuing revised guidance and developing new performance measures--to 
address all of these recommendations.
---------------------------------------------------------------------------
    \59\ GAO, Information Sharing: DHS Has Demonstrated Leadership and 
Progress, but Additional Actions Could Help Sustain and Strengthen 
Efforts, GAO-12-809 (Washington, DC: Sept. 18, 2012).
---------------------------------------------------------------------------
    Sharing intelligence analysis. We are finalizing a report on DHS's 
intelligence analysis capabilities, which are a key part of the 
Department's efforts in securing the Nation. Within DHS, the Office of 
Intelligence and Analysis has a lead role for intelligence analysis, 
but other operational components--such as CBP and ICE--also perform 
their own analysis activities and are part of the DHS Intelligence 
Enterprise. Our report, expected to be issued later this month, will 
address: (1) The extent to which the intelligence analysis activities 
of the enterprise are integrated to support Departmental strategic 
intelligence priorities, and are unnecessarily overlapping or 
duplicative; (2) the extent to which Office of Intelligence and 
Analysis customers report that they find products and other analytic 
services to be useful, and what steps, if any, the office has taken to 
address any concerns customers report; and (3) challenges the Office of 
Intelligence and Analysis has faced in maintaining a skilled analytic 
workforce and steps it has taken to address these challenges. We are 
planning to make recommendations to help DHS enhance its intelligence 
analysis capabilities and related sharing of this information.\60\
---------------------------------------------------------------------------
    \60\ The Office of Intelligence and Analysis' five customer groups 
are: (1) DHS leadership; (2) DHS operational components; (3) 
intelligence community members; (4) State, local, Tribal, and 
territorial partners; and (5) private critical infrastructure sectors.
---------------------------------------------------------------------------
    Overall, DHS's continued progress in enhancing the sharing of 
terrorism-related information and responding to our findings and 
recommendations will be critical to supporting Government-wide sharing 
and related efforts to secure the homeland.
    Chairman McCaul, Ranking Member Thompson, and Members of the 
committee, this completes my prepared statement. I would be happy to 
respond to any questions you may have at this time.

    Chairman McCaul. Well, thank you, sir. We thank you for 
your comments as well.
    Chairman now recognizes Mr. Roth.

 STATEMENT OF JOHN ROTH, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Roth. Good morning, Chairman McCaul, Ranking Member 
Thompson, and Members of the committee. Thank you for inviting 
me here today to discuss some of the high-risk areas that DHS 
faces.
    My testimony here today will focus on acquisition 
management. In particular, as our work has shown, DHS is not as 
effective and efficient as it could be in this area. We find 
that it stems from three main areas.
    First, DHS's unique mission requires complicated 
acquisitions. Whether it is acquiring a fleet of helicopters, 
building a border fence over hundreds of miles of varied 
terrain, integrating and managing systems from diverse legacy 
agencies, or purchasing technologically-complex airport 
screening machines are, under the best of circumstances, high-
risk acquisitions.
    Second, DHS, as has been noted this morning, is working 
towards a transparent acquisition governance process, which if 
it is fully followed would lead to better and smarter 
acquisitions. Unfortunately, the DHS components engaged in the 
acquisitions often do not follow the DHS procurement policies, 
and DHS lacks a means to enforce compliance.
    Third, components acquisition decisions often work against 
the Department's stated goal of One DHS. DHS components, in a 
word, operate in a vacuum. They fail to take into account other 
components' needs or they fail to leverage other assets or 
other acquisitions that are already underway.
    We have done a number of audits that give examples of this. 
Those are in my written testimony. But I would like just to 
talk about one single audit that we did with regard to using 
acquisitions to have One DHS.
    DHS's stated goal is to ensure interoperability of 
communications. We want to make sure that the first responders 
and other law enforcement agencies--agents, particularly within 
DHS, can talk to each other through a common channel in the 
event of a terrorist event or a crisis of some sort.
    DHS has about 123,000 radio field users within eight 
different components, and DHS has invested about $430 million 
in equipment, infrastructure, and other resources to ensure 
interoperability.
    We conducted an audit in late 2012 and asked 479 DHS field 
radio users to access and use the specified channel to 
communicate. Out of those 479 people we asked to do so, only a 
single user could use the common channel.
    In other words, DHS had a failure rate of 99.8 percent. 
Seventy-two percent of the users didn't even realize that there 
was--didn't even know the existence of a common channel. The 
remainder just couldn't find it. Of the radios we examined only 
20 percent of them were properly set up to use the common 
channel.
    This test happened 11 years after 9/11. Without an 
effective governing structure DHS cannot achieve its goal of a 
Department-wide radio interoperability. As we sit here today 
the Department's plans to do so are still a work in progress.
    In closing I would like to note that DHS has taken steps to 
implement our recommendations and to progress towards a unity 
of effort. However, the Department is persistently challenged 
in acting in an integrated single entity.
    This concludes my prepared statement. I am happy to take 
questions from the committee. Thank you.
    [The prepared statement of Mr. Roth follows:]
                    Prepared Statement of John Roth
                              May 7, 2014
    Good morning Chairman McCaul, Ranking Member Thompson, and Members 
of the committee. Thank you for inviting me here today to discuss high-
risk areas at DHS identified by GAO.
    In its report, High-risk Series: An Update (GAO-13-283, February 
2013), GAO identified high-risk areas in the Federal Government, 
including areas of particular concern at DHS. My testimony today will 
focus on some high-risk areas that we also identified in our December 
2013 report, Major Management and Performance Challenges Facing the 
Department of Homeland Security (OIG-14-17), particularly in managing 
acquisitions.
    Our work has shown that DHS' management of its acquisitions is not 
as effective and efficient as it could be. This problem stems from 
three main issues:
  <bullet> First, DHS' unique mission requires multi-faceted and 
        sophisticated acquisitions. Whether acquiring a fleet of 
        helicopters, building a border fence over hundreds of miles of 
        varied terrain, or integrating and managing systems from 
        diverse legacy agencies, DHS' requirements increase the 
        complexity and risk of its acquisitions.
  <bullet> Second, DHS is working toward a transparent, authoritative 
        governing process--the Acquisition Life-cycle Framework (ALF)--
        which, if fully implemented, would lead to better oversight and 
        guidance of acquisitions. Unfortunately, DHS components often 
        do not follow this governing process (or any other) in carrying 
        out their acquisitions, and DHS has had difficulty enforcing 
        compliance.
  <bullet> Third, the components' acquisition decisions often work 
        counter to the Department's stated goal of ``One DHS.'' In 
        planning and managing acquisitions, components often operate in 
        a vacuum; they fail to take into account the needs of other 
        components or they fail to leverage other assets or 
        acquisitions already underway.
    We have made recommendations to improve the efficiency and 
effectiveness of DHS' programs and operations, and DHS has taken some 
steps to implement our recommendations. However, the Department 
continues to struggle with acting as an integrated, single entity to 
accomplish its mission.
                           nature of the risk
    Acquisition management at DHS is inherently complex and high-risk. 
It is further challenged by the magnitude and diversity of the 
Department's procurements. In fiscal year 2013, DHS' Major Acquisition 
Oversight List included 123 programs; 88 (72 percent) of the programs 
were Level 1 or Level 2. Level 1 and Level 2 programs have life-cycle 
costs of $300 million or more or have special Departmental interest. 
Some examples of Level 1 and Level 2 acquisitions include:
  <bullet> The United States Coast Guard's HC-144A Maritime Patrol 
        Aircraft, a twin engine turboprop airplane designed for 
        superior situational awareness, a reduced workload, and 
        increased crew safety. Life-cycle cost estimate--$24.9 billion;
  <bullet> U.S. Customs and Border Protection's (CBP) Automated 
        Commercial Environment, a system to enable CBP to interact, 
        manage, and oversee import and export data, and manage 
        custodial revenue and enforcement systems. Life-cycle cost 
        estimate--$4.5 billion;
  <bullet> TSA's Screening Partnership Program, procures screening 
        services from private companies at TSA airports. Life-cycle 
        cost estimate--$2.4 billion;
  <bullet> CBP's Mission Support Facilities to develop, plan, execute, 
        and sustain facilities and infrastructure inventory to support 
        CBP's Mission Support Offices Nation-wide. Facilities include 
        administrative offices, training centers, laboratories, and 
        warehouses. Life-cycle cost estimate--$2 billion;
  <bullet> CBP's Integrated Fixed Towers, a system for automated, 
        persistent wide area surveillance to detect, track, identify, 
        and classify illegal entries. Life-cycle cost estimate--$842 
        million.
          combating the risk: acquisition management framework
    Effective acquisition management requires careful planning and 
oversight of processes, solid internal controls, and compliance with 
laws and regulations. Acquisitions must be planned and managed through 
their entire life cycle to ensure that they are procured, deployed, and 
used efficiently and effectively.
    DHS has developed a comprehensive acquisition framework of 
policies, procedures, and entities to streamline its acquisition 
practices and ensure that procured goods and services meet mission 
needs cost-efficiently. This system should lead to informed investment 
decisions on goods and services that fulfill DHS' mission.
Acquisition Phases
    DHS has adopted the Acquisition Life-Cycle Framework (ALF), 
composed of the following four phases, to determine whether to proceed 
with an acquisition:
    1. Need--identify the need that the acquisition will address;
    2. Analyze/Select--analyze the alternatives to satisfy the need and 
        select the best option;
    3. Obtain--develop, test, and evaluate the selected option and 
        determine whether to approve production; and
    4. Produce/Deploy/Support--produce and deploy the selected option 
        and support it throughout the operational life cycle.
    Each phase of the ALF leads to an ``Acquisition Decision Event'' 
(ADE), a predetermined point at which the acquisition is reviewed 
before it can move to the next phase. The reviews are intended to 
ensure alignment of needs with DHS' strategic direction and adequate 
planning for upcoming phases.
    The figure below shows the four phases of the ALF and each ADE. 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
ADE-0 Identify the need
ADE-1 Validate the need
ADE-2A Approve the program
ADE-2B Approve projects within the program
ADE-2C Approve low rate initial production
ADE-3 Approve full rate production and deployment
ADE 4* Project transition--a milestone unique to the Coast Guard, 
authorizes the project to move to sustainment

    The ALF is a rigorous, disciplined process designed to result in 
cost-efficient acquisitions that can meet the Department's needs and 
help accomplish its mission.
Acquisition Entities, Policies, and Procedures
    DHS' Office of Program Accountability and Risk Management (PARM) 
administers the ALF and oversees all major DHS acquisitions. PARM 
reports directly to the under secretary for management and manages and 
implements the Department's Acquisition Management Directive. PARM is 
also responsible for independently assessing major investment programs 
and monitoring programs between formal reviews to identify issues.
    DHS has established the following mechanisms to govern 
acquisitions:
  <bullet> The Acquisition Review Board (ARB).--A cross-component board 
        composed of senior-level decisionmakers. The ARB determines 
        whether a proposed acquisition meets requirements and can 
        proceed to the next phase and eventual production and 
        deployment. Before every ADE, components must submit 
        acquisition documents to the ARB for review, including a 
        mission needs statement, capability development plan, and an 
        acquisition plan.
  <bullet> Quarterly Program Accountability Report.--Provides a 
        comprehensive, high-level analysis of a program's vital signs 
        provided to DHS leadership, component acquisition executives, 
        and program managers.
  <bullet> A Joint Requirements Council.--Reviews high-dollar 
        acquisitions and recommends savings opportunities to the ARB.
  <bullet> Centers of Excellence.--Two have been set up under PARM: 
        Program Management Center of Excellence and Cost Estimating & 
        Analysis Center of Excellence. Leadership staff and subject-
        matter experts at the centers provide proven practices, 
        guidance, and counsel on program management and cost estimating 
        and analysis.
  <bullet> The Decision Support Tool.--A web-based central dashboard to 
        assess and track the health of major acquisition projects, 
        programs, and portfolios. The Department's goal is to improve 
        program accountability and make sound strategic decisions 
        throughout the life-cycle of major acquisitions.
  <bullet> Comprehensive Acquisition Status Report.--Provides 
        information on the status of major acquisitions. Reports 
        include information such as the current acquisition phase, the 
        date of last review, life-cycle cost estimate, and key events 
        and milestones.
  failing to follow the framework results in problematic acquisitions
    However, as our work has shown, this process is not always 
followed. Several of our audits have highlighted DHS' challenge in 
establishing an overarching structure that fully integrates the 
components into overall governance, unified decision making, and 
collective analysis.
CBP's Acquisition of H-60 Helicopters
    In May 2013, we issued DHS' H-60 Helicopter Programs (Revised) 
(OIG-13-89), which illustrates the risks of deviating from the ALF. 
Although the Department had some processes and procedures to govern its 
aviation assets and provide oversight, the acquisition was not fully 
coordinated and acquisition costs, schedules, and performance were not 
controlled.
    CBP did not take into account guidance from the DHS Office of the 
Chief Procurement Officer (OCPO) in its H-60 acquisition planning. In 
2007, CBP's Office of Air and Marine submitted its Congressionally-
mandated acquisition plan, which outlined how its aviation assets and 
acquisitions would support its mission. CBP leadership approved the 
plan to acquire 38 new and converted medium-lift helicopters and 
submitted it to the DHS OCPO.
    On March 3, 2008, OCPO expressed its concerns about the program in 
a memo to CBP. According to OCPO, CBP needed to address substantive 
issues in the acquisition plan. CBP should have had two separate H-60 
plans, and both should move independently through the acquisition 
review process, including ARB review. OCPO was also concerned that 
CBP--
  <bullet> Had not clearly defined the acquisition's period of 
        performance;
  <bullet> Did not have a complete life-cycle cost estimate;
  <bullet> Had not completed a cost-benefit analysis to compare 
        upgrading its existing fleet to purchasing new helicopters; and
  <bullet> Had not used various contracting best practices.
    Just 3 days after receiving the memo from OCPO, CBP nevertheless 
continued with the H-60 acquisition by signing an agreement with the 
U.S. Army.
    In March 2010, the ARB concluded that both CBP and the Coast Guard 
were pursuing H-60 conversions and directed the Coast Guard to 
collaborate with CBP, report on possible helicopter program synergies, 
and present a joint review within 75 days. The Coast Guard was not able 
to complete the review because CBP did not provide the needed 
information.
    Subsequent attempts to push the acquisition into the ALF failed.
    We recommended that DHS direct CBP to apply all ALF requirements to 
all its aviation-related acquisitions. DHS concurred with this 
recommendation, and CBP was directed to submit its plans to acquire 
aviation assets to PARM. According to DHS, the ARB would review and 
decide on CBP's aviation programs and projects as they progressed 
through the ALF.
Information Technology Investments
    In August 2012, we issued CBP Acquisition of Aviation Management 
Tracking System (Revised) (OIG-12-104). We reported that although CBP 
had a joint strategy to unify its aviation logistics and maintenance 
system with those of the Coast Guard, it planned to purchase a new, 
separate system. This system would not be coordinated with the Coast 
Guard's already operational system. We concluded that the acquisition 
did not comply with the Secretary's efforts to improve coordination and 
efficiencies among DHS components. Acquiring the new system would also 
be a continuation of components' past practices of obtaining disparate 
systems that cannot share information. If CBP instead transitioned to 
the Coast Guard's system, it would improve tracking of aviation 
management and cost less than purchasing a new system.
DHS Governance of Aviation Assets
    DHS historically has had little formal structure to govern the 
Department's aviation assets and no specific senior official to provide 
expert independent guidance on aviation issues to DHS senior 
management. The Department has intermittently issued policies and 
established various entities to oversee its aviation assets and 
operations, but it has not sustained these efforts. For example, DHS 
set up an Aviation Management Council in 2005, but oversight was 
inconsistent, and the council stopped meeting in 2007. In 2009, 
Department-level oversight of DHS' aviation assets resumed. An Aviation 
Issue Team led by the Office of Program Analysis and Evaluation 
reviewed potentially co-locating component aviation facilities, finding 
commonality in component aviation assets, and combining component 
aviation-related information technology systems.
    In 2011, the deputy secretary established an Aviation Working 
Group, but the group did not have a charter, defined roles and 
responsibilities, or an independent aviation expert. It collected data 
on CBP and USCG missions, aircraft inventories, flight hours, and 
aviation resources; reviewed components' funding plans and 
opportunities for joint acquisitions; and considered an organizational 
structure for a Department-wide aviation office. However, according to 
senior officials, without an authoritative expert, DHS was relying on 
unverified information from components to make aviation-related 
decisions.
    In addition to challenges in establishing a structure to govern 
aviation assets, DHS has had difficulty bringing aviation-related 
acquisitions into the ALF. For example, CBP's Strategic Air and Marine 
Plan (STAMP) has an estimated life-cycle cost of about $1.5 billion. 
STAMP encompasses all of CBP's aviation-related acquisitions used to 
detect, interdict, and prevent acts of terrorism near and across or 
across U.S. borders. CBP does not believe that STAMP should be subject 
to the ALF because the program existed before DHS established the 
framework. We contend (and have recommended) that individual programs 
and projects under STAMP should go through the ALF separately.
Unmanned Aircraft
    In CBP's Use of Unmanned Aircraft Systems in the Nation's Border 
Security (OIG-12-85, May 2012), we reported that CBP had not adequately 
planned the resources needed to support its unmanned aircraft. CBP's 
plans to use the unmanned aircraft did not include processes to ensure 
that: (1) Each launch and recovery site had the required operational 
equipment; (2) stakeholders submitted mission requests; (3) mission 
requests were prioritized; and (4) it obtained reimbursement for 
missions flown on stakeholders' behalf. Because these were not 
included, CBP risked having invested substantial resources in a program 
that underutilized resources and limited its ability to achieve its 
mission goals. Specifically, our audit showed that CBP had not achieved 
its scheduled or desired levels of flight hours for the unmanned 
aircraft. We estimated that 7 unmanned aircraft should support 10,662 
flight hours per year to meet the minimum capability and 13,328 flight 
hours to meet desired capability. However, staffing and equipment 
shortages, coupled with FAA and other restrictions, limited actual 
flight hours to 3,909--37 percent of the unmanned aircraft's mission 
availability threshold and 29 percent of its mission availability 
objective.
CBP's Advanced Training Center Acquisition
    In February 2014, we issued U.S. Customs and Border Protection's 
Advanced Training Center Acquisition (OIG-14-47). We reported that CBP 
did not effectively oversee and manage the fourth phase of the 
acquisition of its Advanced Training Center. Although not subject to 
the ALF, CBP did not comply with Federal and Departmental regulations 
governing acquisitions. CBP did not develop and execute the $55.7 
million agreement with its service provider, the U.S. Army Corps of 
Engineers, according to Federal, Departmental, and component 
requirements. In particular, CBP did not develop, review, or approve a 
required independent Government cost estimate and acquisition plan 
prior to entering into the agreement. Key documentation supporting the 
agreement with the Corps of Engineers was either missing or incomplete. 
CBP also approved millions of dollars worth of contract modifications 
to the agreement without first ensuring the need and reasonableness of 
the modifications. In addition, CBP improperly used reimbursable work 
authorizations to transfer money for this project, as well as other 
construction projects. During our audit, CBP began taking action to 
ensure future compliance with all statutory requirements; CBP concurred 
with all our recommendations.
TSA's Advanced Imaging Technology
    We issued Transportation Security Administration's Deployment and 
Use of Advanced Imaging Technology (Revised) (OIG-13-120) in March 
2014. We reported that the Transportation Security Administration (TSA) 
did not develop a comprehensive deployment strategy for using advanced 
imaging technology (AIT) units--procured at a cost of nearly $150 
million--at airports. Because TSA did not have reliable data to 
determine whether the units were effectively deployed, TSA decision 
makers could not implement efficiency improvements.
    This occurred because TSA did not have a policy or process 
requiring program offices to prepare strategic acquisition or 
deployment plans for new technology that aligned with the overall goals 
of the Passenger Screening Program.
    The AIT units did not undergo a stand-alone acquisition review, but 
were instead reviewed as part of the Passenger Screening Program. 
Because the AIT units met the Level 1 acquisition threshold, they 
should have gone through all the steps required for that level. TSA 
should also have developed a deployment strategy for the AIT units, but 
it only developed a deployment schedule.
    Without documented, approved, and comprehensive plans, as well as 
accurate data on the use of AIT, TSA continued to screen the majority 
of passengers with walkthrough metal detectors. This potentially 
reduced AIT's security benefits, and TSA may have used resources 
inefficiently to purchase and deploy AIT units that were underused.
            failing to use acquisitions to forge ``one dhs''
    In addition to failing to manage high-risk acquisitions through a 
governing process, DHS acquisitions often miss opportunities to ensure 
DHS acts in a concerted and efficient manner. DHS has struggled to 
become fully integrated. With 22 components and a range of missions, 
cooperation, and coordination continue to be a challenge. The 
Department's structure sometimes leads to ``stovepiping''--components 
operating independently and management often not cooperating and 
sharing information to benefit ``One DHS.'' In an April 2014 memorandum 
for DHS leadership, the Secretary reiterated the need to strengthen the 
Department's ``unity of effort.''
    During our recent audits, we identified several programs in which 
there was little or no cross-component coordination and communication 
and weak Department-level authority. These led to cost inefficiencies 
and ineffective program management. Therefore, we made recommendations 
to enhance collaboration to improve both efficiency and effectiveness 
and prevent waste and abuse.
DHS Radio Equipment Program
    DHS manages about 197,000 pieces of radio equipment and 3,500 
infrastructure sites, with a reported value of more than $1 billion. We 
issued a pair of reports that highlighted the problematic nature of 
some of the acquisition processes for communications equipment.
    In one of our audits, DHS' Oversight of Interoperable 
Communications (OIG-13-06, November 2012), we tested DHS radios to 
determine whether DHS components could talk to each other in the event 
of a terrorist event or other emergency. They could not. Only 1 of 479 
radio users we tested--or less than one-quarter of 1 percent--could 
access and use the specified common channel to communicate. Further, of 
the 382 radios tested, only 20 percent (78) contained all the correct 
program settings for the common channel. In other words, DHS components 
could not talk to each other using $430 million worth of radios 
purchased nearly a decade after the 9/11 Commission highlighted the 
problem. They could not do so because DHS did not establish an 
effective governing structure with the authority and responsibility to 
ensure it achieved Department-wide, interoperable radio communications. 
We also reported that without an effective governing structure and a 
concerted effort to attain interoperability, the Department's progress 
would remain limited.
    DHS' plans to achieve interoperability are still in progress. The 
Department has drafted, but not finalized, a DHS Communications 
Interoperability Plan; it has extended the date of signature from April 
to September of this year.
    In August 2013, we issued DHS Needs to Manage Its Radio 
Communication Program Better (OIG-13-113). We reported that without 
sound investment decisions on radio equipment and supporting 
infrastructure, DHS could not effectively manage its radio 
communication program. DHS had not implemented a governance structure 
with authority to establish policy, budget and allocate resources, and 
hold components accountable for managing radio programs and related 
inventory. Components were still independently managing their current 
radio programs with no formal coordination with the Department. They 
used different systems to record and manage personal property inventory 
data, including radio equipment. The components' inventory data also 
indicated they did not record radio equipment consistently in personal 
property systems. As a result, DHS was making management and investment 
decisions for the radio communication program using inconsistent, 
incomplete, and inaccurate real and personal property data.
    We concluded that a Department-wide inventory would help DHS 
prioritize its needs, plan its investments, and help plan future 
acquisitions and manage communication networks. DHS also needs a strong 
governance structure over its radio communication program. Thus, we 
recommended that the Department develop a single portfolio for radio 
equipment and infrastructure and establish a Department-level point of 
accountability. In response to our recommendations, DHS said that 
because of budget constraints, it would include a time line and 
resources for portfolio management in its fiscal year 2016 Resource 
Allocation Plan. The Department was collecting data to develop a single 
profile of assets, infrastructure, and services; reviewing existing 
policies and procedures; and planning to revise its personal property 
manual by June 30, 2014.
Cross-Border Tunnel Program
    In our audit of CBP's and U.S. Immigration and Customs 
Enforcement's (ICE) efforts to monitor and detect illegal cross-border 
tunnels (CBP's Strategy to Address Illicit Cross-Border Tunnels, OIG-
12-132, September 2012), we reported that although CBP is creating a 
program to address capability gaps in countering the cross-border 
tunnel threat, it had not demonstrated how its detection strategy would 
consider ICE's needs.
    CBP and ICE need coordination and oversight in developing these 
technologies because the Border Patrol's mission objective is to 
prevent illegal traffic from crossing the border while ICE's objective 
is to investigate and dismantle criminal organizations.
    Without taking into account both components' needs, the Department 
risks not being able to disrupt criminal organizations that engage in 
cross-border smuggling. We made recommendations to improve 
consideration of CBP's and ICE's needs and to improve DHS' coordination 
and oversight of counter-tunnel efforts.
    CBP took action on our recommendations, including formation of an 
Integrated Product Team, which includes relevant stakeholders. It also 
planned to draft required acquisition planning documents and submit the 
program to the ARB.
Aviation
    Our audit of CBP's H-60 helicopter program showed that CBP did not 
properly oversee and manage the conversion and modification of its H-60 
helicopters, which affected the cost-effectiveness and timely delivery 
of the converted and modified 
H-60s. We noted that increased cooperation between CBP and the Coast 
Guard in managing the conversion and modification of its H-60 
helicopters would reduce redundancies and potentially save millions of 
dollars. Specifically, if CBP were to complete the conversions and 
modifications at a Coast Guard facility, it would save about $126 
million and H-60s would fly 7 years sooner. The Department's own 
independent study confirmed that CBP would realize substantial savings 
by using the Coast Guard facility. Specifically, DHS estimated CBP 
could save at least $36 million and as much as $132 million in the cost 
of conversion alone. According to DHS, it could not be more precise 
because CBP did not provide sufficient data.
    Mr. Chairman, this concludes my prepared statement. I welcome any 
questions you or other Members of the committee may have.
                                Appendix
Major Management and Performance Challenges Facing the Department of 
Homeland Security, OIG-14-17, December 2013
Independent Auditors' Report on DHS' FY 2013 Financial Statements and 
Internal Control over Financial Reporting, OIG-14-18, December 2013
DHS' H-60 Helicopter Programs (Revised), OIG-13-89, May 2013
U.S. Customs and Border Protection's Management of the Purchase and 
Storage of Steel in Support of the Secure Border Initiative, OIG-12-05, 
November 2011
Transportation Security Administration's Deployment and Use of Advanced 
Imaging Technology, OIG-13-120, March 2014
DHS Needs to Manage Its Radio Communication Program Better, OIG-13-113, 
August 2013
United States Customs and Border Protection's Radiation Portal Monitors 
at Seaports, OIG-13-26, January 2013
DHS' Oversight of Interoperable Communications, OIG-13-06, November 
2012
CBP's Strategy to Address Illicit Cross-Border Tunnels, OIG-12-132, 
September 2012
CBP's Use of Unmanned Aircraft Systems in the Nation's Border Security, 
OIG-12-85, May 2012
Unclassified Summary of Information Handling and Sharing Prior to the 
April 15, 2013 Boston Marathon Bombings, April 10, 2014
DHS Uses Social Media to Enhance Information Sharing and Mission 
Operations, But Additional Oversight and Guidance Is Needed, OIG-13-
115, September 2013
DHS Can Make Improvements to Secure Industrial Control Systems, OIG-13-
39, February 2013
CBP's and USCG's Controls Over Exports Related to Foreign Military 
Sales, OIG-13-118, September 2013
U.S. Customs and Border Protection Has Taken Steps to Address Insider 
Threat but Challenges Remain, OIG-13-118, Redacted, September 2013
DHS Needs to Strengthen Information Technology Continuity and 
Contingency Planning Capabilities, OIG-13-110, Redacted, August 2013
DHS Can Take Actions to Address its Additional Cybersecurity 
Responsibilities, OIG-13-95, June 2013
DHS' Efforts to Coordinate the Activities of Federal Cyber Operations 
Centers, OIG-14-02, October 2013
Homeland Security Information Network Improvements and Challenges, OIG-
13-98, June 2013

    Chairman McCaul. Thank you, Mr. Roth.
    The Chair now recognizes himself for 5 minutes.
    Mr. Mayorkas, let me first commend you for the clean audit, 
for getting more items off the high-risk list, for your efforts 
in DHS acquisition. The memo that came out recently by you and 
the Secretary actually mirrors our legislation that we passed 
unanimously out of committee. So I do commend you for that.
    But I do have to raise an issue that happened last Thursday 
when the Secretary of Homeland Security placed the former 
acting inspector general, Mr. Edwards, under leave after a 
Senate report came out alleging among other things that Mr. 
Edwards intentionally changed and withheld information in some 
IG reports to accommodate the administration's political 
appointees, and that he sought outside legal advice, 
compromising the IG's independence.
    Now, I don't know if these allegations are accurate. But if 
they are, this is the internal watchdog. This is sort-of like 
the old adage the fox guarding the henhouse.
    I know you are concerned about this, as I am. But can you 
tell me, has the Department launched an investigation into 
these allegations?
    Mr. Mayorkas. Thank you very much, Mr. Chairman. I would 
like to make two points in response to your very important 
question, one specific to the announcement to which you refer 
last Thursday.
    That is that the Secretary took swift and strong action in 
placing the former inspector general on administrative leave, 
and made the very important point that as additional facts are 
learned, appropriate action will be taken. So this is a matter 
that is under process. I don't think it would be appropriate 
for me to speak in more depth about a personnel matter.
    The overarching point that I would like to make is the 
following, and it is a very simple but a very important 
message. That is that the highest degree of ethics and 
integrity are conditions of employment in the Department of 
Homeland Security.
    Chairman McCaul. So after this came out the Secretary 
placed him on administrative leave and the inspector general 
has been tasked to investigate the current inspector general, 
who is with us today. Is that correct or not?
    Mr. Mayorkas. I am actually not certain as to who is 
conducting that investigation, Mr. Chairman. Perhaps my 
colleagues here know.
    Chairman McCaul. Leads me to my next question. Mr. Roth, 
are you investigating these allegations?
    Mr. Roth. We are not. What we have is within the Inspector 
General Act a process by which allegations against either the 
inspector general or people within reporting to the inspector 
general, allegations with regard to misconduct get 
investigated.
    There is the entity called the Committee of IGs for 
Integrity and Efficiency that has a special investigative 
committee. They have received a complaint--a series of 
complaints really, with regard to the former acting inspector 
general.
    That has now been farmed out to a different inspector 
general to ensure objectivity and you know to ensure that it is 
an independent and objective review of that. My understanding 
is that that investigation is being conducted by the inspector 
general from the Department of Transportation.
    Chairman McCaul. Because these allegations are so serious 
the decision was made not to go with the IG within DHS, but 
rather farm it out to the IG at the Department of 
Transportation.
    Mr. Roth. That is correct. Again, we followed the Inspector 
General Act, which basically dictates how these things should 
work.
    Chairman McCaul. I mean does it concern you about these 
allegations involving allegations out of Cartagena with the 
Secret Service, or a report for $650,000 that was never 
disclosed on accountability and risk management?
    Mr. Roth. It deeply concerns me. Essentially the morning 
after I read the report I ordered that those reports be taken 
down from our public website.
    I have tasked a senior lawyer from our Office of General 
Counsel, that is our Office of General Counsel, not the 
Department's Office of General Counsel, to conduct an internal 
investigation to talk to the career auditors who actually 
researched and wrote those reports to find out exactly what was 
changed, why it was changed, to restore those reports to its 
original condition and then repost it and report the results of 
it, not only to the committee but to the public.
    Chairman McCaul. Well, we look forward to hearing the 
results of that investigation. I also appreciate your testimony 
about the lack of interoperability at a 99.8 percent failure 
rate, which is astounding to me.
    The final question to Mr. Dodaro, and that is you mentioned 
information sharing with respect to terrorism threats and 
cybersecurity, two issues very important to me and to this 
committee. After the Boston report have you done an analysis of 
the failure of information sharing?
    Mr. Dodaro. No, we have not been asked to take a look at 
that particular situation.
    Chairman McCaul. But you still mention that is high-risk in 
the DHS list.
    Mr. Dodaro. Oh yes, definitely. It looks at not only DHS 
but the five other--or four other agencies that are involved. 
It is a Government-wide high-risk designation in terms of 
information sharing.
    DHS is an important part of it. But we do look at the 
program manager at the DNI, the Director for National 
Intelligence, as well as the coordination with the Treasury and 
Justice and DHS.
    Chairman McCaul. Of course we know the inspector generals 
for the ICE and Department of Justice and DHS all came out with 
their report, which was, I think, a very candid assessment 
about what happened that day and what failed that day.
    With that, the Chairman now recognizes the Ranking Member.
    Mr. Thompson. Thank you, Mr. Chairman.
    Following that line of questions from the Chairman, Mr. 
Dodaro, do you foresee any time in the near future that DHS 
will get off the high-risk list?
    Mr. Dodaro. I think there is ample opportunity for 
continued progress. They need to meet the criteria for coming 
off the list, particularly getting another year of a clean 
opinion on the financial statements, but also on internal 
controls.
    There is a statutory requirement that they have an opinion 
on internal controls, which is rather unique in the Federal 
Government, but nonetheless it is there and their current time 
frame for doing that and modernizing their financial systems is 
2016 and beyond.
    They need to also demonstrate that they need to--that they 
can bring some of these acquisitions in within budget, 
scheduled on time and deliver a functionality that was 
originally intended by those acquisitions.
    So you know those are only two areas. I mean there are 
milestones within the other ones as well. So I think it is 
achievable in a relatively short-term, but it is going to take 
a while to actually produce these results.
    I am committed to working with the Department 
constructively. But I am not going to take anything off the 
high-risk list until the problems have been resolved.
    Mr. Thompson. Well, you referenced some material weaknesses 
within Coast Guard, FEMA, ICE, and CBP. What has been the 
response from those agencies when you shared those weaknesses 
with them?
    Mr. Dodaro. They have listened to what we have had to say. 
But there needs to be agreement not only in the Department--
within the components, excuse me, but also at the Department-
wide level.
    I mean part of the time that has been lost there in the 
financial management systems, which is what I was specifically 
talking about, is the Department pursued two efforts at least 
to have a Department-wide financial management system. Both of 
those efforts failed. Now they have tried to have a component-
oriented approach to doing this, which can work, but it needs 
to have Department leadership.
    So we are going to be looking more carefully at this 
financial management modernization effort that they have under 
way. But it is still in its early stages. FEMA is the one that 
is furthest behind.
    Mr. Thompson. To the extent, Mr. Roth, you kind-of 
highlighted some of this in terms of the acquisitions and other 
things we have experienced within DHS. Explain what--you said 
that somehow DHS is in charge but that the components don't 
follow the regulations.
    I think you were saying we have DHS up here and we have got 
these other people under here and the people down here kind-of 
do what they want to do. The people up top just kind-of observe 
them. So, who is really in charge?
    Mr. Roth. That is exactly the issue that we see. I mean 
right now the Department has something called the Acquisition 
Life-Cycle Framework, which is a, sort-of a framework that is 
there to ensure that acquisitions are well thought-out, that 
there are trigger points for review by high-level Department 
officials to ensure that we are spending money in the right 
way.
    It is a good program. It is run by the under secretary for 
management in a group called the Program Accountability and 
Risk Management Section within the under secretary's office. It 
works when it is used because it is deliberate. It is 
objective. It allows money to be spent in the right way.
    The difficulty is it was only set up in 2011. So you have 
some of these very high-dollar acquisitions.
    For example, the Customs' Air and Marine program, basically 
the ships and the helicopters and the airplanes that Customs 
purchases, all high-risk acquisitions, all big-dollar 
acquisitions, something like $1.5 billion life-cycle costs for 
these things, are not part of that system because they pre-
existed.
    What we believe ought to happen is that the leadership, the 
Secretary and the deputy secretary need to, candidly, be firmer 
with the components to ensure that these kinds of acquisitions 
get forced into the framework that DHS has set up.
    Mr. Thompson. I yield back.
    Chairman McCaul. Chairman recognizes Dr. Broun from 
Georgia.
    Mr. Broun. Thank you, Mr. Chairman.
    Let me wish Mr. Dodaro a happy birthday myself too. So I 
hope you have a great day, sir. It is a great way to spend it 
is with us.
    Mr. Dodaro. Well, I am ending it on the Senate.
    Mr. Broun. Well, I wish you well over there too. I think we 
are nicer than they are over there.
    But my first question to you guys is that we have, as 
Members of this committee, struggled with the jurisdiction 
issues. It seems to me that when any entity has multiple bosses 
then they have absolutely nobody in charge and no true boss.
    I am concerned about where we are going. We look at the 
high-risk issues and what is happening with acquisition and 
with cybersecurity and with all the other areas that you all 
have brought forward as being problem areas.
    I will start with Mr. Dodaro. Would you comment as to the 
issue of jurisdiction? Is this--is jurisdictional problems part 
of why the DHS is struggling so much and has all these high-
risk areas? If so, what would you recommend? How would you 
recommend to rectify that?
    Mr. Dodaro. I don't believe jurisdictional issues are a 
factor in these high-risk designations, particularly with 
management functions within the Department. I think it is just 
a matter of the Department having to get the processes in place 
and execute properly.
    I mean in many cases they have the right policies in place. 
They are just not executing them appropriately. It is just a 
matter of the Department having to work more to provide 
guidance to the components and use the power of the purse, if 
you will, to not let them spend money unless they have approved 
baselines for acquisitions and they have done proper testing.
    I mean they shouldn't be able to move forward without that. 
I mean the prescription for success in this area is very clear 
in following best practices. But they are just not following 
it.
    You could--you know, the jurisdictional issues I don't 
believe are at play here. It is just a manner of good 
management and follow-through and discipline.
    Mr. Broun. So this is a management problem then within the 
Department itself?
    Mr. Dodaro. Yes, for the management areas on the high-risk 
list definitely.
    Mr. Broun. How far up the chain does that go as far as 
management problems?
    Mr. Dodaro. Well, I think it goes to the highest levels in 
the----
    Mr. Broun. As far as the Secretary?
    Mr. Dodaro. Yes. I think everybody has to be engaged. I 
think the Secretary's memo that he just announced in April to 
have more integrated planning and budgeting and requirements 
management and putting structures in place in the environment 
that work effectively would be a great step forward if they can 
get that done.
    Now, in the other areas in the cybersecurity and the 
information-sharing area, those are Government-wide high-risk 
areas. So the Department itself can't address those issues.
    Theirs were I don't think jurisdictional issues at play, 
but it requires broader oversight by the Congress because it is 
a Government-wide area. Those areas I think some joint hearings 
and some other efforts with other committees that have 
responsibility, and the House and Senate working together would 
be helpful, particularly in passing legislation, which we have 
called for to clarify DHS's role and responsibilities as it 
relates to Federal oversight of computer security and critical 
infrastructure protection.
    There I think you need more parts of the Congress working 
together to help DHS get the proper authorities in place.
    Mr. Broun. Well, you say it is a Government-wide problem 
and overall in some of those areas. But that is not an excuse 
though that one department, DHS, which we have jurisdiction 
over shouldn't be solving that problem. Is that correct?
    Mr. Dodaro. Oh, that is absolutely correct. We have been 
looking at whether DHS even within the Department is sharing 
information. We have a report that will be coming out soon on 
the Office of Intelligence Analysis as to whether or not DHS, 
within its own organization, is sharing information properly. 
That is exactly right, Congressman Broun.
    Mr. Broun. Mr. Roth, do you have any comment on acquisition 
just very quickly? I have got 30 seconds left to my time. So if 
you would be expeditious in your answer.
    Mr. Roth. I think Mr. Dodaro summed it up. We know what to 
do. We know the process that can be used to make smarter, 
better acquisitions. The question is forcing the components to 
follow that process.
    Mr. Broun. This is a long-standing problem. This is not 
just with this current Secretary or the past Secretary. It has 
been really ever since it has been stood up is my 
understanding. Is that correct?
    Mr. Roth. That is correct. Again, this process was only 
stood up in 2011 to try to integrate everything under the under 
secretary.
    Mr. Broun. Very good. Thank you, Mr. Chairman. My time is 
expired.
    Chairman McCaul. Thank you. Just to follow up my 
colleague's comments, when we are talking about jurisdiction 
though in the Congress, not within the Department but within 
the Congress, when the Secretary has to report to over 100 
committees and subcommittees, doesn't that detract from the 
core mission of protecting the American people, Mr. Dodaro?
    Mr. Dodaro. Well, we have not looked at that issue. But it 
is not uncommon in many departments and agencies for the 
Department of Defense, for example, to have multiple committees 
to report to.
    I think early on, and I am going back to the creation of 
the Department, there wasn't enough transparency in working 
with the Congress and having open communication. That I think 
fostered a set of relationships that have to be overcome, and 
are being overcome over a period of time.
    So I think if there was more transparency and the 
Department was actually producing the plans, the jurisdictional 
issues wouldn't be as acute as they have been because of that I 
would say getting off on the wrong foot in its relationship 
with the Congress.
    Chairman McCaul. Well, again, this is not an issue I fault 
the Department on. I actually fault the Congress on this one 
because we can't pass any legislation without multiple 
referrals to multiple committees.
    It becomes dysfunctional within the Congress. Then it takes 
time and attention away from senior leadership that need to be 
doing their job to report to over 100 committees and 
subcommittees. The Aspen Institute came out with a report 
talking about it.
    We need to--it was one of the top recommendations of the 9/
11 Commission was to have the DHS report to a single oversight 
committee. That recommendation has never been followed by 
Congress. I think we need to change that.
    I am a little disappointed in the answer. I think Mr. 
Mayorkas may disagree with you on that. Do you?
    Mr. Mayorkas. Mr. Chairman, I think the Secretary has 
addressed you and other Members of the Congress expressing his 
deep concern with respect to the jurisdictional issue and the 
position it places the Department in.
    Chairman McCaul. It detracts from the core mission. With 
that, the Chairman now recognizes Mr. Richmond from Louisiana.
    Mr. Richmond. Thank you, Mr. Chairman.
    Mr. Dodaro, now I want to talk about the National Flood 
Insurance Program. I see that you have made several comments or 
recommendations regarding it. Do you have any concerns that 
their current capacity or these notations that you made will 
affect their implementation of the new Homeowner Flood 
Insurance Affordability Act?
    Mr. Dodaro. I think there are a number of recommendations 
that we have made, for example in modernizing their claims 
management system that need to be put in place. The 
implementation of the Act will be a new challenge for them that 
could detract from some of the implementation of these 
recommendations.
    But I think it is very important for them to continue their 
efforts to modernize the claims system and oversee the 
contractors that write the policies for the Flood Insurance 
Program.
    Mr. Richmond. Well, that is exactly where I wanted to go 
because you used the term the reasonableness of compensation to 
the insurance companies that sell and service most of the NFIP 
policies. Do we think their compensation is on the unreasonable 
side in terms of high or low? Or is it something that we need 
to look into?
    Mr. Dodaro. You definitely need to look into that issue. I 
mean I think that that is an important question and that is 
something that we think requires more oversight and whether or 
not the compensation is appropriate.
    Mr. Richmond. Our numbers, and I don't know if your numbers 
would say the same things, in that through the life of the 
Flood Insurance Program that the amount of money in premiums 
that have gone in almost equals the amount of money that is 
going out, except that you have all the administrative expenses 
that any insurance company would have.
    But everywhere we can reduce those administrative costs or 
the costs that the insurance companies are charging for either 
servicing or the commissions that they receive, we make the 
program more stable. We can directly save the taxpayers money 
on those. Have you looked at----
    Mr. Dodaro. Yes. I think the administrative costs need to 
be under constant review to make sure that they are at the 
minimum necessary to operate the program. However, the premiums 
in our opinion have not been sufficient to cover the costs of 
the programs.
    I mean currently the National Flood Insurance Program owes 
the Treasury $24 billion and hasn't made a principal payment 
since 2010 on that issue. So it is not really actuarially sound 
going into the future. So that is one of the reasons it is on 
the high-risk list.
    Mr. Richmond. Right. I don't think that we will ever get to 
actuarially sound and maintain a sense of affordability for the 
5 million homeowners who participate in the program.
    But I think the goal should be that where we can save money 
we should save money. Where we can be more efficient we should 
be more efficient. So that is my concern when we talk about the 
efficiency of the management of the program and making sure 
that the people who service the program are being as efficient, 
and we are very diligent in terms of what we are paying them.
    So the other thing you mentioned was the debt management 
and how that could offer us some cost savings.
    Mr. Dodaro. Well, I think it is important that they figure 
out how to both build a reserve for the future potential cost, 
but also how to figure out how to repay the Treasury Department 
for the amount of money that they owe. That is going to be a 
tall order for them given the current statutory framework on 
which they have to operate under.
    So I think additional action will be needed by the Congress 
to help them in order to put the program on a firmer financial 
footing.
    Mr. Richmond. Then I guess we can have the whole 
philosophical debate. But we have to get it on firm financial 
footing. But actuarial rates is probably not the way to do it 
considering that many of these homes were built before there 
was a requirement for flood insurance. To go back and change it 
in our area we saw rates increasing from $500 and $600 to 
$10,000 a year, which will cause another mortgage collapse and 
all of those things.
    Mr. Dodaro. So I agree with you. I think--I mean there has 
to be a balance between affordability and fiscal responsibility 
and accountability and in this case transparency because if the 
homeowners aren't paying for the insurance that means the 
general taxpayers are. It is not really clear what the 
subsidies are. I am particularly concerned about the future.
    We have put also on the high-risk list limiting the Federal 
Government's exposure by better managing climate change risks. 
With the potential for climate change and other additional 
issues in the offing, I mean this program is one that requires 
I think constant scrutiny and more transparency about who is 
paying for what in the program.
    But I agree with you, affordability has to be a policy 
priority.
    Mr. Richmond. Mr. Chairman, I see my time is expired. I was 
just going to ask Mr. Mayorkas if he had a response. I am not 
requiring one.
    Mr. Mayorkas. I do not. I do not, Mr. Congressman.
    Mr. Richmond. Thank you, Mr. Chairman. Yield back.
    Mr. Mayorkas. Mr. Chairman, may I make a point if I may, 
even though there is no question pending to me I feel compelled 
to share something with the committee because my colleagues 
have expressed concern that components do not necessarily 
follow the direction that a best practice would require to 
address a management challenge.
    I think it is very important to communicate to this 
committee very clearly to ensure that there is no misimpression 
that the components are willfully disobeying guidance. It is 
not an issue of that. But it is rather an issue of putting the 
structures and the mechanisms in place to drive everyone in the 
same direction and to ensure a disciplined and rigorous 
adherence to best practices. It is really a matter of 
accountability.
    I know there was a reference made that we don't have 
appropriate accountability mechanisms in place, and I would 
respectfully disagree with that. Quite frankly, if there is a 
failure of a component to adhere to a best practice in the 
service of addressing a management challenge, I am ultimately 
accountable for that.
    Of course the Secretary is. But I am overseeing the 
management of the Department on behalf of the Secretary, and 
that accountability regime rests with me.
    Chairman McCaul. Well, I appreciate you taking 
responsibility for that. I hope to see some good results.
    Chairman recognizes Mr. Duncan.
    Mr. Duncan. Thank you, Chairman, for this valuable hearing 
today. I want to thank the panelists for the comments that they 
made about H.R. 4228 and the acquisition reform bill.
    You know the goal is to improve discipline accountability 
and transparency and acquisition program management and a lot 
of things that I am hearing on all the topics today come down 
to just those basic disciplines of doing best practices and all 
of the acquisition reform.
    So I heard Secretary--I mean Comptroller Dodaro say this. 
But deputy secretary, have you had a chance to review H.R. 
4228?
    Mr. Mayorkas. I have, sir.
    Mr. Duncan. Okay. Do you believe it will aid DHS in 
addressing acquisition management challenges?
    Mr. Mayorkas. I do, sir. I should inform you and this 
committee that in reviewing the proposed legislation that this 
committee passed I have drawn some practices that we should 
adopt and not await the passage of the legislation.
    Mr. Duncan. Thank you. I agree. Whether we have to have 
Congressional legislation passed or not it is the right thing 
for the Department to do. I think the Secretary agrees with us 
as well. So thanks for saying that.
    With the most recent GAO high-risk report citing the 
Department's continued management challenges, and with our 
country being $17.5 trillion in debt, do you think it is wise 
for DHS to continue to spend scarce spending on unnecessary 
green initiatives and costly renovations on a project such as 
St. Elizabeth's that won't be complete until 2026, and will 
cost the American taxpayer about $4.5 billion or more, deputy 
secretary?
    Mr. Mayorkas. Mr. Congressman, as a general principle of 
course no expenditure of funds should be permitted that does 
not yield an effective and efficient delivery of service on 
behalf of the American people.
    The Secretary is reviewing the St. Elizabeths project, and 
we are as a Department with all components involved taking a 
look at what our resource investment should be in light of the 
cost and our current budget environment. It was as recently as 
yesterday that all the components met with the Secretary and me 
on that very subject.
    Mr. Duncan. Well, I think that is great. I appreciate the 
Secretary reviewing that. I just don't believe that--you know 
in a utopian society rainwater flush toilets are awesome.
    But when you are $17.5 trillion in debt and you are 
accountable to every taxpayer dollar, I think you need to start 
questioning that and maybe the use of the hardest wood from 
Brazil for the decking when you could use a composite material 
that will last just as long and save the taxpayer dollars. So I 
appreciate your efforts and I look forward to that.
    I ask the comptroller general about St. Elizabeths and the 
cost overruns. I know GAO has looked at that. Do you care to 
comment on saving taxpayer dollars and that?
    Mr. Dodaro. Well, certainly we support the effort to do any 
program activity at the least cost possible. We are currently 
looking at the St. Elizabeths situation and we will be happy to 
share our report with this committee as soon as it is complete.
    Mr. Duncan. We look forward to that as well.
    So deputy secretary, given the large number of programs 
still lacking Department-approved documents and experiencing 
cost overruns and schedule delays, what do you believe is the 
biggest challenge with regard to the high-risk list, the 
biggest challenge in doing effective oversight of DHS major 
acquisition programs?
    Throw out some challenges that you have got. There might be 
another nugget in there that we can pursue from the 
Congressional side.
    Mr. Mayorkas. Thank you, Mr. Congressman. I think that my 
colleagues Mr. Dodaro and Mr. Roth have identified issues with 
respect to our acquisition program.
    The Secretary, through the Unity of Effort memorandum that 
he issued, to which the Chairman referenced, puts in place a 
structure to drive better acquisition oversight and management. 
I lead under the Unity of Effort, a paradigm, I lead the 
deputy's Management Action Group where we are all--components 
and headquarters--together in ensuring that capabilities are 
identified, the needs are properly identified.
    The gaps are therefore disclosed. We don't close those gaps 
without establishing effective requirements, understanding our 
budget constraints, being effective and efficient in the use of 
our money, and ensuring that the delivery of service takes all 
of those factors into account.
    Mr. Duncan. I am about out of time. I will say that 
hearings like this are refreshing.
    What I am hearing from all the gentlemen is that it seems 
that the Department is moving in the right direction. I would 
attribute the Chairman's leadership and this committee for 
helping nudge the Department in the right direction with regard 
to acquisition management and addressing a lot of the concerns 
that were brought about by the gentleman from Louisiana and the 
gentleman from Georgia.
    So I want to applaud the Department for continuing to move 
in that direction. I can tell you we are going to be right 
behind you to make sure that the trend continues.
    With that, Chairman, I yield back.
    Chairman McCaul. We also commend your leadership as 
Chairman of the Oversight Subcommittee. You have done a 
fantastic job.
    Chairman recognizes Mr. O'Rourke from Texas.
    Mr. O'Rourke. Thank you, Mr. Chairman. I would like to 
present the panel with two current acquisition projects and 
then get your comments.
    The first is one that we had a hearing on within the last 
month, the Arizona Border Surveillance Technology Plan, which 
essentially would spend between $500 million to $700 million to 
put a series of fixed towers along the Arizona-Mexico border 
with a high-tech surveillance system there, obviously to try to 
apprehend people who might cross into the country illegally.
    This is on the heels of the failed SBInet program that 
spent a billion dollars and achieved almost nothing at great 
taxpayer cost and Government waste. In that hearing we learned 
from someone on your team at the GAO that there were several 
significant findings that the GAO had made, including no clear 
metrics and no clear life-cycle costs for that program. So that 
is one that comes to mind.
    The second in El Paso, Texas is a half-mile stretch of 
currently unfenced border between El Paso and Juarez, an area 
where in the last 4 years without there being a fence total 
crossings have dropped year after year and they are at a 
fraction of what they were even 4 or 5 years ago.
    It is also a very historical crossing point. DonJuan De 
Onate in the 16th Century crossed there.
    The sensitivity is so great that not only have I but the 
other Congressman representing the area, one of our U.S. 
Senators, the city council, the State senators, the State 
delegation have all pleaded with CBP not to construct that wall 
there at a cost of $5.5 million. But we were told by the acting 
commissioner at the time that the wheel is already in motion 
and it is too hard to stop this.
    So with those two examples my question is: When is it an 
appropriate time to put on the brakes? I would think that those 
major findings that the GAO made after the failure of SBInet we 
should stop before proceeding with this Arizona Border 
Surveillance Technology Initiative.
    The $5.5 million in El Paso may not sound like a lot, but 
$5.5 million here, $5.5 million there soon it adds up and 
becomes real money. So I would like to get your thoughts on how 
we get greater control on spending when there are findings, 
when there are concerns raised by this committee or the GAO, 
when it might be appropriate to pause and rethink some of those 
projects.
    Mr. Mayorkas, we will start with you.
    Mr. Mayorkas. Thank you very much, Congressman. I have, in 
the short time that I have been in office I have visited the 
Texas-Mexico border as well as the Arizona-Mexico border. I 
will tell you that visiting--there is no substitute for 
visiting the border because one understands first-hand the 
challenges that it presents.
    The lesson that I learned there is certainly it is not a 
one-size-fits-all model. There have to be different 
technological and operational solutions to address the very 
different and very diverse challenges that the Southwest Border 
presents.
    You ask a very fact-specific question, which is: When is it 
right to pull out of a project when the project isn't going 
well? I think that----
    Mr. O'Rourke. Not just pausing the project. We could use 
Arizona--the border surveillance plan there. Would it not make 
sense for DHS to stop spending until those GAO concerns are 
resolved?
    Mr. Mayorkas. Congressman, as a general matter I find it 
untenable to continue to pour money into a project when one 
doesn't have a level of confidence in the effectiveness and 
efficiency of the undertaking. So that is a general principle.
    In fact we have executed on that general principle over the 
last few months. We have paused. We have suspended discrete 
projects because we have not had confidence in the stability of 
the undertaking.
    So there is no shyness. There is no hesitation to do that 
in order to make sure that we do not develop something that is 
ineffective by the time it is deployed----
    Mr. O'Rourke. Right.
    Mr. Mayorkas [continuing]. And we create more work for our 
oversight----
    Mr. O'Rourke. Sorry to interrupt, but I have little time 
left. You have paused in other projects. Will you pause in this 
project?
    Mr. Mayorkas. I--as I sit here today, Mr. Congressman, I am 
not aware of a reason why the Integrated Fixed Towers Project 
should be paused. I will tell you that is----
    Mr. O'Rourke. I gave you two.
    Mr. Mayorkas. I will have to look into the second one, 
which is the wall that----
    Mr. O'Rourke. I gave you two reasons on that Arizona Border 
Surveillance. No life-cycle costs and no clear metrics for what 
that is supposed to achieve after spending up to $700 million.
    Could I hear from Mr. Dodaro on this and Mr. Roth if there 
is time?
    Mr. Dodaro. Yes. Our report focused on the fact their cost 
estimates and the schedule estimates weren't complete or 
reliable. There was limited testing planned on there as well as 
the fact that there weren't metrics tying it to the particular 
problem.
    The Department agreed with most of the recommendations. 
Except I was disappointed they didn't agree to do more testing 
on this. I think this is important given the past history and 
some of those other activities.
    So I think it is important that these issues be addressed 
before they proceed into full-scale production.
    Mr. O'Rourke. If the Chairman will allow, I would love to 
hear from Mr. Roth on this, if you have any comments.
    Mr. Roth. Yes. The entire life-cycle--acquisition life-
cycle framework requires in fact certain stopping points where 
an examination is done by independent senior leadership to 
ensure that it should go forward in a timely way or in a 
rational way.
    So there are stop points all the way along, and it is 
perfectly appropriate during an acquisition to hold off and 
address concerns.
    Mr. O'Rourke. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCaul. Chairman recognizes Mr. Sanford from South 
Carolina.
    Mr. Sanford. I thank the Chairman. I apologize for getting 
here late. So I did not get to hear the entirety of your 
testimony. I was caught up in another meeting.
    But I jotted in a note in looking at preliminary brief. 
There was a GAO report that said, DHS could better manage its 
portfolio, address funding gaps and improve communication with 
Congress.
    One of the findings was basically that there was a gap 
between acquisition of programs and the overall Homeland 
Security strategy. That at several different junctures this gap 
was seen between acquisition and strategy.
    I have got a quote here. I am beginning to lose my 
eyesight. But it says ``GAO goes on to say in its report that 
none of the reports that DHS put out consistently identified 
how individual acquisition programs would help DHS to achieve 
its goals.'' Then there is some more verbiage from there.
    So I guess I would turn to the GAO, to you, Mr. Dodaro. 
Thoughts on that? What else did you see with regard to this gap 
between a time strategy and individual acquisition programs?
    Mr. Dodaro. There really are two types of gaps. One is the 
one that you mentioned. But the second is a funding gap issue 
in terms of whether or not you have enough money there. I 
mentioned earlier in my opening statement that of the major 
acquisitions, 46% don't have approved baseline costs and 77% 
don't have life-cycle costs.
    Now, even with that limitation the Department undertook an 
effort a year or 2 ago to identify what the gap would be if all 
these acquisitions would cost certain amount of money and the 
Department had certain amount of resources. They have figured 
that there was 30% gap between what these acquisitions will 
cost and what they were likely going to have money for, which 
means they need to set priorities.
    Of course in setting priorities you have to go with what 
your overall strategies are and what kind of priorities are in 
your strategy. So they need a governance structure at the 
Department to set these priorities across the Department 
because they are not going to have, you know, enough money to 
be able to deal with these issues.
    This is a similar issue we brought to the Department of 
Defense's attention. It will particularly be true if 
sequestration resumes in 2016 through 2022.
    So it is very important that they deal with this. I know 
they have some plans to do it. But they are in the very early 
stages.
    Mr. Sanford. Couldn't it be said of pretty much any 
Government agency that there is always a gap between what they 
would like to have and what they would get? I mean so isn't 
that----
    Mr. Dodaro. Well----
    Mr. Sanford. I mean it may----
    Mr. Dodaro. Well, but----
    Mr. Sanford [continuing]. The issue within Homeland 
Security or DOD, but----
    Mr. Dodaro. Right.
    Mr. Sanford [continuing]. That seems to be a consistent 
refrain.
    Mr. Dodaro. Well, there is a difference between what you--
how much money you are going to have and what you would like to 
have a lot of money, as opposed to how many projects you have 
already started down the road that you are not going to be able 
to complete.
    That is a different situation. I am saying in that case 
they are spending money to get these projects up and running, 
and they are not going to have enough to finish, the money, so 
that those projects that aren't finished will be not optimal 
use of the taxpayers' money.
    As opposed to, we are not going to have this amount of 
money, here is the priority we want to do. We need to stop this 
acquisition or we need to redirect our funds to other areas.
    So it is very important to do that, particularly given the 
rather poor track record that they have in delivering their 
acquisitions with functionality, within cost and on time.
    Mr. Sanford. If you were just waving a magic wand and as 
you look at this agency in particular, are there other things 
that perhaps didn't make your report but things that entered 
your mind? Or that you all evaluated but found too 
controversial and maybe left off, where you would say this is 
an area of opportunity that Homeland Security ought to look at 
in terms of better optimizing taxpayer dollar in maybe a way 
that they aren't?
    Mr. Dodaro. No. I think our report is pretty complete. I 
mean we put everything out there that we have identified.
    Since the Department has been created we have made over 
2,000 recommendations to the Department. About 65% of them they 
have implemented. They have efforts underway in other areas to 
implement.
    So we--I think we have been pretty thorough in pointing out 
all the major areas that need attention.
    Mr. Sanford. I suspect you might have a counterpoint to 
some of this and I therefore would offer the floor to you in 
the few seconds that I have got left.
    Mr. Mayorkas. Congressman, I think I actually will not have 
a counterpoint. I think, quite frankly, that the work of Mr. 
Dodaro and his team has helped make us better, and identified 
gaps that we need to fill. I think I can say the same for the 
work of Mr. Roth and his team.
    You used the word opportunity. Fortunately I am an optimist 
and so I look at the challenges we have as opportunities, 
opportunities to be better.
    Mr. Dodaro referred to the fact that a governance structure 
presents some hope, some cause for optimism, but it is at the 
nascent stage. That is true.
    Both the Secretary and I are new. The Secretary has put in 
place a governance structure and we will drive to achieve its 
aspiration.
    Mr. Sanford. I burned through my time. Thank you, Mr. 
Chairman. Yield back.
    Chairman McCaul. Chairman recognizes Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Roth, you know the findings in the November 2012 IG 
report on interoperable communications at DHS are very 
concerning. I have introduced legislation to DHS Interoperable 
Communications Act that aims to address the problems, you know, 
related to the Government structure and strategy identified in 
the report.
    In your testimony you mentioned that the Department has 
developed but not finalized DHS Communications and 
Interoperability Plan. Have you seen drafts of this plan?
    Mr. Roth. I have.
    Mr. Payne. Okay. What do you think to this point?
    Mr. Roth. We made our primary recommendation after doing 
the audit that had the 99.8% failure rate, was that there ought 
to be an interagency structure that had an individual or group 
with true power to be able to require the components to get 
interoperable systems.
    The Department, inexplicably in my mind, non-concurred with 
that, and instead went forward with what we consider to be a 
lesser proposal requiring essentially cooperation among the 
components.
    We think that is the wrong way to go. We think showing 
strong leadership is the way to go, and essentially forcing 
compliance by the components.
    Mr. Payne. Yes. Well, you know it is clear based on 
information I have that this legislation, you know, is crucial 
to finally get Department-wide interoperability.
    I was shocked to hear that in your testimony, you know in 
your test case, only 1 out of 479 first responders were able to 
get on a common channel. You know 1 out of 479.
    What is it going to take to achieve interoperability? As 
you say, the Department is obviously not following 
recommendations that have been made. That you say have decided 
to go with a lesser plan. What is it going to take to get to 
interoperability?
    Mr. Roth. Well, certainly hearings like this I think 
highlight the problem. Accountability by this committee and 
other committees and the American people to ensure that the 
purposes behind DHS, which was to have all these disparate 
agencies under one roof so they could in fact talk to each 
other is a good thing.
    But again, it is a promise that has not yet been kept.
    Mr. Payne. Okay. You said many didn't even know that the 
common channel existed. Is it going to take more training or as 
you said more hearings like this and a concerted effort on us 
to push them in that direction?
    Mr. Roth. To be fair, this test took place in 2012 before 
the current administration within DHS was appointed. We are 
hearing good things from the Secretary and the deputy secretary 
with regard to unity of effort.
    I am optimistic that we can get there. But I am frankly 
concerned that as we speak today a Secret Service agent in New 
York can't get on his radio and talk to a Federal Protective 
Service officer in New York or a CBP officer in El Paso can't 
talk to a Homeland Security Investigations Agent in the same 
city.
    Mr. Payne. Okay.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Let me just state for the record, Mr. 
Payne, your bill on interoperability will be part of our mark-
up in May coming up soon. So we thank you for that.
    Chairman now recognizes the gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. Thank you, Mr. Chairman. Thank you, Ranking 
Member.
    My first question is to you, Mr. Mayorkas. I want to talk 
about the Department's transition to a large portion of its 
information technology to the cloud, and a couple of questions 
with regard to that.
    Does the CIO work with the Department cybersecurity and 
privacy experts to ensure that proper protections are in place 
for cloud-based technologies? How does this improve efficiency?
    Do you anticipate this move to the cloud resulting in cost 
savings? What steps are being taken to ensure that the private 
cloud utilized by the Department is secure?
    Mr. Mayorkas. Thank you very much, Congresswoman, for the 
question. The answer is yes.
    The head of information technology, Luke McCormack, does 
work very closely with our NPPD, our directorate, and Susanne 
Spaulding. It is made to ensure that the use of the cloud 
passes cyber-hygiene, if you will.
    What the cloud provides is the ability for the Department 
to essentially pull on an as-needed basis certain technological 
capabilities. So with that nimbleness and surgical use of IT 
not only do we gain effectiveness, but we also gain cost 
savings.
    Ms. Clarke. Well, there has been a lot of talk here on the 
Hill. We have turned our attention to immigration reform and 
proposals such as the DREAM Act may create a pathway for many 
millions of youngsters becoming American citizens. This could 
create a major influx of applications coming to the USCIS 
system.
    Would the limitations of current paper-based system that I 
am sure you know all too well, how will USCIS handle this 
increased caseload? Are there any activities underway at the 
headquarters level to address this impending issue?
    Mr. Mayorkas. Thank you very much for that question, 
Congresswoman. We of course remain committed to comprehensive 
immigration reform. I think there are two streams of activity 
that are responsive to your question.
    One is to develop the technological capabilities to accept 
a large influx of new applicants in an electronic or on-line 
environment. That effort is under way. It is a very significant 
and challenging effort, but we are making progress in it. It is 
called transformation to move from a paper-based agency to an 
on-line environment on the one hand.
    On the other hand, U.S. Citizenship and Immigration 
Services, which I was very proud to be a part of for 4 years, 
is extraordinarily adept at handling surges in the number of 
individuals coming before it. It has exhibited that nimbleness 
and that adeptness in the last 2 years in taking on a huge 
surge in previously unanticipated applicants.
    Ms. Clarke. So you believe that the transformative nature 
of the new technologies that you are currently sort-of testing 
would be able to manage potentially, you know, tens of 
thousands if not millions of individuals seeking to apply for--
through for immigration reform and the personnel commensurate 
with that is sort-of trained and gearing up as well?
    Mr. Mayorkas. Congresswoman, the goal of transformation is 
to be able to do that. We are working towards that. It is a 
challenging undertaking, but we are working towards that on the 
one hand.
    On the other hand, to be able to address an increase in 
applications of, for example, 11.5 million people, there is an 
infrastructure that needs to be built. We have communicated 
very clearly to the bipartisan committee that passed the Senate 
bill last year.
    They understood and legislated accordingly that there needs 
to be some ramp-up time so that the agency could in fact build 
the infrastructure to take on that significant new workload. 
But not just personnel, but facilities, IT infrastructure and 
the like, but we are prepared with time and funding to meet 
that challenge.
    Ms. Clarke. Very well. Then I just wanted to quickly--my 
time is winding down--talk about disciplinary practices. There 
are a lot of folks who believe that there are some--it is 
inequitable and oftentimes arbitrary.
    For example, there is no Department-wide standard for 
penalties. The same offense can engender different results 
without any sound reason for this discrepancy.
    Would you agree that the Department could benefit from 
standardized disciplinary processes? How not having these 
processes in place can have an impact on low morale, for 
instance?
    Is a Department-wide standard for penalties under 
consideration? If not, why?
    Mr. Mayorkas. That is a very interesting question, 
Congresswoman. When I was the director of U.S. Citizenship and 
Immigration Services, we actually had that infirmity within the 
agency that we did not have really a cohesive and consistent 
discipline regime, and we implemented one during the course of 
my tenure.
    Whether there should be a Department-wide standard is a 
question that I would actually like to give thought to because 
I will tell you that there are different dynamics at play 
within each component of the Department. There are different 
unions, union leadership, union relationships.
    I think at a general level my immediate reaction is that we 
should have standardized processes and we should have 
consistency in the response--in the disciplinary response to 
similar behaviors. I would like to actually give further study, 
and quite frankly speak with my colleagues here to my left with 
respect to your question.
    Ms. Clarke. My time is run out, but if the Chairman gives 
another round, we will----
    Chairman McCaul. Well, if you would like to hear other 
witnesses----
    Ms. Clarke. Oh, certainly.
    Chairman McCaul. This is our final round.
    Ms. Clarke. Okay. Thank you, Mr. Chairman.
    Well then, gentlemen, would you please give me your opinion 
on these disciplinary actions?
    Mr. Roth. Thank you. We have not done an audit with regard 
to this except with the Secret Service, which did not have a 
table of penalties. We found that that was a problematic issue 
with regard to some of the issues that occurred in the Secret 
Service.
    I think I would join Mr. Mayorkas in indicating that that 
is a broader issue that we would probably need to study in a 
more thoughtful way.
    Mr. Dodaro. Yes. We have looked recently at TSA employee 
misconduct issues and how that is handled. I would be happy to 
provide that for the record and any other thoughts that we have 
on this matter.
    Ms. Clarke. Very well. I appreciate that, gentlemen. Thank 
you all for your testimony here today.
    Thank you, Mr. Chairman. I yield back.
    Chairman McCaul. Thank you. I want to thank the witnesses.
    Chairman recognizes the Ranking Member.
    Mr. Thompson. I just want to thank the Chairman for this 
hearing and the witnesses for their candid comments in response 
to the questions.
    The thing that continues to bother me, though, is we put 
the Department of Homeland Security under one roof. But it just 
appears that there are some outliers within the Department that 
continue to do as they please.
    We have reports after reports that continue to highlight 
those do-as-you-please efforts that cost money. What I have 
taken away is that you continue to highlight it, but somehow it 
doesn't get implemented.
    I guess I am struggling for--can you, each one of you 
witnesses provide us in writing what you think it would take 
for the Department to run seamlessly, all the components within 
DHS using one standard for procurement and other things?
    Right now procurement, personnel, a lot of issues continue 
to be different. I think if we have One DHS, if we have this 
now Unity of Effort approach, how can we actually accomplish 
that if we still have Coast Guard, FEMA, CBP, ICE kind-of doing 
what they want to do? I am just kind-of concerned about that, 
that we should just have a standard system.
    Now, obviously there are some exceptions. But I think those 
exceptions can be noted. But I would like to see something from 
our witnesses since they have been so good that could help give 
this committee some direction on how we can come up with one 
system, whether it is IT system or whatever, in those 
categories that have been outlined.
    I yield back.
    Chairman McCaul. I concur with the Ranking Member. We would 
like to see that, if you could respond maybe in writing after 
the hearing.
    I know Ms. Clarke and I have worked on the iCloud concept 
in terms of bringing the One DHS together. I think that is an 
interesting concept as well.
    I did have one last question for Mr. Roth. The Secret 
Service has mentioned, know you are reviewing your 
predecessor's report, the allegations involving drunkenness 
during Presidential protection. Very serious concern on the 
part of this committee that that conduct is still on-going 
within Secret Service.
    I know you are reviewing those currently. When do you 
anticipate that your report will come out?
    Mr. Roth. We are looking at the current reports. We are not 
engaged in a further audit or inspection of that. But what we 
are doing is in light of the Senate subcommittee's report we 
are looking to ensure that any of the conclusions within the 
report were untainted by any sort-of political or other 
improper considerations.
    We are doing that as expeditiously as possible, but we want 
to get it right. I am hopeful in the next few weeks we will be 
able to get it out. But right now I can't give you----
    Chairman McCaul. Will you be providing any guidance to the 
director of the Secret Service in terms of--you mentioned there 
are no real sort of disciplinary procedures in place.
    Mr. Roth. At the time of our audit there were no 
disciplinary procedures. There were no tables of penalties. 
That has been fixed.
    In the series of audits we did, we did a look-back to see 
what the internal investigation looked like. We also did what 
was known as the so-called culture report.
    In the culture report we had a series of recommendations 
that we asked the Secret Service to do. They are in the process 
of complying with each of those. I am happy to give a interim 
report as to, sort-of, how they are doing with regard to 
responding to our recommendations.
    Chairman McCaul. I would appreciate that. Protecting the 
President is one of the highest duties----
    Mr. Roth. Yes.
    Chairman McCaul [continuing]. Within the Department.
    So we thank the witnesses for testifying here today. The 
record will be open for 10 days. You may have additional 
questions. With that, without objection, committee stands 
adjourned.
    [Whereupon, at 11:31 a.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

  Questions From Chairman Michael T. McCaul for Alejandro N. Mayorkas
    Question 1. According to a December 2013 GAO report, CBP and ICE 
continue to struggle with large portions of their TECS modernization 
which could result in cost overruns and delay its 2015 deployment 
deadline. TECS is critical to the Department's border security and law 
enforcement missions. Describe the management direction you are 
providing this project and please give the committee an update on the 
TECS modernization efforts and whether or not ICE and CBP will deliver 
its planned functionality by 2015 as originally scheduled.
    Answer. DHS has a tiered governance structure that includes 
oversight at the senior leadership level, the component level, and the 
program level. At the highest level, the Department is actively 
monitoring both programs by way of Executive Steering Committee (ESC) 
meetings made up of senior-level executives, including Headquarters and 
Component Chief Information Officers, Chief Acquisition Executives, and 
Chief Financial Officers. Executive Steering Committees are decision-
making bodies that provide governance and oversight for all of the 
Department's IT Major investments.
    Currently, due to the program's high risk, the U.S. Immigration and 
Customs Enforcement (ICE) TECS Modernization has a monthly ESC meeting 
and bi-weekly deep-dive meetings with the Department's Chief 
Information Officer and management acquisition team. The U.S. Customs 
and Border Protection (CBP) TECS Modernization has bi-monthly ESC 
meetings.
    The CBP TECS Modernization has been deploying modernized 
functionality incrementally since 2009 and is on track to deliver the 
majority of modernized capability by September 2015, as originally 
planned. This program has multiple releases of which 80% have been 
delivered. The remaining 20% will be delivered on schedule by September 
2015.
    The ICE TECS Modernization is in the technical evaluation phase of 
procuring an application vendor, with an anticipated award in September 
2014. The program is currently a high-risk program due to its schedule 
and cost risks. Mitigation plans are in place to address the program 
risks. The program meets regularly with Headquarters leadership to 
review status and progress toward milestone events. The program is 
engaged with the CBP parallel effort to execute the coordinated 
strategy for both agencies to obtain mainframe independence from the 
shared legacy TECS system.
    Question 2a. Does DHS believe that they are full partners in the 
FirstNet effort?
    Answer. Yes, DHS is a full partner and one of three permanent board 
members in the FirstNet effort. The Department appreciates the 
importance of the FirstNet network to the overall security and 
resilience of our Nation's public safety communications infrastructure.
    Question 2b. What is DHS doing to support FirstNet?
    Answer. DHS is taking an active role in supporting FirstNet by 
providing the following products and services:
  <bullet> FirstNet Consultation Preparation Workshops.--DHS has 
        delivered on-site workshops in 54 of 56 States/Territories to 
        help prepare for the FirstNet consultation process. The 
        remaining two States/Territories will be completed this year.
  <bullet> Broadband Tools.--DHS has developed a mobile data survey 
        tool to help States determine the current use of commercial and 
        private data systems within their jurisdiction that is being 
        leveraged by FirstNet.
  <bullet> FirstNet Coordination.--In early 2013, FirstNet asked DHS to 
        participate with the National Telecommunications and 
        Information Administration and FirstNet staff to coordinate 
        outreach and data collection with public safety efforts. Since 
        that time, DHS has participated in weekly calls, as well as 
        periodic strategic planning meetings with FirstNet Board 
        members and staff.
  <bullet> Federal Broadband Coordination.--The Emergency 
        Communications Preparedness Center, which is a DHS-led Federal 
        coordination committee to improve emergency communications 
        interoperability, has been leveraged by FirstNet for Federal 
        outreach and planning.
  <bullet> Tribal Coordination.--DHS provided Tribal subject matter 
        expertise to assist FirstNet in establishing its Tribal Working 
        Group, as well as facilitating meetings with key Tribal 
        representatives.
  <bullet> Cyber and Physical Risk Assessment.--DHS identified possible 
        threats to and vulnerabilities of cyber infrastructure in the 
        Nation-wide Public Safety Broadband Network that could threaten 
        the network's reliability and security.
  <bullet> Public Safety Broadband Requirements.--DHS helped develop 
        first responders requirements for the Nation-wide public safety 
        broadband network.
  <bullet> 700 MHz Demonstration Network.--DHS helped create a 700 MHz 
        Demonstration Network at the National Institute for Standards 
        and Technology Boulder Labs to assist with performance, 
        conformance, and interoperability testing of infrastructure, 
        devices, and applications. This public safety demonstration 
        network and environment for testing allows public safety to 
        better understand the new capabilities and challenges created 
        by broadband technologies.
  <bullet> Modeling and Analysis for Public Safety Broadband.--DHS is 
        conducting modeling and simulation research on the deployment 
        of a Nation-wide public safety broadband network. This research 
        will provide FirstNet with insight needed to make more informed 
        procurement-related decisions.
    Question 3. The Office of Program Accountability and Risk 
Management (PARM) is responsible for DHS' overall acquisition 
management across the Department, and has work under way to implement 
an Acquisition Life-Cycle framework for major acquisitions. Among other 
things, this framework outlines key decision events over the life of a 
program. This ``waterfall'' approach may be fine for most types of 
acquisitions; but for IT acquisitions, it promotes longer time frames 
for delivering capabilities (often 5-7 years) and increased risk of 
cost, schedule, and performance issues. The Office of the Chief 
Information Officer (OCIO) is responsible for IT investment governance, 
including IT systems development. OCIO has work under way to modify, 
finalize, and implement systems acquisition policies and processes in 
line with an incremental development approach, which calls for breaking 
programs into smaller increments and delivering capabilities in 6-12 
month releases. It will be important for PARM and OCIO to collaborate 
on a way forward to define roles and responsibilities, and modify the 
Acquisition Framework as needed to accommodate an incremental 
development approach to IT. How efficiently and effectively do DHS's 
acquisition and IT governance processes work in concert with one 
another to ensure that major IT investments are delivered within cost 
and schedule, and meet mission needs?
    Answer. DHS's integrated acquisition and IT governance processes 
work together in an efficient and effective manner. Management 
Directive 102-01 establishes the Department's acquisition governance 
framework for both IT and non-IT programs. The Management Directorate's 
Office of Program Accountability and Risk Management coordinates 
effective integration and collaboration across the Department's lines 
of business, including the Office of the Chief Information Officer, to 
implement acquisition oversight.
    Further, the Secretary's ``Strengthening Unity of Effort'' 
initiative is enhancing the coordination of Departmental planning, 
programming, budgeting, and execution processes through strengthened 
requirements processes and decision-making.
    Question 4a. Component agencies of DHS are increasingly using the 
Government Printing Office (GPO) for the production of secure 
credentials. Some have expressed concern that component agencies are 
inappropriately using Title 44 of the United States Code as a means to 
enter into sole-source agreements with GPO to circumvent the normal 
fair and open competitive procurement process.
    Is there any formal or informal guidance from DHS to component 
agencies on the use of the GPO versus open competition?
    Answer. DHS follows the requirements of Federal Acquisition 
Regulation 8.802, which requires printing to be done by or through GPO 
unless an exception applies. DHS utilizes a form (DHS 500-7) for its 
components to use to obtain printing services through the designated 
central printing authority or to seek a waiver. There is no additional 
acquisition guidance regarding printing.
    Question 4b. What is the opinion of DHS Office of General Counsel 
on Title 44 of the United States Code and FAR 48 Subpart 8.8 as it 
relates to public printing services and use of GPO for secure 
credentials?
    Answer. The Department recognizes the statutory and regulatory 
requirements related to the Government Printing Office.
    Question 4c. What risk/security analysis has been done to make sure 
that secure credentials being used by DHS are durable, secure, and 
virtually counterfeit-proof?
    Answer. A risk/security analysis of the secure credentials used by 
DHS was conducted by the General Services Administration (GSA), as the 
executive agent for acquisition of Homeland Security Presidential 
Directive--12 products and services. GSA ensures that secure 
credentials meet the standards of the National Institute of Standards 
and Technology (NIST).
    To further deter counterfeiting of the secure credentials being 
used by DHS, the Department has gone beyond the NIST requirements by 
requiring visual security features with micro-text bands, the use of 
transparent and gradient effects, optically variable ink, and 
holographic images in the security laminate.
    Question 4d. What alternatives analysis or analysis of alternatives 
(including cost and security analysis) has been done to support secure 
credential programs?
    Answer. During an analysis of alternatives conducted by the DHS 
Office of the Chief Security Officer, it was determined that GPO met 
standards for secure credentials. GPO delivered added value with strict 
adherence to a secure Government supply chain requirement and smart 
card product manufacturing. GPO also demonstrated oversight of security 
in the transportation of raw materials and finished goods, and the 
physical security of the card manufacturer's plant and information 
technology systems.
    Question 4e. How much has DHS obligated and expended in fiscal year 
2010-fiscal year 2013 for secure credentials printed by GPO? How much 
does DHS plan to spend on secure credentials in fiscal year 2014?
    Answer. DHS has obligated and expended a total of $7,494,875 
between fiscal year 2010-fiscal year 2013. The breakdown per fiscal 
year is as follows:
Fiscal year 2010: $1,769,962.00
Fiscal year 2011: $1,891,963.00
Fiscal year 2012: $2,432,350.00
Fiscal year 2013: $1,400,600.00
Fiscal year 2014 Plan: $2,491,125.00.
    Question 5a. According to news reports from early April, top hiring 
officials at CBP broke Federal civil service laws when they tried to 
hire three politically connected but unqualified candidates who were 
favored by the agency's then-commissioner Alan Bersin. Shortly before 
arriving at CBP, Mr. Bersin allegedly gave the human resources staff 
three names and told them he wanted to hire the individuals as 
political appointees. However, the slots for those jobs, known as 
Schedule C positions, were filled. The staff then attempted to hire 
them into open civil service positions at the GS-13 level, as 
management and policy analysts.
    Who were the people seeking career positions in these reported 
cases? Are they employed by CBP currently? If so, under what hiring 
authorities?
    Answer. The Office of Special Counsel (OSC) has released a press 
statement regarding its complaint for disciplinary action before the 
Merit Systems Protection Board (MSPB), filed against Katherine Coffman. 
The OSC has not yet made the complaint a public document and DHS is not 
a party to the litigation. Further, in accordance with DHS practice, 
and per OSC preference, DHS does not comment on pending litigation. DHS 
does not wish to impede the current adjudication of this case by 
releasing specific information relevant to the MSPB proceeding, or by 
providing opinions regarding any specific allegations or evidence that 
may be contained within the complaint as described in the public press 
statement. Therefore, in this and subsequent responses, DHS will only 
answer as to matters not at issue in the litigation.
    Question 5b. Who within the DHS Office of the Chief Human Capital 
Officer rejected most of the career conversion requests and approved 
the one OPM later rejected? Please provide necessary documents asking 
for and rejecting these personnel actions.
    Answer. Please see above.
    Question 5c. Since Ms. Katherine Coffman is in the position to hire 
individuals across CBP, does she assert inappropriate influence over 
the career civil service hiring process? Did she or does she seek to 
hire others who fit ``political criteria'' favored by her or Mr. 
Bersin?
    Answer. Please see above.
    Question 5d. What was the role of the Office of the White House 
Liaison at DHS in these career conversions? Is the Office of the White 
House Liaison involved in interviewing or vetting other career 
candidates for Federal employment?
    Answer. DHS has inquired of the relevant individuals and reviewed 
the relevant files and has no reason to believe the Office of the White 
House Liaison was involved in the attempted conversion from political 
appointments to career appointments for the three individuals whom it 
is alleged Mr. Bersin wanted to hire at CBP.
    I am informed it is not.
    Question 5e. Since January 21, 2009, how many political appointees 
have been converted to career employees? If any, please identify them 
along with their titles and the office in which they are working.
    Answer. Prior to January 2010, Federal agencies had to seek OPM's 
approval of conversions to competitive service positions only during 
Presidential election years. As a result, DHS did not maintain DHS-wide 
records specific to such conversions and cannot readily access this 
information for the time period between January 21, 2009 and December 
31, 2009.
    Beginning on January 1, 2010, OPM required agencies to seek prior 
approval from OPM before appointing a current or recent political 
appointee to a competitive or non-political excepted service position 
at any level under the provisions of title 5, United States Code. OPM 
provided DHS with information based on OPM's records which establish 
that since January 2009, six political appointees have been converted 
to career positions.
    In 2009, an individual was appointed to a GS-14 policy analyst 
position in the Office of Civil Rights & Civil Liberties. In 2011, an 
individual was appointed to a Senior Executive Service position in the 
Office of Science and Technology. In 2012, an individual was appointed 
to a Senior Executive Service position in the Federal Emergency 
Management Agency and another individual was appointed to a GS-13 
external affairs specialist position, also in FEMA. In 2013, two 
individuals were appointed to two different Senior Executive Services 
positions; one in the United States Coast Guard and another in the 
Office of the General Counsel.
    Question 5f. Given the allegations in this matter, do you have 
confidence in Mr. Bersin as a senior leader of DHS? Have you considered 
putting Mr. Bersin or Ms. Coffman on administrative leave while these 
allegations are fully investigated by the Office of Special Counsel and 
the Merit Systems Protections Board?
    Answer. Yes, the leadership of the Department has full confidence 
in Mr. Bersin.
    Neither the Office of the Special Counsel (OSC) nor the Merit 
Systems Protection Board (MSPB) has suggested such an action, and DHS 
has determined not to take such action at this time.
    The current posture of the proceedings is that the OSC has 
completed its investigation and filed complaints seeking disciplinary 
action against three CBP career officials. The MSPB has jurisdiction 
over the complaints. DHS is not aware that OSC or the MSPB will conduct 
any further investigation.
    Question From Honorable Patrick Meehan for Alejandro N. Mayorkas
    Question. I submitted a question for the record following Secretary 
Johnson's first appearance before the committee that remains unanswered 
regarding EAGLE II, an information technology multiple-award contract 
vehicle potentially worth $22 billion over 5 to 7 years. It is my 
understanding that companies were notified of additional awards being 
made in early May on highly protested functional category one of the 
vehicle. The announcement appears to cut both ways--more vendors means 
more competition, but also more proposals to evaluate thus slowing down 
the acquisition selection process.
    What information have you received about this procurement and what 
is your impression of how this acquisition was conducted? How is DHS 
going to make sure that programs actually use this vehicle and that 
proposals received per task order will be evaluated in a timely manner?
    Answer. As Deputy Secretary, I was not personally involved in this 
procurement and therefore have only had access to publicly-available 
information in accordance with Federal regulation. I have been made 
aware of the award information and am informed that the procurement was 
conducted in an open and transparent manner, employing Federal 
procurement best practices and in accordance with the Federal 
Acquisition Regulation. Like its predecessor, EAGLE II attracted 
significant interest from industry.
    I am further informed that, since the EAGLE II competition received 
a robust industry response, completing a fair and detailed evaluation 
of each of the proposals required a significant amount of time and 
resources. Protests are part of the procurement process for these large 
competitions. The DHS personnel responsible for the EAGLE II 
procurement participated transparently and professionally in the 
protest process to ensure all companies had an opportunity to have 
their concerns addressed in an impartial forum.
    To date, several protests have been dismissed and contract awards 
have been made to large, small, service-disabled veteran-owned, 
HUBZone, and 8(a) American companies. Task orders have already been 
placed by several DHS components. Task Order awards to date include 18 
awards made to various small business totaling $16.5 million with a 
total value of $63.8 million if all option periods are exercised.
    The Office of the Chief Procurement Officer is monitoring EAGLE II 
spending. DHS continues to increase its use of strategic sourcing 
vehicles such as EAGLE II because they provide a streamlined and 
efficient process for obtaining services and result in cost savings for 
the programs. It is the Department's policy that the EAGLE II contracts 
be used unless there is an alternative that will yield a lower price or 
better support the DHS small business program.
    To streamline task order competitions and evaluations, DHS offers 
training on the use of EAGLE II for all components and has generated an 
ordering guide that includes guidance, templates, and points of contact 
for users. This guidance ensures that task order proposals are 
evaluated promptly and accurately. DHS has a task order ombudsman 
available to assist any EAGLE II contractor that becomes concerned that 
a task order proposal evaluation has been delayed.
     Questions From Honorable Tom Marino for Alejandro N. Mayorkas
    Question 1a. What percentage of NFIP claims from Superstorm Sandy 
contained fraudulent losses? Can you quantify that with a dollar 
amount?
    Answer. FEMA takes seriously its responsibility to be a good 
steward of Federal funds, which include not only tax dollars but also 
flood insurance premiums. Reducing, investigating, and ultimately 
eliminating waste, fraud, and abuse is an important part of that 
responsibility. When FEMA becomes aware of evidence of potential fraud 
on the part of NFIP policyholders, building repair contractors, or 
others, the FEMA Office of Chief Counsel and the Office of the Chief 
Security Officer's FEMA Fraud Unit work with the Office of the 
Inspector General to investigate. While the FEMA Fraud Unit and the 
Office of the Inspector General work closely in developing cases, FEMA 
is typically not informed of results as a matter of practice, since the 
issue at hand may be a criminal matter.
    While legally distinct from fraud, FEMA also tracks improper 
payments pursuant to the Improper Payments Act. The tracking does not 
differentiate underpayments, overpayments, or fraud. The results are as 
follows:

------------------------------------------------------------------------
                                                             Improper
                       Fiscal Year                         Payment Rate
------------------------------------------------------------------------
2008....................................................           6.38%
2009....................................................           2.22%
2010....................................................           1.21%
2011....................................................           0.75%
2012....................................................           0.02%
------------------------------------------------------------------------

    No, for the same reason explained in the answer above: FEMA is 
typically not informed of investigative results as a matter of 
practice, since the issue at hand may be a criminal matter.
    Question 1b. What is the policy for ensuring that claims are 
legitimate before releasing funds for rebuilding?
    Answer. There are a number of checks involved in the claims 
handling process. After a claim is filed, the NFIP insurer assigns an 
independent adjuster, who is certified as an NFIP adjuster and has 
knowledge of the coverage and exclusions under the Standard Flood 
Insurance Policy. The independent adjuster will inspect the insured 
property, preferably together with the insured to validate that the 
adjuster reviews all of the components of the property that the insured 
believes had been damaged by flood. The adjuster describes the claim 
process to the policyholder and provides a copy of the NFIP Flood 
Insurance Claims Handbook, which is a tool developed by FEMA to explain 
the claims process to policyholders after a loss. During this 
inspection, the adjuster measures, photographs, and notes elements of 
flood damage. The adjuster then prepares a detailed room-by-room, line-
by-line estimate of the damage caused by flood. A report documenting 
the observed damage is then provided for review by the insurer, which 
is responsible for identifying covered losses and making payment. 
Unless there is an express written waiver, within 60 days after the 
loss the insured is required to provide a proof of loss, which is the 
insured's sworn statement of the amount being claimed.
    Question 1c. Additionally, what tools does the agency have to 
``claw-back'' funds released to homeowners who submitted fraudulent 
claims?
    Answer. All forms of the Standard Flood Insurance Policy (``SFIP'') 
have provisions governing improper activities by the insured and void 
the policy in the event of fraud or misrepresentation. If the policy is 
void, the NFIP is authorized to recoup payments and can do so through a 
Debt Collection action or affirmative litigation. In addition, the 
United States has available civil and criminal remedies, including the 
False Claims Act, to recoup fraudulently-claimed funds and to seek 
civil and criminal penalties. The DHS Office of Inspector General and 
other Federal law enforcement, including a FEMA Fraud unit, are 
available to investigate allegations of fraud, and FEMA also will work 
with State and local law enforcement in appropriate circumstances to 
investigate and prosecute fraud.
    Question 2. DHS is over 10 years old and it seems that we are only 
now getting to understand what a ``high-risk'' program is. This is 
unacceptably long. What took so long and what assurances can you give 
that we won't have more oversight failures going forward?
    Answer. DHS has a clear understanding of its ``high-risk'' 
programs, as defined on a biennial basis by the Government 
Accountability Office (GAO) through publication of its GAO High-Risk 
List. We work closely with GAO to address the areas where DHS remains 
on the High-Risk List. When I became deputy secretary of DHS in late 
December 2013, the first action I took was to schedule a meeting with 
GAO Comptroller General Dodaro. DHS and GAO meet regularly to discuss 
progress on our High-Risk designation, and I have been able to 
participate in several of those productive meetings.
    In 2011, DHS published the Integrated Strategy for High-Risk 
Management (Strategy), to address our High-Risk designation. DHS 
continues to make progress towards High-Risk List removal and publishes 
an updated Strategy on a semiannual basis. Of note is the fact that GAO 
has stated in its most recent High-Risk List update that our 
Department's Strategy, ``if implemented and sustained, provides a path 
for DHS to be removed from GAO's High-Risk List.'' Further, earlier 
this year we developed specific action plans to address the 30 key 
outcomes GAO identified as part of the management High-Risk area. Our 
action plans provide month-to-month goals that offer a road map to 
success. Our development of these action plans provided us with the 
opportunity to freshly review our previous efforts and, in certain 
critical areas, to accelerate our time tables materially.
    Question 3. Many of the DHS operating agencies like CBP, TSA, and 
the Coast Guard came with internal inspection capabilities when DHS was 
created. Yet it appears the senior levels have been slow to organize 
Department-wide oversight. It appears that these agencies are not a 
``part of the whole'' from the management perspective. When will DHS-
wide management controls be in place?
    Answer. To further Department-wide management integration, 
Secretary Johnson directed the ``Strengthening Departmental Unity of 
Effort'' initiative in April 2014. In this initiative, the Secretary 
directs specific activities across four main lines of effort: Inclusive 
senior leader discussion and decision-making forums that provide an 
environment of trust and transparency; strengthened management 
processes for investment, including requirements, budget, and 
acquisition processes, that look at cross-cutting issues across the 
Department; focused, collaborative Departmental strategy, planning, and 
analytic capability that supports more effective DHS-wide decision-
making and operations; and enhanced coordinated operations to harness 
the significant resources of the Department more effectively. The goal 
is better understanding of the broad and complex DHS mission space and 
empowering DHS components to effectively execute their operations.
    To that end, the Secretary, in a June 26, 2014 memorandum to DHS 
leadership, established the DHS Joint Requirements Council to ``look at 
cross-component requirements and develop recommendations for 
investment, as well as changes to training organization, laws, and 
operational processes and procedures.'' This component-led, component-
driven body will be organized around the five DHS primary mission areas 
and begin to tackle issues involving information-based screening and 
vetting; chemical, biological, radiological, and nuclear surveillance 
and detection; aviation commonality; cybersecurity; and information 
sharing with potential impacts beginning as early as the DHS budget 
submission to OMB this September. Other unity-of-effort initiative 
pieces, including strengthened budget and acquisition process, will 
also lead to greater management control.
    Question 4. Referring to your technology programs across DHS, there 
is strong criticism from the private-sector suppliers that DHS fails to 
provide multi-year plans that would guide private R&D investment. Why 
can't DHS seem to get forward planning for major programs right?
    Answer. A primary challenge in developing and executing optimal 
multi-year plans to guide private R&D investment is the reality of 
fiscal uncertainty: The Department is not assured of sustained funding 
streams for long-term efforts.
    DHS has worked hard to create a sustainable process to validate 
Department-wide requirements across the DHS primary mission areas to 
inform investment decisions and drive acquisitions. The Secretary's 
June 26, 2014 memorandum to DHS leadership establishing a DHS Joint 
Requirements Council to ``look at cross-component requirements and 
develop recommendations for investment, as well as changes to training 
organization, laws, and operational processes and procedures'' will 
help us to achieve that goal. By studying requirements across 
components and developing ``joint'' solutions from a range of potential 
alternative capabilities, the Department should be able to more 
predictably interface with the private sector earlier in order to 
better partner to meet the challenges faced by the Nation in securing 
the homeland.
    Further, the Department's increased focus on looking at full life-
cycle program costs across the entire 5-year Homeland Security budget 
should increase awareness and reduce uncertainty for our private 
industry partners. To this end, newly-confirmed Under Secretary for 
Science and Technology Dr. Reginald Brothers has also prioritized 
development of an updated Science and Technology Directorate (S&T) 
Strategic Plan complemented by technology roadmaps in S&T's major 
investment areas. These types of products are fundamental for 
communicating S&T's direction and vision to industry in order to better 
align and incentivize private R&D investment in DHS and Homeland 
Security Enterprise needs and priorities. Moving forward, S&T's 
Strategic Plan and roadmaps, along with a revamped approach to creating 
and sharing project requirements, will help strengthen and energize the 
Department's and S&T's partnership with the Homeland Security 
Industrial Base.
 Question From Chairman Michael T. McCaul and Ranking Member Bennie G. 
                      Thompson for Gene L. Dodaro
    Question. Please provide us in writing what you think it would take 
for the Department of Homeland Security (DHS) to run seamlessly, all 
the components within the Department using one standard for procurement 
and other things.
    Answer. DHS could enhance its overall efficiency and effectiveness 
by continuing to implement and strengthen key management initiatives, 
including fully achieving key management outcomes that we and DHS have 
agreed are necessary for addressing our designation of DHS management 
functions as high-risk. Achieving some of these outcomes will entail 
implementing Department-wide standards, such as standards pertaining to 
information technology (IT) and acquisition management.
    Specifically, DHS needs to demonstrate continued progress in 
implementing and strengthening key management initiatives and 
addressing corrective actions and outcomes in human capital management, 
acquisition management, financial management, and IT. This includes 
taking steps to implement certain common standards Department-wide. For 
example,
  <bullet> As we reported in May 2014, DHS's acquisition policy largely 
        reflects key acquisition management practices, but the 
        Department has not implemented the policy consistently.\1\ For 
        example, in March 2014, we found that the Transportation 
        Security Administration (TSA) does not collect or analyze 
        available information that could be used to enhance the 
        effectiveness of its advanced imaging technology.\2\ In March 
        2014, we also found that U.S. Customs and Border Protection 
        (CBP) had not fully followed DHS policy regarding testing for 
        the integrated fixed towers being deployed on the Arizona 
        border.\3\ We recommended that CBP revise its testing plan in 
        accordance with DHS acquisition guidance, among other things. 
        DHS did not concur with our recommendation and stated that the 
        existing test plan will provide much, if not all, of the 
        insight contemplated by the intent of the recommendation. We 
        continue to believe that revising the test plan to include more 
        robust testing to determine operational effectiveness and 
        suitability could better position CBP to evaluate integrated 
        fixed-tower capabilities before moving to full production for 
        the system, help provide CBP with information on the extent to 
        which the towers satisfy the Border Patrol's user requirements, 
        and help reduce potential program risks.
---------------------------------------------------------------------------
    \1\ GAO, Department of Homeland Security: Progress Made; 
Significant Work Remains in Addressing High-Risk Areas, GAO-14-532T 
(Washington, DC: May 7, 2014).
    \2\ GAO, Advanced Imaging Technology: TSA Needs Additional 
Information Before Procuring Next-Generation Systems, GAO-14-357 
(Washington, DC: Mar. 31, 2014).
    \3\ GAO, Arizona Border Surveillance Technology Plan: Additional 
Actions Needed to Strengthen Management and Assess Effectiveness, GAO-
14-368 (Washington, DC: Mar. 3, 2014). Integrated fixed towers are to 
consist of surveillance equipment (for example, ground surveillance 
radars and surveillance cameras) mounted on fixed, that is, stationary 
towers, and power generation and communication equipment to support the 
towers.
---------------------------------------------------------------------------
  <bullet> In May 2014, we also reported that work is needed to 
        demonstrate progress in implementing IT investment management 
        processes across DHS's 13 IT investment portfolios.\4\ In July 
        2012, we recommended that DHS finalize the policies and 
        procedures associated with its new tiered IT governance 
        structure and continue to implement key processes supporting 
        this structure.\5\ DHS agreed with these recommendations; 
        however, as of April 2014, the Department had not finalized the 
        key IT governance directive, and the draft structure had been 
        implemented across only 5 of the 13 investment portfolios.\6\
---------------------------------------------------------------------------
    \4\ GAO-14-532T.
    \5\ GAO, Information Technology: DHS Needs to Further Define and 
Implement Its New Governance Process, GAO-12-818 (Washington, DC: July 
25, 2012).
    \6\ The draft structure had been implemented across the following 
five portfolios: Intelligence, screening, information sharing and 
safeguarding, enterprise IT services, and enterprise human capital.
---------------------------------------------------------------------------
    More uniformly implementing these common standards across the 
Department and showing measurable, sustainable progress in implementing 
other key management initiatives can help DHS more fully address GAO's 
high-risk designation. We are continuing to review DHS's progress in 
these areas and will update our assessment of DHS's efforts to address 
our high-risk designation early next year.
      Question From Honorable Yvette D. Clarke for Gene L. Dodaro
    Question. Some individuals believe that DHS disciplinary practices 
are inequitable and oftentimes arbitrary. For example, there is no 
Department-wide standard for penalties, and the same offense can 
engender different results without any sound reason for this 
discrepancy. Would you agree that the Department could benefit from 
standardized disciplinary processes? Does not having these processes in 
place have an impact on low morale, for instance? If not, why?
    Answer. We have not specifically assessed the standardization of 
disciplinary practices at DHS, but our work has found that TSA could 
strengthen its monitoring of allegations of employee misconduct.
    In July 2013, we found that TSA could strengthen its monitoring of 
allegations of employee misconduct.\7\ Specifically, we found that:
---------------------------------------------------------------------------
    \7\ GAO, Transportation Security: TSA Could Strengthen Monitoring 
of Allegations of Employee Misconduct, GAO-13-624 (Washington, DC: July 
30, 2013).
---------------------------------------------------------------------------
  <bullet> According to TSA employee misconduct data that we analyzed, 
        TSA investigated and adjudicated approximately 9,600 cases of 
        employee misconduct from fiscal years 2010 through 2012. While 
        TSA had taken steps to help manage the investigations and 
        adjudication process, such as providing training to TSA staff 
        at airports, we found that additional procedures could help TSA 
        better monitor the investigations and adjudications process. 
        For example, TSA did not have a process for conducting reviews 
        of misconduct cases to verify that TSA staff at airports were 
        complying with policies and procedures for adjudicating 
        employee misconduct. We concluded that without a review 
        process, it is difficult to determine the extent to which 
        deficiencies, if any, exist in the adjudications process.
  <bullet> Further, we found that TSA did not record all misconduct 
        case outcomes, including outcomes in cases that resulted in 
        corrective action or no penalty, in its centralized case 
        management system because the agency had not issued guidance 
        requiring the recording of all outcomes. We concluded that 
        issuing guidance to TSA staff at airports about recording all 
        case outcomes in the database would emphasize management's view 
        of the importance of staff including such information to 
        provide a more complete record of adjudication decisions.
  <bullet> We recommended, among other things, that TSA establish a 
        process to conduct reviews of misconduct cases to verify that 
        TSA staff at airports are complying with policies and 
        procedures for adjudicating employee misconduct, and develop 
        and issue guidance to the field clarifying the need for TSA 
        officials at airports to record all misconduct case outcomes in 
        the centralized case management system. DHS concurred with the 
        recommendations, and TSA is taking actions in response, such as 
        increased auditing of disciplinary records to help ensure that 
        airport staff are complying with policies and procedures for 
        adjudicating employee misconduct.
      Question From Chairman Michael T. McCaul for Gene L. Dodaro
    Question. Please elaborate on your comments regarding Congressional 
committees with a jurisdiction on homeland security issues. 
Specifically, to what extent have repetitive or redundant hearings and 
briefings (i.e., those involving substantially the same subject matter 
but provided separately to more than one committee) led to 
inefficiencies and inhibited progress by the Department to address 
items on the High-Risk List? Have these particular hearings and 
briefings increased over time, in comparison to previous Congresses? 
Does the fact that multiple components at the Department lacking 
authorizations (which have not been enacted due to jurisdictional 
battles) have any effect on the ability of these components and DHS 
Headquarters to enact necessary reforms, since potential necessary 
authorities are not codified?
    Answer. GAO has not analyzed the impact of hearings and briefings 
on DHS's ability to address items on GAO's high-risk list, trends in 
the number of DHS-related hearings and briefings, or the potential 
effects of the lack of authorizing legislation on DHS's ability to 
carry out necessary reforms. In December 2002, we did report that the 
creation of DHS had raised questions regarding how the Congress could 
best meet its oversight responsibilities, and that DHS would be 
overseen by numerous Congressional committees.\8\ At the time we 
observed that the Congress may wish to explore ways to facilitate 
conducting its responsibilities in a more consolidated and integrated 
manner, and noted that whether the Congress did so could have an impact 
on the effective implementation and oversight of DHS.
---------------------------------------------------------------------------
    \8\ GAO, Homeland Security: Management Challenges Facing Federal 
Leadership, GAO-03-260 (Washington, DC: Dec. 20, 2002).
---------------------------------------------------------------------------
    In 2003 we designated implementing and transforming the Department 
of Homeland Security as high-risk because DHS had to transform 22 
agencies--several with major management challenges--into one 
department, and failure to address associated risks could have serious 
consequences for U.S. National and economic security.\9\ It is 
noteworthy to recognize, however, that since 2003, DHS has made 
considerable progress in transforming its original component agencies 
into a single department. As a result, in our 2013 high-risk update, we 
narrowed the scope of the high-risk area to focus on strengthening DHS 
management functions.\10\
---------------------------------------------------------------------------
    \9\ GAO, High-Risk Series: An Update, GAO-03-119 (Washington, DC: 
Jan. 1, 2003).
    \10\ GAO, High-Risk Series: An Update, GAO-13-283 (Washington, DC: 
Feb. 14, 2013).
---------------------------------------------------------------------------
    DHS remains on the high-risk list because the Department has not 
made sufficient progress addressing GAO's high-risk removal criteria, 
such as having a framework to monitor progress, capacity (having 
sufficient resources), and demonstrating clear, sustained progress. 
Specifically, our work at DHS has found that the Department has made 
progress strengthening its management functions, including developing 
policies that provide a framework for addressing management challenges. 
However, we have found in our past work that DHS does not always adhere 
to its own policies. For example, DHS's acquisition policy largely 
reflects key acquisition management practices, but in September 2012, 
we found that the Department has not implemented the practices 
consistently. Further, we found that DHS has made progress in 
initiating efforts to validate required acquisition documents.\11\ 
However, the Department does not have the acquisition management tools 
in place to consistently demonstrate whether its major acquisition 
programs are on track to achieve their cost, schedule, and capability 
goals. Accordingly, about half of DHS's major programs lack an approved 
baseline, and 77 percent lack approved life-cycle cost estimates.
---------------------------------------------------------------------------
    \11\ GAO, Homeland Security: DHS Requires More Disciplined 
Investment Management to Help Meet Mission Needs, GAO-12-833 
(Washington, DC: Sept. 18, 2012).
---------------------------------------------------------------------------
         Question From Honorable Jeff Duncan for Gene L. Dodaro
    Question. The Office of Program Accountability and Risk Management 
(PARM) is responsible for DHS's overall acquisition management across 
the Department, and has work underway to implement an Acquisition Life 
Cycle framework for major acquisitions. Among other things, this 
framework outlines key decision events over the life of a program. This 
``waterfall'' approach may be fine for most types of acquisitions; but 
for IT acquisitions, it promotes longer time frames for delivering 
capabilities (often 5-7 years) and increased risk of cost, schedule, 
and performance issues. The Office of the Chief Information Officer 
(OCIO) is responsible for IT investment governance, including IT 
systems development. OCIO has work underway to modify, finalize, and 
implement systems acquisition policies and processes in line with an 
incremental development approach, which calls for breaking programs 
into smaller increments and delivering capabilities in 6-12 month 
releases. It will be important for PARM and OCIO to collaborate on a 
way forward to define roles and responsibilities, and modify the 
Acquisition Framework as needed to accommodate an incremental 
development approach to IT. How efficiently and effectively do DHS's 
acquisition and IT governance processes work in concert with one 
another to ensure that major IT investments are delivered within cost 
and schedule, and meet mission needs?
    Answer. We have found in our prior work that DHS has not yet fully 
established or finalized its acquisition and IT governance processes; 
however, we found that these processes, as defined and implemented thus 
far, may be leading to slowed IT development work, as well as 
ineffective or redundant executive oversight reviews. For example:
  <bullet> Slowed IT development work.--In our May 2014 report on 
        agencies' IT incremental development policies and approaches, 
        we found that DHS OCIO officials had cited inefficient 
        governance and oversight processes as one common factor, among 
        others, inhibiting incremental development during a 6-month 
        period.\12\ To illustrate, those officials said that it can 
        take up to 2 months to schedule a meeting with DHS review 
        boards prior to releasing functionality. However, we also 
        reported that a Program Accountability and Risk Management 
        (PARM) official disagreed with that statement, maintaining that 
        DHS's acquisition review boards perform reviews very quickly, 
        and that any delays in completing these reviews are 
        attributable to investments being unprepared. Further, DHS OCIO 
        officials suggested that oversight of programs using an Agile 
        development methodology should be performed at the lowest 
        practicable level of the organization.\13\ Regardless of the 
        cause, these inefficiencies are hampering DHS's ability to 
        deploy IT capabilities in 6-month increments. Accordingly, we 
        recommended that DHS consider factors that either enable or 
        inhibit incremental development when updating the Department's 
        policies governing incremental IT development. DHS concurred 
        with our recommendation and stated that it plans to include 
        strategies in its guidance to minimize factors identified as 
        inhibiting incremental development. It will be important for 
        DHS's OCIO and PARM offices to work collaboratively to 
        effectively address this recommendation.
---------------------------------------------------------------------------
    \12\ GAO, Information Technology: Agencies Need to Establish and 
Implement Incremental Development Policies, GAO-14-361 (Washington, DC: 
May 1, 2014).
    \13\ Agile development calls for the delivery of software in small, 
short increments rather than in the typically long, sequential phases 
of a traditional waterfall approach. More a philosophy than a 
methodology, Agile emphasizes early and continuous software delivery, 
as well as using collaborative teams and measuring progress with 
working software. The Agile approach was first articulated in a 2001 
document called the Agile Manifesto, which is still used today. The 
manifesto has four values: (1) Individuals and interactions over 
processes and tools, (2) working software over comprehensive 
documentation, (3) customer collaboration over contract negotiation, 
and (4) responding to change over following a plan.
---------------------------------------------------------------------------
  <bullet> Ineffective or redundant executive oversight reviews.--In 
        December 2013, we reported on the effectiveness of the 
        executive governance and oversight of the Department's two TECS 
        modernization (TECS Mod) border security programs.\14\ While we 
        found that OCIO and PARM had taken actions to oversee the two 
        programs, the lack of complete, timely, and accurate data had 
        affected their ability to make informed and timely decisions, 
        thus limiting their effectiveness in several cases. For 
        example, we found that OCIO had rated one of the programs as 
        moderately low-risk in its most recent program health 
        assessment, based partially on U.S. Customs and Border 
        Protection's use of earned value management. However, the 
        program manager told us that the other program was not using 
        this management technique. In addition, PARM had rated the 
        other program as low-risk in its most recent Quarterly Program 
        Accountability Report based in part on outdated cost and 
        schedule estimates. Accordingly, we made a recommendation to 
        improve the data used by these governing bodies for major IT 
        acquisition programs. DHS concurred and stated that it has 
        taken steps to ensure that the data used by the IT program 
        acquisition programs are accurate and complete, such as 
        implementing a decision support tool. However, we identified 
        instances where DHS governance and oversight bodies were acting 
        on information that was not complete, timely, or accurate, 
        despite the presence of such a tool.
---------------------------------------------------------------------------
    \14\ GAO, Border Security: DHS's Efforts to Modernize Key 
Enforcement Systems Could Be Strengthened, GAO-14-62 (Washington, DC: 
Dec. 5, 2013).
---------------------------------------------------------------------------
    In addition, while both PARM and OCIO have responsibility for 
        ensuring that IT system acquisition programs are on track, it 
        is not always clear whether these roles are distinct. Our 
        December 2013 review also showed overlap in the program 
        assessments conducted by PARM and OCIO--in particular, with 
        regard to risk and requirements management, and cost and 
        schedule performance. We recently initiated a review to, among 
        other things, assess PARM's coordination efforts with DHS 
        components (including OCIO) to conduct oversight of major 
        acquisitions.
    Additionally, as we testified in May 2014, the Department has yet 
to finalize its key IT governance directive, and the draft structure 
has been implemented across only 5 of the 13 IT investment 
portfolios.\15\ It will be critical for DHS to complete these actions 
in order to ensure that all IT investments are appropriately aligned 
with the Department's enterprise architecture (i.e., to avoid acquiring 
duplicative or overlapping systems), adequately overseen to ensure that 
key IT management controls (e.g., requirements management) are being 
properly implemented and monitored, and delivered as planned. Because 
both PARM and OCIO play important roles in ensuring that IT investments 
are effectively acquired and implemented, these two organizations will 
need to work closely together to ensure that IT projects are delivered 
incrementally and often and that DHS finalizes the IT governance 
directive.
---------------------------------------------------------------------------
    \15\ GAO, Department of Homeland Security: Progress Made; 
Significant Work Remains in Addressing High-Risk Areas, GAO-14-532T 
(Washington, DC: May 7, 2014).
---------------------------------------------------------------------------
         Question From Honorable Tom Marino for Gene L. Dodaro
    Question. In your testimony you mention that the National Flood 
Insurance Program (NFIP) has not made a single payment on the principal 
borrowed from the Department of the Treasury since 2010. Under current 
law, could you estimate when the NFIP would, or could, fully repay the 
amount owed to the Treasury?
    Answer. We have not made our own estimates of how long the Federal 
Emergency Management Agency (FEMA) would need to repay the $24 billion 
it has borrowed from Treasury for the NFIP. Nevertheless, information 
from a report we issued in April 2014 provides some insight into FEMA's 
prospects for repayment.\16\ In that report, we noted that the Biggert-
Waters Flood Insurance Reform Act of 2012 (Biggert-Waters Act) requires 
FEMA to issue a report to Congress setting forth options to repay 
FEMA's total debt to Treasury within 10 years.\17\ Although the report 
was due in January 2013, FEMA has not yet issued such a report. FEMA 
officials told us that before the enactment of the Homeowner Flood 
Insurance Affordability Act of 2014 (2014 Act), they had conducted 
preliminary analysis assessing FEMA's repayment ability under scenarios 
that use different assumptions about future NFIP losses.\18\ The 
officials said the assessment showed that, under FEMA's planned 
implementation of the Biggert-Waters Act, the agency would not reach 
the 10-year repayment goal under any of the scenarios. Implementation 
of the 2014 Act may further reduce the likelihood of repayment within 
10 years because the Act reduces future program premium revenue by 
reinstating subsidized and grandfathered rates the Biggert-Waters Act 
had eliminated.
---------------------------------------------------------------------------
    \16\ GAO, Economic Development: Overview of GAO's Past Work on the 
National Flood Insurance Program, GAO-14-297R (Washington, DC: Apr. 9, 
2014).
    \17\ Pub. L. No. 112-141,  100213(b), 126 Stat. 405, 924.
    \18\ See Pub. L. No. 113-89, 128 Stat. 1020.
---------------------------------------------------------------------------
    Our April 2014 report also noted that, according to FEMA officials, 
in some years the agency has not had sufficient funds to make principal 
payments and, in other years, could have made principal payments but 
chose to preserve its cash balances to help avoid the need for future 
borrowing. A key factor affecting FEMA's future borrowing needs and 
ability to repay its debt is future losses. However, the frequency and 
severity of future flood losses are difficult to predict.
        Questions From Chairman Michael T. McCaul for John Roth
    Question 1. In your testimony, you highlighted a November 2012 
audit where the Department of Homeland Security (DHS) Office of 
Inspector General (OIG) tested DHS radios to determine whether DHS 
components could talk to each other in the event of a terrorist event 
or other emergency. Only 1 of 479 radio users tested--or less than one-
quarter of 1 percent--could access and use the specified common channel 
to communicate. Further, of the 382 radios tested, only 20 percent (78) 
contained all the correct program settings for the common channel. You 
testified that the reason the response rate was so low was that DHS did 
not establish an effective governing structure with the authority and 
responsibility to ensure it achieved Department-wide, interoperable 
radio communications. What is needed for DHS to establish an effective 
governing structure to solve this problem? What progress has DHS made 
since the report in ensuring operators know how to properly use their 
radio?
    Answer. According to the Office of Management and Budget, an 
effective governing structure includes clearly-defined areas of 
responsibility, appropriately delegated authority, and a suitable 
hierarchy for reporting. DHS created working groups, committees, and 
offices to explore Department-wide communication issues, including 
interoperability. However, none had the authority to implement and 
enforce their recommendations. DHS must establish a structure that has 
actual authority to enforce recommendations.
    DHS prepared a draft DHS Communications Interoperability Plan 
(DCIP). As of today, the DCIP is still in draft. According to the DCIP, 
as we pointed out in our report, governance is the critical foundation 
of all efforts to address communication interoperability. Also 
according to the DCIP, existing agreements governing interoperability 
do not sufficiently support DHS' current needs. The Joint Wireless 
Program Management Office (JWPMO) and the One DHS Emergency 
Communications Committee are coordinating to determine appropriate 
roles and responsibilities. According to DHS, on March 17, 2013, the 
DCIP was briefed to the One DHS Emergency Communications Committee. It 
was approved and signed by the Assistant Secretary for the National 
Protection and Programs Directorate; however, the DCIP is on hold, 
pending a review of the Tactical Communications Executive Steering 
Committee (TacCom ESC) and the outcome of H.R. 4289, the Department of 
Homeland Security Interoperable Communications Act. Wording in H.R. 
4289 may lead to a redefinition of interoperability and reassignment of 
interoperable responsibilities. The estimated date of DCIP signature 
has been extended from April 14, 2014, to the end of fiscal year 2014 
(September 30, 2014). This will allow time for the TacCom ESC meeting 
to be scheduled and completed, as well as allow time for any requested, 
additional follow-up briefings.
    Historically, the JWPMO and its predecessor organizations have not 
had success in achieving interoperability.
    Question 2. It appears that the technology is available to achieve 
interoperable communications. Does DHS have the proper infrastructure 
to use their IT network as a way to connect radios and other devices, 
such as smartphones, in both a command center and an operational 
environment?
    Answer. DHS does not currently have the IT infrastructure to 
support a broadband network in the operational environment. We have not 
done any work specifically looking at this capability, but the 
available body of knowledge provides the following insights.
  <bullet> A broadband network could improve incident response, by 
        providing video and data not currently available on Land Mobile 
        Radio (LMR) systems; Nation-wide access; and interoperability.
    <bullet> The Government Accountability Office (GAO) and public 
            safety organizations and officials indicate that mission-
            critical voice communication will not likely be available 
            on broadband networks for many years.
    <bullet> There is disagreement among industry experts about how 
            soon mission-critical voice capability could be available--
            some industry experts predict voice capabilities will be 
            available within a few years, while others project it will 
            not be available for at least a decade.
    <bullet> Long-term Evolution (LTE), the Federal Communications 
            Commission standard for public safety broadband 
            communication, is not currently designed to support 
            mission-critical voice communication, such as push-to-talk.
    <bullet> GAO has reported other communication limitations 
            associated with broadband networks, such as limited network 
            access inside large buildings or underground.
    <bullet> GAO has reported that any new broadband network could 
            require up to 10 times the number of towers as current LMR 
            systems because, as a cellular network, broadband would use 
            a series of lower power towers to transmit signals and 
            reduce interference.
    <bullet> Additional towers for the broadband network would also 
            need to be hardened to withstand disasters, such as 
            hurricanes.
    <bullet> GAO has reported that a broadband network would 
            supplement, rather than replace, LMR systems for the 
            foreseeable future. Also, until there is mission-critical 
            voice communication, a public safety broadband network will 
            not resolve interoperability issues exacerbated by past 
            emergency responses.
  <bullet> DHS approved its TacNet program in March 2011 and directed 
        establishment of the JWPMO to coordinate the program.
    <bullet> TacNet, a new DHS acquisition program, seeks to leverage 
            public safety broadband and commercial networks to develop 
            a single network capable of supporting voice, video, and 
            data capabilities through DHS subscriptions to LTE public 
            safety and commercial broadband networks.
    <bullet> In collaboration with the JWPMO, the DHS Science & 
            Technology Directorate plans to award $7.5 million in 
            contracts this fiscal year for a technology demonstrator 
            program that will offer mission-critical voice capabilities 
            and accommodate DHS video and data needs on a broadband, 
            LTE network.
    <bullet> DHS plans to limit upgrading and modernizing its current 
            LMR systems, based on DHS priorities and mission-critical 
            needs, to address equipment obsolescence, Federal 
            narrowband and security requirements, and interoperability 
            standards.
    <bullet> DHS has estimated that full modernization of its legacy 
            radio systems to meet these requirements would cost about 
            $3.2 billion. In March 2012, DHS awarded a $3 billion 
            Department-wide contract to acquire equipment and services 
            needed to maintain, upgrade, and modernize its legacy LMR 
            system.
           Question From Honorable Jeff Duncan for John Roth
    Question. According to an AP news report in 2012, Suzanne Barr, a 
senior Obama administration political appointee at Immigration and 
Customs Enforcement (ICE), resigned amid allegations of inappropriate 
sexual behavior and cultivating a ``frat house'' atmosphere at ICE. 
Prior to her resignation, Suzanne Barr was serving as chief of staff to 
former ICE Director John Morton. It appears that an OIG investigation 
was started, but did not continue after Barr resigned. As the newly-
confirmed DHS inspector general, please explain to the committee what 
became of this investigation and why it appears that the investigation 
did not continue.
    Answer. The Office of Investigations, Office of Inspector General, 
did not open an investigation into allegations of misconduct by Suzanne 
Barr in 2012. We conducted a preliminary inquiry as we were made aware 
of the allegations. We established there was an on-going Title VII 
civil suit filed by an Immigration and Customs Enforcement special 
agent in charge in New York City claiming harassment and retaliation. 
This litigation overlapped with the allegations we were aware of. 
Additionally, Suzanne Barr resigned in September 2012. Any Office of 
Inspector General administrative investigation would have been rendered 
moot as she was no longer a DHS employee.
    With regards to an allegation we received in November 2011, in 
December 2011 the Office of Inspector General issued a Report of 
Investigation to then-Immigration and Customs Enforcement Director John 
Morton. The investigation was initiated based on a referral from 
Immigration and Customs Enforcement, Office of Professional 
Responsibility alleging that Suzanne Barr and Tracey Bardoff, assistant 
director, Immigration and Customs Enforcement misused Government funds 
to pay for their July 20, 2011 official travel to Mexico City, Mexico 
and a subsequent personal trip to Cancun, Mexico on July 22, 2011. The 
allegation further stated neither attended the official meetings in 
Mexico City, Mexico. The investigation developed no evidence that 
either Barr or Bardoff misused Government funds.

                                 [all]

</pre></body></html>
